<html>
<title> - THE FISCAL YEAR 2012: DEPARTMENT OF ENERGY AND NUCLEAR REGULATORY COMMISSION BUDGETS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






   THE FISCAL YEAR 2012: DEPARTMENT OF ENERGY AND NUCLEAR REGULATORY 
                           COMMISSION BUDGETS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2011

                               __________

                           Serial No. 112-20




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
68-480 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
MARY BONO MACK, California           BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
SUE WILKINS MYRICK, North Carolina   DIANA DeGETTE, Colorado
  Vice Chair                         LOIS CAPPS, California
JOHN SULLIVAN, Oklahoma              MICHAEL F. DOYLE, Pennsylvania
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            CHARLES A. GONZALEZ, Texas
MARSHA BLACKBURN, Tennessee          JAY INSLEE, Washington
BRIAN BILBRAY, California            TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                ANTHONY D. WEINER, New York
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                  (ii)


                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               JAY INSLEE, Washington
JOHN SHIMKUS, Illinois               JIM MATHESON, Utah
MARY BONO MACK, California           JOHN D. DINGELL, Michigan
MIKE ROGERS, Michigan                EDWARD J. MARKEY, Massachusetts
BRIAN BILBRAY, California            ELIOT L. ENGEL, New York
CHARLES F. BASS, New Hampshire       GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
PHIL GINGREY, Georgia                MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             CHARLES A. GONZALEZ, Texas
ROBERT E. LATTA, Ohio                HENRY A. WAXMAN, California (ex 
BRETT GUTHRIE, Kentucky                  officio)
ADAM KINZINGER, Illinois
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                ------                                7

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TOMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              HENRY A. WAXMAN, California (ex 
CORY GARDNER, Colorado                   officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)











                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
    Prepared statement...........................................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     7
    Prepared statement...........................................     8
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, prepared statement..............................   123
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, prepared statement................................   124

                               Witnesses

Steven Chu, Secretary, United States Department of Energy........    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................   130
Gregory Jaczko, Chairman, Nuclear Regulatory Commission..........    79
    Prepared statement...........................................    82
    Answers to submitted questions...............................   175

                           Submitted Material

Supplemental memorandum, submitted by Mr. Waxman.................   126

 
   THE FISCAL YEAR 2012: DEPARTMENT OF ENERGY AND NUCLEAR REGULATORY 
                           COMMISSION BUDGETS

                              ----------                              


                       WEDNESDAY, MARCH 16, 2011

                  House of Representatives,
                  Subcommittee on Energy and Power,
                                             joint with the
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 9:35 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee on Energy and Power) 
presiding.
    Members present: Representatives Whitfield, Upton (ex 
officio), Barton, Shimkus, Pitts, Terry, Burgess, Bilbray, 
Bass, Scalise, Latta, Harper, Cassidy, McKinley, Gardner, 
Griffith, Waxman (ex officio), Dingell, Markey, Rush, Green, 
DeGette, Capps, Doyle, Inslee, and Matsui.
    Staff present: Maryam Brown, Chief Counsel, Energy and 
Power; Allison Busbee, Legislative Clerk; Andy Duberstein, 
Special Assistant to Chairman Upton; Mike Gruber, Senior Policy 
Advisor; Dave McCarthy, Chief Counsel, Environment and the 
Economy; Mary Neumayr, Counsel, Oversight/Energy; Peter 
Spencer, Professional Staff Member, Oversight; Jeff Baran, 
Democratic Senior Counsel; Phil Barnett; Democratic Staff 
Director; Gret Dotson, Democratic Energy and Environment Staff 
Director; Caitlin Haberman, Democratic Policy Analyst; and 
Karen Lightfoot, Democratic Communications Director, and Senior 
Policy Advisor.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. We will call the hearing to order this 
morning. The title of today's hearing is ``The Fiscal Year 2012 
Department of Energy and Nuclear Regulatory Commission 
Budgets.'' And we certainly extend a warm welcome to Secretary 
Steven Chu, Secretary of the U.S. Department of Energy. Mr. 
Secretary, we appreciate your being with us today very much and 
look forward to your testimony. We also have with us on the 
second panel the Honorable Gregory Jaczko, who is chairman of 
the Nuclear Regulatory Commission.
    Circumstances have certainly changed since we decided to 
have this hearing, and with the events taking place in Japan we 
all want to extend our very best wishes and thoughts to the 
people of Japan as the result of this tragedy. And we will 
certainly benefit today from the insights of Dr. Chu and Dr. 
Jaczko on this ongoing matter.
    Obviously, nuclear energy plays a vital role in the energy 
needs of our country today. It provides roughly 20 percent of 
all electricity generated in America. Countries like France and 
Japan have an even greater percentage of electricity produced 
from energy. And we recognize the importance, when we talk 
about energy, also of the safety aspect of that as well.
    And while I didn't really intend to talk a lot about 
nuclear energy today, there are so many points relating to our 
country as it pertains to nuclear energy today: the storage 
issue, Yucca Mountain, what is happening there, the 104, 106 
nuclear plants around the country and the location on those 
sites of the waste material instead of going to Yucca Mountain, 
the permitting period, roughly 10 years to get a plant 
permitted. In other countries it is less than that but, as we 
have learned just in the last few days from what happened in 
Japan, we can expect unexpected events to occur and we have to 
maximize safety. I, for one, do not believe that we can meet 
our future demands of energy without nuclear playing a vital 
role in that.
    So Mr. Secretary, we are going to look forward to your 
testimony. I know that there will be a lot of questions for 
you. And at this time I would recognize for his opening 
statement Mr. Rush of Illinois.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    <bullet> Sadly, this hearing has been overtaken by events 
in Japan. Our hearts go out to an ally that has lost thousands 
of its citizens in this tragedy, and we closely follow 
unfolding events there, including the situation at the damaged 
nuclear power plants. On the last point we will certainly 
benefit from the insights of Dr. Chu and Dr. Jaczko on this 
ongoing matter.
    <bullet> The energy challenges America faces are daunting,
    o from high gasoline prices,
    o to EPA global warming regulations adding even further to 
the regulatory burden on fossil fuels,
    o to questions about whether there will be enough electric 
generating capacity to meet the nation's future needs and 
enough transmission lines to deliver it,
    o to whether we have a long-term solution for nuclear waste 
storage, and a great many others.
    <bullet> The Department of Energy and Nuclear Regulatory 
Commission have long dealt with many of these challenges, and I 
look forward to working with both of them to find the energy 
solutions America needs.
    <bullet> But those solutions begin with the reality that 
fossil fuels--the coal, oil, and natural gas that provide 
America with 70 percent of its energy--are a critical 
component. Without affordable fossil fuels consumers suffer at 
the pump and when paying their electric and natural gas bills, 
and manufacturers don't have the low cost energy they need to 
compete in a global marketplace. After all, the only reason we 
use so much fossil fuels is that they are affordable relative 
to the alternatives.
    <bullet> Yet the Office of Fossil Energy, in line with 
President Obama's State of the Union remarks that fossil fuels 
are ``yesterday's energy,'' gives short shrift to funding into 
fossil energy sources.
    <bullet> Quite frankly, a 44.5 percent decrease is out of 
step with the challenges we face. This is especially so given 
EPA regulations that increasingly make it more difficult to use 
fossil fuels. We should not have one agency complicating the 
use of fossil fuels with more and more regulations while 
another cuts back on the research into needed breakthroughs. 
And we certainly do not need the proposed tax increases on 
domestic oil and gas, which would only serve to constrain 
production here in the U.S. and raise prices on consumers.
    <bullet> The cuts in the Office of Fossil Energy include a 
26 percent reduction in funding for coal research. Given the 
economic and national security benefits of coal--the energy 
source America possesses in greatest abundance, and one whose 
full potential is still not being realized--I believe these 
cuts are ill-advised.
    <bullet> I am pleased that the DOE budget included 
additional funds for the nuclear loan guarantee program, but I 
do not support the Administration's concurrent actions to shut 
down the statutorily mandated Yucca Mountain Program. DOE alone 
has spent $13.5 billion of ratepayers' money on this project 
and because the project is not finished another $15 billion has 
been spent in settlements with utilities companies because the 
federal government is not meeting its obligations.
    <bullet> I am pleased that in America we have the most 
robust and dependable nuclear power systems in the world and I 
believe that we need to promote that power in a way that is 
beneficial to the public. However, permitting for new plants 
and re-permitting for existing plants is simply too slow at the 
Nuclear Regulatory Commission.
    <bullet> I know we will learn a great deal from the events 
unfolding in Japan, but in the process we should not do 
anything from a regulatory or legislative standpoint to 
unnecessarily threaten the continued development of what is a 
safe and important part of our base-load power system here in 
the United States.
    <bullet> I look forward to hearing from our witnesses and I 
now yield to the Ranking Member, Mr. Rush.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Well, now, thank you, Mr. Chairman. I want to 
thank Mr. Secretary Chu for being here today. I understand we 
have Chairman Jaczko coming in a little later.
    Before I give my thoughts on the nuclear situation in 
Japan, as you have, Mr. Chairman, I would like to bring 
attention to the drastic cuts that have been proposed by my 
Republican colleague under H.R. 1. Section 3001 of H.R. 1 would 
rescind all unobligated Recovery Act funds without any 
exception. And these cuts would directly impact crucial job-
creating renewable energy projects under the Loan Guarantee 
Program. At least 26 job-creating projects across the country, 
from California to Illinois, Michigan to New York, and Oregon 
to Texas would be affected by these proposed cuts.
    In all, projects with negotiated terms reach $12.5 billion 
in loan guarantees that would create over 28,000 construction 
jobs and over 5,000 permanent jobs are at stake. The Republican 
proposal would basically put all of DOE loan guarantee funding 
into 1 category, and that category is nuclear energy.
    And while I am in support of nuclear energy, I also believe 
we must invest in renewable energy projects that would generate 
power from solar, wind, geothermal, biomass, and cellulosic 
ethanol, as many of these projects do. Mr. Chairman, my State 
of Illinois obtains 47 percent of its electricity from nuclear, 
one of the highest in the Nation. I personally believe that 
nuclear must be part of any portfolio of renewable energy 
sources that will move this Nation forward.
    However, as far as the events unfolding in Japan are 
concerned, my advice for the nuclear energy industry, both here 
and in Japan and elsewhere, would be to be as transparent as 
possible. Transparency is really the key word. The American 
people, the people around the world are looking for 
transparency. They want to believe in the nuclear energy and I 
think it is up to us and others to make that happen. We must 
make sure that we are honest with the American people about 
exactly what we know and also what we do not know.
    Mr. Chairman and Mr. Chairman, I look forward to discussing 
this more in depth during the discussion with Secretary Chu and 
Chairman Jaczko. Thank you, Mr. Chairman, and with that I want 
to recognize Mr. Waxman. I yield back the balance of my time.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    Thank you, Mr. Secretary and Chairman Jaczko for being here 
today. Before I give my thoughts on the nuclear situation in 
Japan, I would like to bring attention to the drastic cuts that 
have been proposed by my Republican colleagues under H.R. 1.
    Section 3001 of H.R. 1 would rescind all unobligated 
Recovery Act funds without any exceptions, and these cuts would 
directly impact crucial, job-creating renewable energy projects 
under the loan guarantee program.
    At least 26 job-creating projects across the country from 
California to Illinois, Michigan to New York, and Oregon to 
Texas would be affected by these proposed cuts.
    In all, projects with negotiated term sheets of $12.5 
billion in loan guarantees that would create over 28,000 
construction jobs and over 5,000 permanent jobs are at stake.
    The Republican proposal would basically put all of DOE loan 
guarantee funding into nuclear energy, and while I am a 
supporter of nuclear energy, I also believe we must invest in 
renewable energy projects that would generate power from solar, 
wind, geothermal, biomass and cellulosic ethanol, as many of 
these projects would do.
    Mr. Chairman, my state of Illinois obtains 47-percent of 
its electricity from nuclear, one of the highest on the 
country.
    I personally believe that nuclear must be part of any 
portfolio of renewable energy sources that will fuel this 
country moving forward.
    However, as far as the events unfolding in Japan are 
concerned, my advice for the nuclear energy industry, both here 
and in Japan, would be to be as transparent as possible.
    We must make sure that we are honest with the American 
people about exactly what we know, and also what we don not 
know.
    In a letter earlier this week, my Democratic colleagues and 
I called for hearings and an independent investigation so that 
when the current crisis mode has ended we can accurately 
explain to the American people what happened and assure them 
that we are prepared for any contingency in our own nuclear 
energy arsenal.
    I look forward to discussing this more in depth during the 
questioning session for Secretary Chu and Chairman Jaczko.
    Thank you Mr. Chairman, and with that I would like to 
recognize Mr. Green from the Environment and the Economy 
subcommittee.

    Mr. Whitfield. Mr. Rush, thank you for your comments. I 
noticed you had about 2 minutes left on your opening statement. 
I had about 2 minutes left on my opening statement, and I was 
looking so forward to hear what you said that I neglected to 
recognize my friend, Mr. Shimkus, who is chairman of the Energy 
and Environment Subcommittee. So I am going to recognize him 
for the remaining 2 minutes of my opening statement. So Mr. 
Shimkus, you are recognized for 2 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    We always live in interesting times and this is another 
one. This is a DOE budget hearing and, of course, budgets are 
all the rage, size-of-government spending. Your budget request 
is 29.5 billion, which is about a 12-percent increase from 
fiscal year 2010, so a lot of questions will be--obviously, 
that is not going to happen. We are going to have to prioritize 
and we are going to have to see what works and go through the 
list and make sure we are funding the priorities, but nowhere 
in America is anyone expecting us to increase the size of 
government and federal agencies by 12 percent. In fact, I 
would--as I said in another hearing--be prepared for 2008 
spending levels or a significantly reduced amount. So that is 
an issue.
    Having said that, we want to, you know, applaud the work 
and continue to support, as Mr. Rush said--I am from Illinois 
also--the nuclear power industry, make sure it is safe. There 
are interesting issues going on with your loan guarantees that 
we want to keep pursuing the 3 facilities that are moving 
forward, while we still have to address--and my subcommittee 
has a nuclear waste portfolio. And we have got to get serious 
about addressing this issue. I will talk about that more in my 
questions, but for the President to have a Blue Ribbon 
Commission that excludes any discussion about Yucca Mountain is 
a fraud. And I think you probably had some writings in the past 
that also addressed the importance of Yucca Mountain. And we 
will continue pushing all of the above energy strategies.
    So with that, my time is expired, Mr. Chairman. So I yield 
back.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from California, the ranking member, for his opening 
statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman, during the last year we have had 
wakeup call after wakeup call warning us that we need a new 
energy policy. Last April a coalmine explosion in West Virginia 
killed 29 miners. It was the worst coal disaster in 40 years. 
That same month, Deepwater Horizon exploded in BP's Macondo 
well. Oil was gushing into the Gulf for 3 months. Now oil is 
$100 a barrel because the Middle East is in turmoil. And Japan 
faces potential nuclear meltdowns at its damaged reactors. We 
don't know yet whether Japan will be able to avoid catastrophic 
release of radioactive material. We don't know what the full 
impact will be, but we should be investigating the safety and 
preparedness of the U.S. facilities.
    After all of these energy catastrophes, it should be 
obvious we need a new energy policy that promotes clean, safe, 
and affordable energy. We need more vehicles that run on 
electricity, natural gas, and renewable fuels. We need more 
wind and solar power. And we need more energy efficiency. 
Instead, what we have gotten from the Republican-controlled 
house is partisanship and an assault on clean energy.
    The Republican budget for this year, H.R. 1, would slash 
DOE's energy efficiency and renewable energy budget by 35 
percent. It would completely eliminate assistance to low-income 
families who want to weatherize their homes or save energy and 
lower their utility bills. And the Republican budget would wipe 
out DOE's ability to award loan guarantees to worthy renewable 
energy projects. This would cost us thousands of jobs. Some of 
these loan guarantees have recipients just waiting to close the 
deal, and now there will be no money left for them, whether it 
is a solar project in California, a wind turbine plant in 
Idaho, a geothermal project in Oregon, a biofuels facility in 
Louisiana. The list goes on. All these projects and all these 
jobs are on the Republican chopping block.
    Yesterday in this committee we debated a bill the 
Republicans said, oh, we are for all-of-the-above energy 
policy. But that is not is what is in their budget. The 
Republican budget would rescind 25 billion of the 47 billion in 
loan guarantee authority provided by Congress in 2009. The bill 
would preserve the entire 18.5 billion in loan guarantees for 
new nuclear reactors and $2 billion available for uranium-
enrichment projects, while leaving only $1.5 billion for all 
other technologies. This is not an all-of-the-above strategy. 
This is an all-nuclear strategy.
    Mr. Chairman, instead of spending our time debating 
partisan legislation that denies science and guts the Clean Air 
Act, we should be working together to encourage clean energy 
investments that will create jobs in the U.S. It should not 
take a nuclear meltdown to make us face reality. We urgently 
need a new energy policy, and I hope the testimony today from 
Secretary Chu and Chairman Jaczko will help point the way.
    I would ask unanimous consent to enter into the record a 
supplemental memo detailing the effects of the Republican 
budget on clean energy jobs.
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Waxman. And Mr. Chairman, I yield now to the ranking 
member of the subcommittee on environment, Mr. Green.
    Mr. Whitfield. The gentleman is recognized.
    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
today on the Department of Energy and Nuclear Regulatory 
Commission's fiscal year 2012 proposed budgets. I want to thank 
Secretary Chu and also Chairman Jaczko for taking the time to 
appear before our committee and I know both of you are 
extremely busy working with Japan to assist them in their 
current situation at several of their nuclear reactors.
    Our thoughts and our prayers are with the people of Japan, 
and I hope the United States can assist them in their time of 
need. This is truly a devastating disaster and they need as 
much assistance from around the world so they can recover.
    As a Member of Congress who represents one of the largest 
energy-producing areas in the country, an area of the country 
that also has permits pending before the Office of Management 
and Budget for construction of new nuclear power plants, I am 
interested in the testimony of our witnesses today.
    In 2008 our Nation produced over 800 billion kilowatt hours 
from nuclear power. Japan produced 245 billion. We need to step 
back and take a breath and see what we need to do to produce 
clean electricity safely and at a reasonable cost. And I know 
that is our bottom line and we need to do that, particularly 
with what has happened with Japan.
    And I do hope that Secretary Chu and Chairman Jaczko can 
update us on the current situation in Japan, as well as give us 
information on the fiscal year 2012 budget and how Congress can 
take the leadership in doing that. And with that, Mr. Chairman, 
I yield back my time.
    Mr. Whitfield. Mr. Waxman, you can call the time.
    Mr. Waxman. Mr. Chairman, I don't know if we are reserving 
any balance of our time, but we have exhausted our speeches for 
the opening of----
    Mr. Whitfield. Thank you very much. At this time I 
recognize the full chairman of the committee, Mr. Upton, for 
his opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    Given all of the energy challenges the American people 
face, this hearing on DOE and the NRC '12 budgets would have 
been a very important one even if it was held before the 
tragedy in Japan. But given the unfolding of events there and 
the impact on several nuclear reactors, today's hearing 
certainly takes on added significance.
    In the midst of a natural disaster and a tragedy that we 
are watching unfold literally hour by hour, we need to allow 
time for reflection and careful analysis and learn from their 
mistakes. This is especially true when it comes to proposals 
that would make permanent changes in policy based on incomplete 
information.
    We will be having a number of hearings on this issue as 
details unfold and we welcome your participation. This 
committee is going to hear the facts as soon as they become 
available. That is for sure.
    For me, I live 15 miles from two nuclear power plants, so 
the safety of U.S. nuclear facilities is not an issue that I 
have ever taken lightly. I am not straying from my support for 
safe nuclear energy as a vital component of America's present 
and future energy mix. It is just as important to dispel 
overstated fears as it is to discuss legitimate concerns. And I 
know that we can begin the process of doing both.
    The Department of Energy's '12 budget is $29.5 billion, an 
increase of almost 12 percent or $3 billion from current levels 
and I see areas where funding is excessive and perhaps others 
where it is insufficient. Spending--even for laudable goals 
like energy efficiency or developing affordable alternative 
energy sources and technologies--needs to be scrutinized for 
effectiveness. Indeed, we just had a large-scale real-world 
test of the merits of throwing a lot of money at nice-sounding 
energy projects in the 2009 stimulus. The stimulus program was 
very generous the American people's tax dollars and certainly 
for energy programs, but a series of DOE inspector general 
reports on stimulus spending for home and building 
weatherization projects in other agencies found significant 
flaws.
    In other areas I believe that the budget is inappropriately 
cheap, and this is especially the case with regard to fossil 
fuels. Wishful thinking about magic bullet alternatives is not 
going to heat and cool our homes, get us where we need to go, 
and power the businesses the provide the jobs that America 
wants. The reality is we still need fossil fuels and we will 
continue to do so for the foreseeable future. Now, I don't 
believe that this reality is reflected in the budget, which 
calls for a 44-percent decline in funding for the Office of 
Fossil Energy. That, along with the President's support for 
raising taxes on domestic oil and natural gas producers, is 
indicative of a hostility to domestic fossil fuel production.
    On nuclear energy we have got similar concerns. Blocking 
Yucca Mountain is penny-wise and pound-foolish, especially 
considering we have spent nearly $13.5 billion and the need 
ultimately to find a repository for nuclear waste. Instead, 
preventing the need for interim storage is one way of reducing 
risk from nuclear energy and reducing risk is certain to be a 
major part of the energy discussion moving forward.
    This committee will look long and hard at Yucca Mountain, 
the nuclear fuel cycle and spent-fuel policies. Now more than 
ever the politically-based policies must end. America demands 
safe, common-sense solutions. And I yield the balance of my 
time to Chairman Emeritus, Mr. Barton.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Given all of the energy challenges the American people 
face, this hearing on the DOE and NRC 2012 budgets would have 
been a very important one even if held before the tragedy in 
Japan. But given the unfolding events there and the impact on 
several nuclear reactors, today's hearing takes on added 
significance.
    In the midst of a natural disaster and a tragedy we're 
watching unfold hour by hour, we need to allow time for 
reflection and careful analysis and learn from their mistakes. 
This is especially true when it comes to proposals that would 
make permanent changes in policy based on incomplete 
information. We will certainly be having a number of hearings 
on this issue as details unfold. The Committee will hear the 
facts as soon as they become available.
    I live 15 miles from two nuclear power plants, so the 
safety of U.S. nuclear facilities is not an issue I take 
lightly. I am not straying from my support for safe nuclear 
energy as a vital component of America's present and future 
energy mix. It is just as important to dispel overstated fears 
as it is to discuss legitimate concerns, and I know we can 
begin the process of doing both.
    The Department of Energy's 2012 budget is $29.5 billion, an 
increase of 11.8 percent or $3.1 billion from current levels. I 
see areas where funding is excessive and perhaps others where 
it is insufficient.
    Spending, even for laudable goals like energy efficiency or 
developing affordable alternative energy sources and 
technologies, needs to be scrutinized for effectiveness. 
Indeed, we just had a large scale, real world test of the 
merits of throwing a lot of money at nice-sounding energy 
projects, in the 2009 stimulus. The stimulus was very generous 
with the American people's tax dollars, and especially for 
energy programs. A series of DOE Inspector General Reports on 
stimulus spending for home and building weatherization projects 
and other agency efforts found significant flaws.
    In other areas, I believe the budget is inappropriately 
cheap, and this is especially the case with regard to fossil 
fuels. Wishful thinking about magic bullet alternatives is not 
going to heat and cool our homes, get us where we need to go, 
and power the businesses that provide jobs. The reality is we 
still need fossil fuels and will continue to do so for the 
foreseeable future. I don't believe this reality is reflected 
in the budget, which calls for a 44.5 percent decline in 
funding for the Office of Fossil Energy. That, along with the 
President's support for raising taxes on domestic oil and 
natural gas producers, is indicative of a hostility to domestic 
fossil fuel production.
    On nuclear energy, we have similar concerns. Blocking Yucca 
Mountain is penny wise and pound foolish, especially 
considering the $13.5 billion already spent and the need for an 
ultimate repository for nuclear waste. Indeed, preventing the 
need for interim storage is one way of reducing risks from 
nuclear energy, and reducing risks is certain to be a major 
part of the energy discussions moving forward. This Committee 
will look long and hard at Yucca Mountain, the nuclear fuel 
cycle, and spent fuel policies. Now more than ever the 
politically based policies must end. America does demand safe 
common sense solutions.

    Mr. Barton. Thank you, Mr. Chairman, I concur with your 
statement. We welcome the distinguished Secretary of Energy and 
the distinguished Chairman of the Nuclear Regulatory 
Commission. I think you know that I was a White House fellow 
for one of your predecessors, Dr. James B. Edwards, so it is 
always good to have the Secretary of Energy here.
    Obviously, we want to talk about the budget and a big part 
of the budget is going to be the $36 billion Loan Guarantee 
Program for nuclear energy. But in light of what has happened 
in Japan, we are obviously going to be interested in your 
comments about the safety and the NRC Chairman's safety of our 
existing nuclear reactors and the new reactors that are 
beginning to be permitted and hopefully be built in our Nation. 
I continue to be a strong supporter of nuclear energy, and I 
hope that you and the President also continue to do so.
    I noticed your support for a clean energy standard. I am 
not sure, Mr. Secretary, that we need any kind of an energy 
standard for America, but I think myself and others may be 
willing to look at it. Obviously, it depends on what the 
definition of clean is. And I think any definition should 
include clean coal, nuclear, and natural gas.
    With that I yield back to the chairman or yield back to the 
subcommittee chairman.
    Mr. Whitfield. Thank you very much, Mr. Barton. Because of 
the fact that Mr. Rush did not use all of his time and had 2 
minutes left, I am going to recognize Mr. Rush for an 
additional 2 minutes.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Chairman, I yield 2 
minutes to Mr. Markey.
    Mr. Markey. Thank you, Mr. Rush, very much.
    Right now, a few dozen brave souls are fighting a nuclear 
meltdown with water trucks. We send our prayers to those heroes 
and to the people of Japan.
    The effects of this disaster have already rippled through 
the world. China, Venezuela, Germany, Switzerland, and other 
countries are shutting down older plants and scrapping plans 
for new ones. We, too, need a seismic shift in our approach to 
nuclear reactor safety. I fear that we are not moving fast 
enough to take these important steps.
    Just yesterday, the Department of Health and Human Services 
announced that it would study the distribution of potassium 
iodide, a radiation emergency pill that is being distributed to 
Japanese people and to U.S. military personnel in the region. 
It has been 32 years since the Kemeny Commission that 
investigated the Three Mile Island accident recommended it.
    It has been 29 years since I held a hearing and called for 
its use. It has been 10 years since the Nuclear Regulatory 
Commission began making potassium iodide available within 10 
miles of a nuclear reactor. It has been 9 years since this 
committee passed my law to expand the distribution zone of 
these pills from 10 miles to 20 miles away from the reactor. It 
has been 7 years since the National Academy of Sciences 
endorsed its use. And yet two administrations have ignored the 
law. We don't need to study these pills to know that they can 
prevent cancer. I believe that the Obama administration should 
immediately implement my law from 7 years ago, having it be 
distributed within a 20-mile radius.
    Our economy crumbled because Wall Street took high-risk 
investments and transformed them into safe-looking bonds. As 
the underlying sub-prime loans defaulted en masse, these 
investments turned into toxic assets that no one wanted. So 
President Bush created the TARP Program so the government could 
buy them. That is pretty much what we are looking at on nuclear 
loan guarantees. They are just like a toxic asset, literally 
and financially guaranteed by the federal taxpayers if 
something goes wrong. The industry will be OK financially. The 
taxpayers will be left with the tab. We have already known what 
happens when the taxpayer has to pick up the tab when things go 
wrong. We should be very careful from this moment on.
    Mr. Whitfield. Thank you, Mr. Markey. At this time, 
Secretary Chu, we recognize you for your opening statement and 
look forward to your testimony.

STATEMENT OF STEVEN CHU, SECRETARY, UNITED STATES DEPARTMENT OF 
                             ENERGY

    Mr. Chu. Thank you, Chairman Whitfield, and I thank 
Chairman Upton, Ranking Member Waxman, Mr. Barton--Mr. Dingell 
I don't see is here today--and of course all the members of the 
committee. Thank you for the opportunity to discuss the 
President's fiscal year 2012 budget request for the Department 
of Energy.
    I want to begin by expressing the administration's support 
for the people of Japan, as well as American citizens in Japan 
as they respond to and recover from the tragic events of the 
past few days.
    Officials from the Department of Energy, the Nuclear 
Regulatory Commission, and other agencies have maintained close 
contact with Japanese officials and provided the Japanese 
Government with expertise in a variety of areas. As far as that 
effort, the Department of Energy has sent 2 experts to Japan to 
provide advice and technical assistance. We are positioning 
Consequence Management Response Teams in U.S. Consulates and 
military installations in Japan. These teams have the skills, 
expertise, and equipment to help assess, survey, monitor, and 
sample areas. They include smaller groups that could be sent 
out to gather technical information in the area. We have sent 
our Arial Measurement System Capability, including detectors, 
analytical equipment used to provide assessments of 
contamination underground. In total, the DOE team includes 39 
people with more than 1,700 pounds of equipment.
    The Department is also monitoring activities through the 
DOE Nuclear Incident Team as employing assets at its national 
laboratories to provide ongoing predictive atmospheric modeling 
capabilities based on a variety of scenarios. The American 
people should have full confidence that the United States has 
rigorous safety regulations in place to ensure that our nuclear 
power is generated safely and responsibly.
    Information is still coming in about the events unfolding 
in Japan, but the administration is committed to learning from 
Japan's experience as we work to continue to strengthen 
America's nuclear industry. Safety remains at the forefront of 
our effort to responsibly develop America's energy resources, 
and we will continue to incorporate the best practices and 
lessons learned in that process.
    To meet our energy needs the Administration believes we 
must rely on a diverse set of energy sources, including 
renewables like wind and solar, natural gas, clean coal, and 
nuclear power. We look forward to a continued dialogue with 
Congress in moving that agenda forward.
    Now, I would like to turn to the budget. President Obama 
has a plan to win the future by out-innovating, out-educating, 
out-building the rest of the world, while at the same time 
addressing the deficit. The President's budget makes touch 
choices, and cutting in many areas while recognizing that we 
must invest in strategic areas like clean energy innovation 
that will create jobs and strengthen competitiveness. To that 
end, President Obama has called for an increase in investments 
in clean energy research, development, and deployment. In 
addition, he has proposed a bold but achievable goal of 
generating 80 percent of America's electricity from clean 
sources by 2035.
    A clean energy standard will provide clean long-term 
signal, a clean long-term signal to industry to bring capital 
off the sidelines and into the clean energy sector. The 
government does not need to pick favorites. The most 
competitive clean energy sources will win in the marketplace.
    The Department of Energy's fiscal year 2012 budget requires 
that $29.5 billion supports the President's goals. Defense-
related activities such as nonproliferation and cleaning up the 
Cold War sites account for roughly half that budget. The other 
half, which includes energy and science programs, are also 
critical to national security in addition to economic 
competitiveness.
    Through energy efficiency programs, we will save money for 
consumers by saving energy. In addition, the budget supports 
the research, development, and deployment of renewable energy, 
the modernization of the electric grid, and the advancement of 
carbon capture and sequestration technologies. And it helps 
reduce our dependence on oil by developing the next generation 
of biofuels, by accelerating electric vehicles research and 
deployment.
    The budget supports loans for renewables and energy 
efficiency technologies. Nuclear energy also has an important 
role to play in our energy portfolio. The budget requests up to 
36 billion in loan guarantee authority to help deploy a new 
generation of American nuclear reactors. It also invests in 
research and development of advanced nuclear technologies. The 
budget invests in basic and applied research and keeps us on a 
path to doubling funding for key scientific agencies, including 
the Office of Science.
    The budget invests 550 million in Advanced Research 
Projects Agency-Energy. The administration also seeks an 
additional 100 million for RPE as part of the President's 
Wireless Innovation and Infrastructure Initiative. This 
investment will allow RPE to continue the promising early-stage 
research projects that aim to deliver game-changing clean 
energy technologies.
    Another key piece of our research effort is the Energy 
Innovation Hubs. The hubs bring together our Nation's top 
scientists and engineers to achieve similar game-changing 
energy goals. Over a concentrated effort over a longer-time 
horizon is needed to establish innovation leadership. The 
budget requests $146 million to support three existing hubs and 
to establish three new hubs.
    Finally, the budget supports the Energy Frontier Research 
Centers, which are mostly university-led teams working to solve 
specific scientific problems that are blocking clean energy 
development. To reach our energy goals we must take a portfolio 
approach: pursuing several research strategies that have proven 
to be successful in the past. This is not a kitchen-sink 
approach. This work is being coordinated and prioritized with a 
360-degree view of how the pieces fit together.
    Together, these initiatives will help America lead in 
innovation. In addition to strengthening out economy, the 
budget request also strengthens our security by providing $11.8 
billion for the Department's National Nuclear Security 
Administration.
    The Department is mindful of our responsibility to the 
taxpayer. We are cutting back in multiple areas, including 
eliminating unnecessarily fossil fuel subsidies. We are 
streamlining operations. And we are making some tough choices 
by freezing salaries and bonuses for hardworking National 
Laboratory Site and Facility Management contractor employees.
    The United States faces a choice today. Will we outcompete 
the rest of the world or will we fall behind? To lead the world 
in clean energy, we must act now. We cannot afford not to.
    Thank you. And I would be pleased to answer any questions 
you may have.
    [The prepared statement of Secretary Chu follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Whitfield. Well, thank you, Secretary Chu. And because 
of the event in Japan and Chernobyl and Three Mile Island and 
other events, the news media certainly is focused on what is 
happening in Japan and the impact that that would have on 
nuclear power in America. It is my understanding that the 
International Atomic Energy Agency has a 7-level international 
nuclear and radiological event scale, and that on that scale, 
the event that occurred in Japan was at a Level 4. It is my 
understanding that Three Mile Island was a Level 5, which, 
according to the International Atomic Energy Agency, would have 
been more serious than even what is in Japan is the information 
that I have.
    My question is that I read an article recently about Three 
Mile Island and it said that a person standing at the property 
line of Three Mile Island during that event would have received 
a dose of radiation equivalent to between a chest x-ray and a 
CAT scan. And my question, as a layman, that does not sound 
like a lot of exposure, and particularly when you consider this 
would be a Level 5. And I was just curious, are you aware of 
that kind of exposure at Three Mile Island or do you have any 
additional information on that?
    Mr. Chu. My knowledge of Three Mile Island actually comes 
from an NRC report that was issued--I don't know exactly when--
but after the analysis had been done, and what I remember is 
within a 20-mile-or-so radius, the average exposure of those 
people closest to Three Mile Island was a very small fraction 
of background radiation. It could have been a scale of 1 
percent or less.
    Mr. Whitfield. Right.
    Mr. Chu. That is what I recall.
    Mr. Whitfield. Well, you know, I think that is important 
that we talk about that because, obviously, safety is an 
important issue. We don't want to American people to be 
panicked about any of this. And did you have an additional 
comment you were going to make?
    Mr. Chu. Yes, I do. I think that the events unfolding in 
the Japan incidents actually appear to be more serious than 
Three Mile Island. To what extent we don't really know now. And 
so as they are unfolding very rapidly on an hour-by-hour, day-
by-day basis and there are conflicting reports, and so we don't 
really know in detail what is happening. This is one of the 
reasons why the Department of Energy and the NRC are there with 
boots on the ground, with detectors in the ground, not only to 
help assist the Japanese power company and the Japanese 
Government, but also for our own sake, to know what is really 
happening directly though our own instruments.
    Mr. Whitfield. But the U.S. Government is offering any and 
all assistance that has been requested?
    Mr. Chu. That is correct.
    Mr. Whitfield. OK. Now, just to touch on Yucca Mountain for 
a moment, it is my understanding that the Department of Energy 
or the U.S. Government had entered into contracts with the 
nuclear power plants in the U.S. to take their waste material 
from the operation in their reactors. And because Yucca 
Mountain has not been completed, that lawsuits were eventually 
filed by the industry against the Federal Government for 
violation of that contract. Is that the case?
    Mr. Chu. That is the case.
    Mr. Whitfield. And do you know what the total amount of 
judgments against the U.S. Government is as of today?
    Mr. Chu. I don't exactly recall. There have been some 
judgments. They are certainly non-trivial. They are a 
considerable amount of funds. These are settlements so that the 
money could be used by the industry to help store the waste on 
their own sites.
    Mr. Whitfield. Now, I don't know if my information is 
correct, but I have been told it is in the neighborhood of 10 
or $12 billion in judgments already. Does that sound in the 
neighborhood to you?
    Mr. Chu. I don't know. It is certainly over a billion. I 
don't know where my staff is but we can get back to you on 
that.
    Mr. Whitfield. Well, we could follow up.
    Mr. Chu. We will get you the exact number.
    Mr. Whitfield. OK. And I am assuming that this is ongoing 
legal action because of Yucca Mountain not being completed, is 
that correct?
    Mr. Chu. Not specifically Yucca Mountain not being 
completed. It is a legal action in the sense that we have a 
responsibility to provide for the storage of the nuclear waste, 
and the NRC has determined that dry cask storage at the site--
--
    Mr. Whitfield. Right.
    Mr. Chu [continuing]. Is a safe procedure for at least a 
half a century, but we would be still obligated to reimburse 
the companies----
    Mr. Whitfield. Yes, we just don't have the capability to 
take care of it, right?
    Mr. Chu. Right. Exactly.
    Mr. Whitfield. My last question, and this would just not be 
a question but to ask for information. Would your staff be able 
to provide me information on the dollar value of loans, loan 
guarantees, and/or grants that the Department of Energy may be 
making for wind and solar projects in the U.S.?
    Mr. Chu. Yes, we would be able to--in the sense that the 
ones that we have offered conditional commitments to or that 
have closed.
    Mr. Whitfield. Yes, sir. Thank you. At this time I will 
recognize the gentleman from Illinois for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Secretary, it is 
good to see you again here before the committee.
    And I am going to get my questions about Japan asked and 
over with in the first one, OK? The first question I have, as 
far as security, can you assure the members of this committee, 
the American public, that what happened in Japan cannot happen 
here in America at any of our nuclear power plants?
    Mr. Chu. We are going to be looking very, very closely at 
the events happening in Japan and those lessons. And you can be 
assured that with the NRC leading, but the Department of Energy 
employing any assistance to look again at the current existing 
nuclear power plants and any that are being considered for 
design, to look very hard and see how one could, if possible, 
upgrade the security. We don't believe that there is imminent 
danger, but in any instance like this when there are truly 
unfortunate events like what we are seeing in Japan, what we do 
is we look and we learn from that. This is true of all of the 
technology--transportation technologies, energy technologies, 
you name it. And so we will be looking very carefully and 
gathering whatever lessons that can be learned from that double 
disaster of the 4th-largest earthquake in recorded history and 
a huge tsunami. And so we will take those lessons and apply 
them to all the nuclear facilities we have in the United 
States, not only earthquakes, but violent storms, everything, 
anything that could affect them
    Mr. Rush. I have been told, Mr. Secretary, that as far as 
natural disasters, that it would be fairly difficult to have 
created and repeated what happened in Japan happened here in 
America as far as man-made disasters. And I have also been told 
that our number-one threat to our nuclear facilities is 
terrorism and that that is really what we should also keep a 
sharp eye on, especially terrorism, to our nuclear facilities. 
Can you expound on what the level of activity at the DOE and 
you have committed and what are your plans for countering any 
terroristic attack that might wind up having the same results 
or even different results?
    Mr. Chu. Well, all of the civilian nuclear facilities are 
tasked to have very high security measures, and I can certainly 
vouch for the Department of Energy nuclear facilities. They 
have extraordinarily high security measures. I would rather say 
whether terrorism or natural disasters is higher or lower, we 
and the NRC are very focused on actually preventing either from 
happening.
    Mr. Rush. OK. I am going to shift my direction. Section 
1425 of H.R. 1, the Republican-proposed Continuing Resolution 
plan, where we sent 25 billion of the 47 billion in DOE's Loan 
Guarantee Programs under Title XVII, which includes funding for 
renewable energy and energy efficiency projects, can you speak 
on the impact of cutting funds for renewable sources of energy 
under the DOE Loan Guarantee Program? How important is it that 
we invest in renewable sources of energy?
    Mr. Chu. Yes. In our budget request for 2012 we ask for 
those additional funds to help support the 1705 loan 
guarantees, but also for an expanded authority so we could also 
invest in energy efficiency technologies as well, because 
energy not used is money saved and energy saved. Without that 
additional loan guarantee authority, many of the projects that 
would also help unleash private capital and bring that off the 
sidelines we are afraid would not go forward. And so that would 
mean a significant decrease in job creation going forward. It 
would really set back what we are trying to do both in starting 
our economy and also, quite frankly, in giving a signal to 
industries in the United States to be developing these new 
sources. We want to give that signal because it is a 
competitive world out there and there is going to be a race in 
who develops these technologies that will be demanded 
worldwide.
    Mr. Rush. Thank you. I yield back the balance.
    Mr. Whitfield. At this time I recognize the gentleman from 
Michigan for his questions.
    Mr. Upton. Thank you, Mr. Chairman. I have a number of 
questions and I will abide by the 5-minute rule.
    I must say that I have the same complaint with you as I may 
have with your predecessors. At least I think I have a 
complaint with you. And that is from time to time we hear the 
Department give its gas estimates and, at least when I hear 
them, I wonder if we are not going to hit those estimates by 
the end of the week and not by Memorial Day. And last week I 
heard a national report that the Department was indicating that 
they thought that gas prices would be $3.70 by Memorial Day. 
The particular gas station that I was passing that day going 
into the office from Northern Virginia was already at 3.89, and 
it is higher than that in a lot of places around the country. 
USA Today had a headline, it must have been about a month ago, 
``Will Gas Prices Hit $5 by the 4th of July?'' I look at the 
projections that the Administration has put forth showing--as 
we all know, we get about a third of our oil from the Gulf. We 
are a quarter of a million barrels less per day than we were 
getting a number of months ago, and when you looked at the time 
from '09 to '12, again, DOE indicates that we are going to get 
about 450 million barrels less per day in '12 than we got in 
'09.
    As one that believes in supply and demand, I see Alaska 
has, you know, continued declines in production. Where do you 
think we really will be? And this was, again, before Libya, 
before Egypt, before all the different things that were 
happening in the Middle East. Where do you really think we are 
going to be on gas prices, something that is on every 
household's mind across the country?
    Mr. Chu. Well, there is an official EIA prediction as you 
mentioned.
    Mr. Upton. They must be career bureaucrats. Whether it is 
Republican or Democratic administration, it just----
    Mr. Chu. Actually----
    Mr. Upton [continuing]. Seems wrong----
    Mr. Chu. It is actually an independent arm so it is 
independent of any political influence. But in any case, 
certainly, the gas prices in Washington, D.C., are higher than 
the average in the country. The gas prices in California are--
--
    Mr. Upton. But I see those same prices in Michigan.
    Mr. Chu. Yes.
    Mr. Upton. They were 3.80 this week in Michigan.
    Mr. Chu. But anyway, I don't really know what the gas 
prices are going to be this summer. The mean projection is 
43.70 as you said. There are large uncertainties. So we don't 
really know. And I don't have any better crystal ball than you 
do on that.
    In terms of the oil production in the United States, again, 
first, you were talking about the oil production in the Gulf of 
Mexico and what is going to be projected. And I believe you 
were talking about this is what was happening because there was 
a suspension for a while of the deepwater exploration. The oil 
production in the Gulf has continued. The shallow-water 
exploration has continued but the deepwater permitting has 
begun again.
    Mr. Upton. But again, if you look at the actual production 
levels, they are down from the projection from only 4 or 5 
months ago, and they are down again according to your own 
numbers from the trend line from '09 to '12.
    Mr. Chu. I don't want to focus just on the Gulf. If you 
look at the total oil production in the United States, again, 
there are some uncertainties, but we are actually seeing 
increased oil production in the continental United States. And 
we are actually expecting to see an increase in oil production 
from the extraction of shale rock. And again, it is uncertain 
to how much that will grow, but already it is a couple hundred 
thousand barrels a day production. It could increase 12 million 
barrels per day in the near future. So again, it is the total 
oil production in the United States we are also looking at.
    Mr. Upton. In my remaining time let me ask 2 questions. I 
know you have been in contact with your counterparts in Japan. 
Is there anything that they have asked for that we have not 
done?
    Mr. Chu. To the best of my knowledge, no. They have 
accepted our help in terms of the services, the airborne 
radiation detectors, things of that nature. We are continuing 
to offer them help, and they are accepting it.
    Mr. Upton. I just note, too, I know I said million. I mean 
hundreds of thousands in my declining production.
    Mr. Chu. Hundreds of thousands of----
    Mr. Upton. Yes, I said 450 million----
    Mr. Chu. Right.
    Mr. Upton [continuing]. But I----
    Mr. Chu. Right. I understand.
    Mr. Upton. Last question in my 2 seconds, a number of us 
sent you a letter back in February asking questions about the 
Nuclear Waste Policy Act. If you could take a look at the 
letter and give us as a response as we get prepared----
    Mr. Chu. All right.
    Mr. Upton [continuing]. That would be terrific. Thank you.
    Mr. Chu. OK. Thank you.
    Mr. Upton. I yield back my time.
    Mr. Whitfield. At this time I recognize the gentleman from 
California for his questions, 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. Mr. Secretary, after 
Chernobyl many said such an event could not happen in the 
United States because the Soviet Union's nuclear sector was not 
as advanced as our own. And there was truth to that. The 
Chernobyl plant was not as advanced and was not designed with 
many of the safeguards we have in the United States. But Japan 
is a highly developed country. It is technologically 
sophisticated as us and there is much concern in the U.S. that 
a similar accident can occur here. How do you respond to that 
concern?
    Mr. Chu. Well, first, I would agree with you. The reactor 
in Chernobyl was of a different design. It had points of 
instability. It had no containment vessel. But we are looking 
very carefully at what is happening in Japan because, as you 
say, they are using more advanced designs. A number of reactors 
in the United States are similar designs, and we are going to 
look at what went wrong in terms of this double-barreled whammy 
of this huge, huge earthquake and then a huge tsunami and look 
to our reactors again and learn as much as we can so we can, if 
needed, improve the safety. By ``if needed,'' what I really 
mean is that we are always increasing the safety of our 
reactors, and not only our reactors but the safety of all our 
industrial systems.
    Mr. Waxman. Mr. Secretary, 2 days ago a number of us wrote 
the Chairman Upton, Whitfield, and Stearns, requesting that our 
committee here investigate and hold hearings about the safety 
and preparedness of nuclear power plants in the United States. 
Do you think we should investigate the issues to ensure the 
safety of our nuclear plants?
    Mr. Chu. I think that will naturally occur, especially 
given the events in Japan. We will look back as we learn what 
happened and apply those lessons where needed to all of our 
nuclear power reactors. That will be a natural consequence.
    Mr. Waxman. Well, a natural consequence for everybody to 
look at it but, quite frankly, I think we have a 
responsibility----
    Mr. Chu. Right.
    Mr. Waxman [continuing]. In Congress, not just you in your 
position but we in the Congress for our oversight and 
investigative purposes since we write the laws.
    Now, let me ask you about the laws that we are in the 
middle of writing. We are trying to figure out our energy 
policy. And the Republican energy policy seems to be depending 
on coal, oil, and nuclear power. That is what they look to for 
the future. In fact, it has been the past. And we do have a 
problem of climate change because of the carbon and other 
greenhouse gases. We do have a problem now that so much of all 
of our eggs are in the nuclear basket.
    When we look at the Republican budget, they are putting in 
billions of dollars of investment and thousands of construction 
and permanent jobs are all going to nuclear, but they are 
rescinding a lot of your budget to deal with other things that 
are clean and reliable and safe such as renewable energy and 
energy efficiency.
    Just to dramatize this issue, Republicans would rescind 25 
billion of the 47 billion in loan guarantee authority that was 
provided to you in 2009. But they preserve $20.5 billion in 
loan guarantees for nuclear energy while leaving only 1.5 
billion for all other technologies. They say they are for an 
all-of-the-above strategy. That is an all-nuclear strategy to 
me. I would like to have you explain why it is so important for 
America to be looking at these other projects as we devise our 
energy strategy to move us away from dependence on oil and coal 
and maybe even nuclear for our future.
    Mr. Chu. Certainly. If you look at what is going to be 
happening in this century, we believe, for example, that the 
prospect of solar power coming down in price, the business 
community thinks that within this decade the falling costs of 
solar generation of electricity will be cut in half. We have 
had a number of workgroups and we think it is very possible 
that by the end of this decade that costs can be cut to 25 
percent of what it is today.
    Mr. Waxman. They will be competitive if we make investments 
in them.
    Mr. Chu. It will be very competitive and realizing that 
there is a high probability, a reasonable probability that 
solar energy, other renewable energies--wind--could be 
competitive with fossil fuel by the end of this decade----
    Mr. Waxman. But nuclear energy, on the other hand, is not 
competitive unless the government subsidizes it. The market 
does not pick nuclear power as a winner if the market works its 
will by itself, isn't that correct?
    Mr. Chu. At the moment I think nuclear and renewables do 
need help, but going forward we are trying to figure out a plan 
where none of those will need subsidy.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I recognize the gentleman from Illinois for 5 minutes.
    Mr. Shimkus. Thank you. And again, Mr. Secretary, welcome. 
I have got a lot of questions, short, and I am going to try to 
go, not disrespectful, but trying to get through my list. But I 
will just say to the chairman emeritus, that is why coal will 
still be king because it does address the market issues, and 
coal will still have a major issue in our portfolio for years 
to come.
    Just an issue I had by a battery technology guy who said 
that he was laughed out of your battery office. And my concern 
is is that the DOE may be so big and already have a designed 
belief on battery technology that if someone comes with 
something new that they are not going to get a good hearing. 
Can we talk about this later on and visit with this----
    Mr. Chu. Sure.
    Mr. Shimkus [continuing]. Because if we are going to do 
research, we don't want to have--because we put billions of 
dollars into one sector, if a new entry comes in that may offer 
more, we want to give them a fair hearing. Can you define 
clean?
    Mr. Chu. Well, you can start with what we all recognize are 
traditional pollutants, sulfur dioxide, nitrogen oxide, 
mercury, particulate matter----
    Mr. Shimkus. The criteria of pollutants in the Clean Air 
Act.
    Mr. Chu. Yes, but clean also includes carbon dioxide.
    Mr. Shimkus. OK. And that is good because a lot of people 
will not add that. They will say clean but they won't address 
the CO2 issue. And just a message, Waxman-Markey failed as a 
national policy through the legislative process because the 
public decided to not price carbon. So we had that argument 
yesterday. We have a bill moving through the floor of the house 
that will start addressing the EPA, but we need another 
approach. And I would say energy security is a better way to 
bring both sides together than pricing carbon.
    DOE was established in, what, 1977?
    Mr. Chu. Around that time, '75, '76.
    Mr. Shimkus. I got a yes. Our reliance on imported crude 
oil at that time was what percent? Do you have any idea?
    Mr. Chu. The '70s? I am going to take a wild stab, 
something around 25 percent for petroleum imports.
    Mr. Shimkus. Yes, I thought maybe 35. I am not sure. And 
what is it today?
    Mr. Chu. It was 49 percent in 2010.
    Mr. Shimkus. So can we say that we have really made any 
great strides by having the DOE here over 25 years?
    Mr. Chu. No. In fact, it was 57 percent in 2008.
    Mr. Shimkus. Thank you. That is a point. FutureGen 2.0, is 
that really BushGen 1.0?
    Mr. Chu. No. This is----
    Mr. Shimkus. Let me explain. I followed FutureGen a lot.
    Mr. Chu. Yes.
    Mr. Shimkus. FutureGen was a new coal fire plant that 
actually would go to hydrogen technology and a research center. 
Bush tubed it, said let us gasify coal in existing plants and 
use CCS. Isn't that what FutureGen 2.0 is?
    Mr. Chu. No. The first FutureGen was a gasification and 
capture and storage. This is----
    Mr. Shimkus. Using hydrogen turbines, though, new 
technology.
    Mr. Chu. Yes. In gas turbines in most----
    Mr. Shimkus. OK. So my point is just for clarify when we 
are retrofitting Meredosia with current technology, which is 
gasification, capturing it, that really was the Bush plan. That 
is really what Bodman was moving to do. Was that correct?
    Mr. Chu. Certainly the taking of a commercial-scale power 
play and capturing the carbon dioxide and sequestering it was 
the Bush plan. This FutureGen is different because it is 
burning in an oxygen atmosphere, this is new technology.
    Mr. Shimkus. Thank you. I got the answer that I needed. We 
want to decrease reliance on imported crude oil. Senator Obama 
joined Senator Bunning to push coal-to-liquid legislation 
through the Senate. What is the DOE's position on coal-to-
liquid technologies?
    Mr. Chu. We think it is something we should look at. There 
are new coal-to-liquid technologies. I am not talking about the 
older ones invented by Germany during World War II but new ones 
that are more efficient. We have to capture the excess carbon 
dioxide in those technologies. And, indeed, the National 
Academy of Sciences, through the America's Energy Future 
initiative, has issued a report looking at the mixture of coal 
plus biomass gasification methods to then create liquids with 
carbon capture.
    Mr. Shimkus. And it is my understanding that carbon 
footprint is actually lower than crude oil refineries in that 
design?
    Mr. Chu. Significantly lower, and once you exceed 30 
percent biomass, it actually becomes negative.
    Mr. Shimkus. We want to be helpful in that. Last question 
is one of the risks in Japan is that one of the decommissioned 
or offline nuclear power plants had a storage pool that went 
dry, is that correct?
    Mr. Chu. We don't know----
    Mr. Shimkus. At least that is what the industry reports 
are.
    Mr. Chu. There are many conflicting reports.
    Mr. Shimkus. Let me just make this point and I will be 
done. There are 11 pools within 40 miles of downtown Chicago. 
Wouldn't it make sense to have one center location for storage 
of high-level nuclear waste? Like you identified in your report 
when you were the lab director when you said licensing of Yucca 
Mountain repository as a long-range resource was one of the 
findings.
    Mr. Chu. We are talking about 2 different things. In a 
nuclear reactor site immediately after you take out the rods, 
you need to put them in water pools. That is a very short-term 
storage. Yucca Mountain is a long-term----
    Mr. Shimkus. The folks who are holding the nuclear waste in 
pools think it is pretty long-term right now.
    Mr. Whitfield. The gentleman's time has expired. I 
recognize the gentleman from Texas for 5 minutes.
    Mr. Green. Mr. Secretary, in the line of questioning we had 
a lot of questions of Members talking about solar and wind. 
Does either solar or wind have the potential in the next 10 
years of ever becoming a stabilized base load like coal or 
nuclear or even natural gas?
    Mr. Chu. It depends on the development of energy storage 
technologies along with that. You know that they are variable, 
and when the sun sets or the wind stops blowing, they are no 
longer generating electricity. So it would have to depend on 
that. But before that happens I think that it can certainly go 
to a reasonable fraction of our electricity use. Countries like 
Ireland are now at 20 percent wind coupled with fossil fuel.
    Mr. Green. Is there any country in the world--I know 
Denmark's is lead--what is the percentage of wind, for example, 
in Denmark?
    Mr. Chu. It is a little over 25 percent but there it is 
coupled into a massive grid, and so Ireland is actually a 
better example because they have to be self-sufficient in 
themselves.
    Mr. Green. According to our grids, we have it much more 
difficult in our own country is because Texas our own and, of 
course, the East and West Coast. Let me ask another question, 
though. The administration has proposed repealing numerous 
subsidies for tax preferences on fossil fuels, one you 
mentioned that has been part of the U.S. Code since 1926, 
another created to help U.S. manufacturers maintain and create 
U.S. jobs. I am concerned about this because increasing cost 
for domestic energy industry would jeopardize both some small 
business jobs but also increase our reliance on foreign sources 
of energy.
    Would you agree that increasing cost for domestic 
production may also impact our ability to address climate 
change because we failed to provide natural gas, which is 
cleaner burning, as a bridge, whatever we have, whether it is 
nuclear or solar or whatever, to meet our short-term carbon 
reduction goals that we hope to have while providing affordable 
and reliable supplies for energy for American consumers?
    Mr. Chu. Well, I would say based on what has been happening 
in shale gas and the lower gas prices and the anticipation that 
for the next decade and possibly 2 decades natural gas prices 
will be low. There will be a natural move towards gas. But I 
would also say, then, I think the utility companies, the power 
generators are very aware of this, that you still want a 
diverse set of energy sources.
    Mr. Green. Well, and I know what could hurt us on our 
natural gas success in our country--we pay actually less, you 
know, per MCF than anywhere else in the world almost for 
natural gas because of our success--but either tax increases or 
limitation on hydrofracking could eliminate that 100 years of 
natural gas that we have. So I would caution you. To jumpstart 
the domestic nuclear energy industry, your budget requests 36 
billion in loan guarantees and authority for fiscal year 2012. 
How many projects do you think we would be able to support with 
that even with the tragedy that has happened in the last few 
days? Do you still think we ought to go forward after taking a 
breath, for example, and saying OK, what do we need to do 
different? Do you still think we need to go forward in 
expansion of nuclear power in our country?
    Mr. Chu. Well, first, I agree with you. I think based on 
the events in Japan we need to look harder at these projects 
and guarantee that they can go forward in a safe way. This is a 
question of the $36 billion we believe should be able to fund 
something like 6 to 8 projects. The loan guarantees could get 
six to eight projects going. Then we believe if they can 
proceed and be built on time, on schedule, there would then be 
enough confidence that the private sector should be able to 
pick that up.
    Mr. Green. Thank you. In the President's State of the Union 
address he had a goal of clean energy sources account for 80 
percent of American's electricity by 2035. If we shut down our 
expansion of nuclear power like we did after, you know, Three 
Mile Island and Chernobyl, is there any possibility we can even 
get anywhere near 80 percent from clean burning fuels?
    Mr. Chu. It would certainly make it harder. Right now we 
are 40 percent clean by this rough definition where you 
account, you know, for combined cycle natural gas giving half-
credit. But I think we will need, certainly, a large increase 
in wind and solar. We will need clean coal. And I believe we 
will need to have some fraction coming from nuclear.
    Mr. Green. OK. And I know the Energy Information Institute, 
Mr. Chairman, and I was surprised at the billions of kilowatt 
hours that our country generates even compared to what Japan 
does. Of course, Japan is blessed with a great deal of 
hydropower that, for example, in my area in Houston, we are 
flat. We don't have the option for hydropower like the West 
Coast or other areas of the world. So we have to look at 
natural gas and nuclear and coal. Mr. Chairman, thank you for 
your patience.
    Mr. Whitfield. Yes. At this time recognize the gentleman 
from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. Again, thank you, Mr. 
Secretary, for being here.
    In light of what has happened in Japan, I would like to 
hear what you believe President Obama's position is now on 
nuclear power generally in the United States. Does he still 
support a rebirth of nuclear power and construction of new 
plants? Could you just give us your best estimate of what his 
position is?
    Mr. Chu. Well, I think the President and the Administration 
believe that we have to be looking very, very closely at the 
events in Japan. As I said before, we have to apply whatever 
lessons that can be and will be learned from what has happened 
and is happening in Japan. Those lessons would then be applied 
to first look at our current existing fleet of reactors to make 
sure that they can be used safely and also to look at how, as 
one proceeds forward, that any lessons learned could be 
applied. It would be premature to say anything other than we 
will use this opportunity to learn as best we can and consider 
carefully how to go forward.
    Mr. Barton. I am not sure what you just said.
    Mr. Chu. OK.
    Mr. Barton. Does the President support new nuclear power 
plant construction in the United States?
    Mr. Chu. The present budget is what it is, and we are 
asking for loan guarantees. The present budget is also calling 
for small modular reactors. That position has not been changed.
    Mr. Barton. So that is a yes?
    Mr. Chu. That is a yes.
    Mr. Barton. Good. That is what I wanted you to say. See, if 
you had just said yes. Now, with regards to the loan guarantees 
that you just mentioned, given again what has happened, do you 
and the President want the Congress to support the full 36 
billion that you have put in the President's budget?
    Mr. Chu. Yes.
    Mr. Barton. OK. You are learning. You are not a Nobel Prize 
winner for nothing, I guess. OK. This one is going to be a 
little bit trickier. You are a former director of a national 
laboratory and did an excellent job. I am a strong supporter of 
the national laboratories. At one time I had hoped to have one 
in Texas, the Super Collider laboratory that wasn't funded 
under President Clinton. However, having said that, given the 
situation of our budget, do you think it might be time to 
reevaluate the number of national laboratories and perhaps 
begin to come up with a plan to reorganize and consolidate 
them?
    Mr. Chu. You are right. That is a toughie. I would say 
before we do that, there are a lot of things we can do to look 
at how we can get real efficiencies in what we do. Even though 
the President and I firmly believe that the Department of 
Energy will play a critical role in guaranteeing the future 
prosperity of the United States in its research and 
development, we do also recognize that we have to look to gain 
efficiencies wherever we can and to streamline what we do, 
knowing that ultimately the money that we give to universities, 
to national laboratories and help research in businesses, that 
is our real job. And the other structures are there to ensure 
that we do this in the most intelligent way possible, in the 
most responsible way possible. So we are going to be working 
very hard to look at how we can increase those efficiencies.
    Mr. Barton. Well, I support the national laboratories, but 
I do think we ought to begin to reevaluate them in the light of 
the budget and also the fact that perhaps some of their 
missions are not quite what they were when they were originally 
established.
    My last question, Mr. Secretary, is, again, something that 
is of a sensitive nature. We have had repeated security 
violations at the Sandia National Laboratory in Los Alamos. 
There have been a number of investigations, a number of special 
taskforces trying to get control of the security situation in 
terms of our national secrets in those institutions. Can you 
elaborate and tell the committee what the status is of trying 
to make sure that those 2 laboratories are secure in terms of 
the secrets that we have out there?
    Mr. Chu. I think the Department of Energy takes security 
very seriously, not only in Los Alamos, Sandia, but also 
Livermore, the NNSA laboratories. There are other laboratories 
that carry out classified information, and we take those 
responsibilities very, very seriously. And I can give you the 
details. I have a slightly different view than you on the 
number of security violations, but every one of them we take 
seriously, and we would be glad to brief you and your staff on 
that.
    Mr. Barton. I appreciate that. And thank you, Mr. Chairman, 
for the courtesy of giving me the time to ask some questions.
    Mr. Whitfield. At this time I recognize the gentlelady from 
California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Secretary, for your timely 
testimony. I recently toured the University of California Santa 
Barbara's Institute for Energy Efficiency, which was named a 
frontier research center by your Department, and I was pleased 
that you mentioned your support for this program in your 
testimony.
    As you know, this center is researching energy savings in 
photovoltaics and solid state lighting. I am so impressed by 
the work of the professors and the students, especially their 
commitments to the commercialization of new technologies like 
LEDs.
    So would you talk for a minute or two about how your budget 
request will support the administration's effort to get 
projects from the laboratory and the marketplace with a direct 
impact on the economy?
    Mr. Chu. Certainly. I think the budget request in the 
Office of Science that is funding the group that you are 
speaking about is precisely the kind of research we will need 
to ensure that America stays at the forefront in these 
developing technologies. It is a very competitive world out 
there. Currently, the United States does make the best LEDs but 
we can easily lose that lead. Korea, China, Japan, Europe all 
want to take this away.
    In the meantime we are actually trying to recapture the 
lead in things we have lost. For example, advanced battery 
technology and what we see coming out of universities and 
national labs are the next generation of new batteries where I 
think we can recapture that lead. These are multi-billion-
dollar markets in the future, and this goes to the heart of 
what the budget request is about, that in this very competitive 
world where all of the countries and companies are trying to 
say we want to own this share, this is what is going to be at 
risk.
    Mrs. Capps. Thank you. I also want to ask you about the 
State Energy Program. Decreased support for these programs will 
limit efficiency aid to small businesses and families, as well 
as to our local governments. As you mentioned earlier, 
efficiencies will produce major energy and cost savings. That 
has been clearly demonstrated over time. I have been told that 
the State Energy Program has produced cost savings of $300 
million annually. It also leverages $10 in private money for 
every $1 of government money spent. So would you describe now 
about how the cuts in the State Energy Program, particularly 
those proposed in H.R. 1 by the Republican majority will affect 
local clean energy initiatives? Would you anticipate job losses 
from these cuts and how would these cuts affect small 
businesses trying to reduce their energy bills, not to mention 
homeowners and other----
    Mr. Chu. Right. Well, they certainly will have the impacts 
you talked about, and this is one of those areas where we have 
to make some tough choices. You know, we had a very good State 
Energy Program in the Recovery Act and the EECBG program, and 
we will have to work with Congress going forward and how to 
apportion what monies Congress gives us between research and 
development and things like the State Energy Program.
    Mrs. Capps. Finally, I want to ask you about the innovative 
approaches to generating electricity from marine renewables. 
And I have a particular company in mind. Right now the 
Department has planned funding for 9 companies with active 
projects, including a company based in my congressional 
district called Ecomerit. First, can you please talk to us 
about the promise of marine renewables, maybe the steps the 
Department is taking to avoid or mitigate environmental impacts 
in coastal areas? And second, are you concerned that cuts to 
clean energy programs like this one might slow down the 
development and deployment of marine renewables?
    Mr. Chu. Well, again, the cuts would definitely affect the 
research we can fund. And by marine renewables I think you are 
referring to kinetic energy-type extraction techniques. There 
are at least a dozen companies that I know of that are looking 
into this both here in the United States and abroad. It is 
something that is a research project, so we don't really know 
if it is going to see wide deployment, but it is certainly one 
of those areas that there is tremendous energy in ocean waves 
and in ocean currents. And so that is why companies, 
universities, and national labs are looking at this.
    Mrs. Capps. And the other steps that your Department is 
taking to mitigate environmental impacts----
    Mr. Chu. Yes.
    Mrs. Capps [continuing]. In coastal areas?
    Mr. Chu. It is all part of the package because we all know 
that whatever form of energy production we use, they could 
easily have environmental impacts. And you do this, you know, 
at the very beginning because in the end what you want to do is 
develop a technology that can actually be deployed and there 
would not be strong objections to that deployment. So it is 
always a part of the package, environmental impacts.
    Mrs. Capps. Thank you.
    Mr. Whitfield. At this time Dr. Cassidy of Louisiana is 
recognized for 5 minutes.
    Mr. Cassidy. Now, I am struck that you mentioned the 
subsidies, the heightened or continued subsidies for wind and 
solar and other renewables. I am looking at something from--I 
think this is from EIA, Energy Information Administration, and 
it says as of 2007, which I gather is the latest it is 
available, the subsidy and support per unit of production of 
solar is $24.34 per megawatt hour, for wind it is $23, for coal 
it is 44 cents, and for natural gas and petroleum liquids, it 
is 25 cents. So given that there is almost, what, 100 times 
increase subsidy for solar and wind versus natural gas and 
petroleum, maybe 80 times for coal, how much subsidy is 
required for us to take wind and solar up to 25 percent of our 
grid and can we afford that subsidy?
    Mr. Chu. Well, there are two ways of calculating subsidies. 
One is by absolute dollar amount and another is by fraction of 
energy produced. I think you referred to fraction of energy 
produced----
    Mr. Cassidy. And does it seem a more reasonable way because 
obviously if coal is 50 percent of our energy production to 
take the absolute number is a little misleading versus that as 
a percentage of the energy it actually produces.
    Mr. Chu. Well, it really depends because if you look at the 
subsidy of oil and gas beginning in the beginning of the 20th 
century----
    Mr. Cassidy. If we can just stay on--just because I have 
limited time. I don't mean to interrupt. I don't mean to be 
rude. But just to take right now electricity because there is a 
kind of, if you will, lingua franca, which is the megawatt hour 
and the subsidies per, so it is $25 roughly for solar and wind, 
25 cents for natural gas per megawatt hour. How long can we 
subsidize solar and wind and can we afford it if we are going 
to increase it to 25 percent of our electrical use?
    Mr. Chu. Well, I certainly think that wind and solar should 
not have any longer subsidies than oil and gas, which is about 
80 or 90 years.
    Mr. Cassidy. My concern is--because obviously others have 
attempted to do this, so there is a renewable energy magazine, 
``Renewable Power News,'' which is kind of an advocacy group 
for renewable power. Spain has clearly attempted this high-
subsidy market. I am quoting from an article they wrote. 
``Spain will cut renewable energy subsidies. These have grown 
exponentially, their use of renewable energy, but it has been 
associated with an astronomical rise in energy prices, which 
has equally resulted in heightening inflation and decreasing 
levels of competitiveness, which is an alarming threat to a 
feeble economy.'' So not to put words in your mouth, but are 
you committing to 80 years of us to follow the path of Spain?
    Mr. Chu. Absolutely not. As I said, we are developing plans 
of what we can do in order to bring the costs of renewables 
like solar and wind down to the cost of fossil fuel, and we are 
talking about a decade, maybe 2 decades maximum. So this is an 
accelerated plan because the world is racing ahead. The 
development and the drop in price of these renewables will be 
very fast.
    Mr. Cassidy. Now, my concern, though, is is that we are 
racing ahead, but there are certain laws of physics. Who am I 
to tell you about laws of physics? But the battery capability 
to store huge numbers, millions of electrons, if you will, 
doesn't really seem that it is ready for commercial use in the 
next decade.
    Now, that said, I am from Louisiana. Our hydropower ability 
is limited. Clearly, the reason that wind works in Denmark is 
that they have lots of hydropower, so if the base load goes 
down from wind, they can ramp up with hydropower. In my State, 
the Peking Plant will be coal or natural gas. You still get 
carbon emissions, but you get the higher cost of the 
renewables. This works in hydropower. What do we do elsewhere?
    Mr. Chu. Well, first, Denmark has access to other grids. 
Denmark itself, I don't believe, has hydropower. But never 
mind.
    Mr. Cassidy. Sweden's hydropower is what I was referring 
to.
    Mr. Chu. Right. Yes, the point is that they have access to 
other sources of energy outside their own borders. In terms of 
batteries, we are pretty certain that within the next couple of 
years the battery storage technology that begins to go to 
utility scale will be dropping perhaps by 50 percent----
    Mr. Cassidy. But will it be adequate to say power in 
Washington, D.C., if we have windmills turning and the wind 
stops to blow or the night comes or the cloudiest day, will it 
have sufficient capacity to power Washington, D.C.?
    Mr. Chu. I think it is going to take several decades to 
transition to renewables at that extent, but to get to 10, 20, 
30 percent renewables, you can get to 20 percent renewables, 
possibly even 30 without energy storage, but energy storage 
will be an increasingly important part as you go higher than 
that.
    Mr. Cassidy. I think we are a little circular because 
obviously the Peaking Plants will still be necessary, in which 
case you still have your emissions. I yield back. Thank you.
    Mr. Whitfield. At this time I recognize the gentleman from 
Washington, Mr. Inslee, for 5 minutes.
    Mr. Inslee. Thank you. Mr. Secretary, I was excited by your 
comments about prospective gains in solar. I just said the 
other day that Kleiner Perkins, the folks who started Google, 
just made a big investment in a group that could, I think, 
obtain I think they said 30 percent efficiency from solar 
cells. Could you tell us sort of in layman terms to the extent 
you can why you think we can get these big advances in solar 
and what do you think realistic projections for those 
advancements are in the decade?
    Mr. Chu. The realistic projections within a decade are 
somewhere between a 50 percent drop and a 70 percent drop in 
the cost. It is full cost. Not only is it the module but it 
also includes the installation cost, the electronics cost, the 
full cost. We actually don't know which of the photovoltaic 
technologies will work because silicon continues to make 
dramatic strides, and we are especially looking at dramatically 
changing the costs of the manufacturing of silicon cells. There 
are wonderful ideas out there that are being pursued by 
companies and by researches. There are also a number of thin-
film technologies.
    But if you look at these, and all the companies are looking 
at each other, we also need to increase the efficiency. Silicon 
is now in the low 20 percent efficiency. We expect it to make 
climbs in efficiency. The thin-film technologies are also 
beginning to make significant increases. And so there is a 
great deal of excitement. When I talked to the photovoltaic 
manufacturers, they are pretty certain this drop will occur in 
this decade. But we think it can even better. And that is what 
we are focused on.
    Mr. Inslee. Well, shoot for that. The Republican budget has 
proposed a 35-percent cut from last year in efficiency and 
renewable energy portfolio, and about half of that degree of 
cut for nuclear. That just doesn't make any sense to me. It 
would seem to me you would want to have a balanced portfolio. 
We have great strides available in efficiency and renewable. 
Would you want to comment on that?
    Mr. Chu. Yes, I think we would like to see research in 
both, just as we would like to support the engineering for 
small modular reactors. The engineering for looking at how we 
can improve both the safety and the productivity of future 
nuclear power plants, we think a balanced approach we should be 
looking at renewables as well.
    Mr. Inslee. Thank you. I want to ask about Yucca Mountain. 
We have some real issues, my state. We have paid about $300 
million are rate-payers into the nuclear waste fund. There has 
been about $100 billion spent already on Yucca. We are told 
that the Office of Civilian Radioactive Waste is proposed to be 
shut down that was responsible for moving forward. In the State 
of Washington we have had 53 million gallons of radioactive and 
chemical waste stored in 77 underground tanks. We need a 
solution. Right now we don't see a viable proposal by the 
administration in this regard and would like to see one in the 
near future. Could you give us what options you intend to put 
on the table because we would like to see Yucca move forward.
    Mr. Chu. Well, first, as you well know, the waste treatment 
plant at Hanford got a lot of attention, a lot of personal 
attention from me and a lot of personal attention from my 
deputy secretary, Dan Poneman. And we have, in fact, put on the 
table first both the contractor and all the people in the DOE 
involved. We now have 8 teams there. We have proposed to 
accelerate the budget so that we can drive this project forward 
so that we will be delivered on time, on budget. And that is 
the first thing that we get the material from those liquid 
waste tanks and into a much more stable form.
    Mr. Inslee. And we appreciate your work there. There is 
good work going on there and we appreciate your leadership. But 
we are concerned about----
    Mr. Chu. Right.
    Mr. Inslee [continuing]. The depository. If you could 
address that.
    Mr. Chu. Certainly. And so the first order of business is 
to stabilize that waste. The second order of business is that 
going forward we do need a plan. I believe that is the intent 
of the Blue Ribbon Commission, to look at what to do in the 
future beyond what we now have, beyond what the knowledge was 
when Congress wrote the Nuclear Waste Act of 1982 and modified 
in 1985. A lot of water has passed under the bridge. And so 
that is the charge of that committee. I believe they are going 
to be coming out with results this June.
    Mr. Inslee. I suspect you know our position, but not only 
water over the bridge, but there is some radioactive water may 
be burning right now and we do have pools around this country 
in scores of places that do present risk, not just financial 
risks. So we are going to continue to press the administration 
on this issue. Thank you, Mr. Secretary.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from West Virginia for 5 minutes, Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman. There were several 
questions I have. One was there has been a dialogue from people 
who have come before you in this hearing have called about coal 
subsidies. I don't expect you to give them to me now, but could 
you share with us those companies that are being subsidized and 
how that is? Because people seem to be loosely applying their 
coal subsidies. And I have had opportunities to talk to quite a 
few coal companies and they are not getting any subsidies. So I 
would be curious if you could share with us any coal subsidies.
    There is another issue is this SOAP program, this Small 
Operators Assistance Program. There seems to be some funding 
difficulties with that and I would appreciate if you would look 
into that. Your Department is not freeing up monies to the 
State to reimburse some of the small operators that are 
producing coal. So if you could get back to me on that I would 
appreciate it.
    Also as it relates to funding ratios of cost/benefit ratios 
for you that it was alleged earlier that since you have been 
funded somewhere in the early '70s, you have probably received 
in the neighborhood of maybe $800 billion of revenue to 
operate, and I am just curious on a cost/benefit ratio if you 
could share with us sometime if you could put that from your 
staff that what are the benefits that we have received out of 
that $800 billion? If you could just provide something. I don't 
want to get into that right now. I am sure it could go on for 
some time because I am hoping that it is a more than 1-to-1 
ratio that we have received. So I would like to get some idea 
of where that would be.
    But more importantly where I want to spend as much time was 
talking about with the National Energy Technology Lab that we 
have in Pennsylvania, Texas, Alaska, Oregon, West Virginia. 
When I met with them, they indicated that they are the only 
laboratory for the DOE that is owned and operated by the DOE 
according to their literature as well. And they are indicating 
that the budget being proposed is going to reduce their 
expenditure by almost $800 million by their own data that they 
have. That is very threatening because I see a paradox with 
this. I heard the administration talking about we want to do 
more research and development in energy but yet the very 
laboratory that you all fund is being reduced by $800 million. 
There must be a misunderstanding there someplace, either in the 
administration making that representation or in the data that 
they have provided in a chart.
    So if you could provide us something back on that because 
they are doing some wonderful things there at the NETL and they 
are trying to build research cooperatives with the universities 
in the area. And for us to cut their expenditures at this time 
is just unconscionable.
    For example, one is with the Marcellus Shale that we have 
in Pennsylvania, New York, West Virginia, and they are trying 
to find ways through NETL of getting more than 15 percent of 
the gas out. Right now that is all they are getting out of 
Marcellus for all of that expenditure and they want to spend 
the money but yet the proposed budget is cutting the amount of 
money that we have for research. Can you share what is that 
underlying current? Why are we cutting money in energy research 
at your own facilities?
    Mr. Chu. I will get back to you on that. I certainly know 
the NETL labs, and we have an excellent laboratory director 
that I am very positive about. And I know what they are doing 
in terms of increased interactions with the universities. I am 
very positive about it. I will get back to you on the details 
of that because there may be a misunderstanding. Certainly, the 
research that NETL does and does in universities we are very 
positive on that. And I will get back to you.
    Mr. McKinley. You can get back to me and I appreciate it. 
Thank you very much.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentlelady Matsui from California.
    Ms. Matsui. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary for being with us here today. I applaud your 
leadership on supporting continued investments and clean energy 
technology. These investments are critical for the economic 
growth in my home district in Sacramento.
    The developing nuclear situation in Japan has captured the 
attention of the world and certainly this committee. And my 
thoughts and prayers are certainly with the people of Japan.
    Mr. Secretary, when Chairman Whitfield asked you about the 
crisis in Japan, he mentioned the international rating system 
for nuclear accidents, and you explained that the situation in 
Japan is already likely worse than that on Three Mile Island. 
My understanding is that the big difference between Three Mile 
Island and Chernobyl is that in Three Mile Island, the reactors 
containment system was able to contain the radioactive 
material. So most of that radioactive material didn't spread 
into the environment. At Chernobyl there was no containment. So 
the release of radioactive material devastated the Soviet Union 
and other countries.
    Mr. Secretary, what happens if there is a meltdown and one 
or more of the Japanese reactors and the containment system 
fails?
    Mr. Chu. Well, we think there is a partial meltdown but--as 
you correctly noted--that doesn't necessarily mean the 
containment vessel will fail. Three Mile Island had a partial 
meltdown, and it did not fail.
    But we are trying to monitor very closely. We hear 
conflicting reports about exactly what is happening in the 
several reactors that are now at risk. And I would not want to 
speculate on exactly what will happen. So let us just say that 
we monitor it very closely and we will take it as it comes.
    Ms. Matsui. I imagine we do not want to go there at all. We 
don't want this to become Chernobyl. But I would think that in 
the light of these events, the committee should investigate the 
safety and preparedness of our own reactors. And I think you 
said that also. But I think this committee should really take 
that seriously because we have an obligation to make sure that 
our own reactors are safe.
    Mr. Chairman, my home district of Sacramento, we have a 
decommissioned nuclear power plant which now manages the used 
nuclear fuel. And there are about 10 sites around the country, 
including Sacramento, where used nuclear fuel is being stored 
but where the nuclear power plant has been dismantled. I am 
interested in knowing what is being done at DOE to prioritize 
these sites, to move the used fuel so that they can be placed 
back into productive use. How does your requested budget 
address these issues?
    Mr. Chu. Well, I would have to get back to you on the 
details of the sites you are speaking about, but there are 
various stages. After you take the fuel rods out of the 
reactor, immediately you put them in a pool of water for a 
period of time where they are actually still dissipating a 
considerable amount of heat. But then after that, the next 
stage is that you can put them in dry cask storage----
    Ms. Matsui. Yes.
    Mr. Chu [continuing]. Which is much safer and Chairman 
Jaczko will be following me, but the NRC has recently ruled 
that storage on site of dry cask storage would be a safe 
interim--by interim, something on the scale of 50 or 60 years--
and that gives us time to develop a coherent, integrated 
strategy on what to do with spent fuel.
    Ms. Matsui. So we have, well, maybe not 50 or 60 years for 
our Rancho Seco, but maybe 40.
    Mr. Chu. Well, we hope to develop a plan far sooner than 
that.
    Ms. Matsui. OK, great. Mr. Secretary, we are fortunate in 
the Sacramento region that we have access to clean hydropower 
resources as part of our growing renewable energy portfolio. I 
believe if we are to achieve the President's goal of 
establishing a clean energy future, hydropower needs to be part 
of the discussion.
    I would like to know what DOE is doing to advance the 
adoption of new hydropower systems to generate more clean 
electricity in the country.
    Mr. Chu. There are several things we can do. We don't 
anticipate building new, large dams, but we can replace the old 
turbines in existing dams with more efficient turbines that are 
actually friendlier to fish----
    Ms. Matsui. Yes.
    Mr. Chu [continuing]. And more efficient. We should look at 
what are called run-of-the-river hydro dams. So again, it has 
far less environmental impacts than a conventional dam. And we 
should also look at sites where we store water for flood 
control----
    Ms. Matsui. Yes.
    Mr. Chu [continuing]. And we release the water to put 
turbines in those sites, again, would have virtually no 
environmental impact but you can capture the electricity. So 
those are things we are looking at.
    Ms. Matsui. OK. Thank you, Mr. Secretary. I see my time has 
run out.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from Colorado for 5 minutes, Mr. Gardner.
    Mr. Gardner. Thank you, Mr. Chairman. And Mr. Secretary, 
thank you for your attendance today.
    A couple of questions for you following up somewhat on 
other Members' questions but also some questions concerning 
Yucca Mountain and also what is happening in Japan. Right now, 
what is your level of communication with the administration in 
Japan regarding the events?
    Mr. Chu. Well, I spoke to the METI minister. It was 
yesterday morning. And offered him some of our services, our 
equipment, things like that, to which he accepted and expressed 
gratitude for that. I don't know whether it is hourly, but our 
people are certainly in constant contact with people in Japan. 
There are communications with Ambassador Roos, several daily, 
and so we are mostly going through channels. The State 
Department is also communicating, NRC, and then other informal 
channels. But we are continuing to offer assistance to Japan in 
any way we can, as well as informing ourselves of what the 
situation is.
    Mr. Gardner. And at this point you are satisfied with their 
response to the situation?
    Mr. Chu. Well, I can't really say. I think we hear 
conflicting reports, but I will go back to say that Japan is a 
very advanced country. They take these things very seriously 
and so I don't want to say anything more than we will stand by 
and help them as best we can.
    Mr. Gardner. Thank you. And Mr. Secretary, I have seen 
various what appear to be conflicting statements regarding the 
use of the Strategic Petroleum Reserve in news reports. Do you 
or do you not support at this point the access of the Strategic 
Petroleum Reserve?
    Mr. Chu. Well, if by access you mean that regarding the 
Strategic Petroleum Reserve as one of several options that we 
can hold in our arsenal, it is designed for severe disruptions 
in supply. The President has made very clear that that is an 
option that he can consider. And there are other things that 
are happening right now. I think the other oil-producing 
countries in the world are stepping up their production.
    Mr. Gardner. What about production here? Have you talked to 
Secretary Salazar or perhaps the Department of Agriculture 
about stepping up production within our own resources?
    Mr. Chu. That is right. As I understand it, two deepwater 
leases have been recently issued by the Department of the 
Interior. There have been a number of shallow-water leases that 
have been issued. There is an increase in production in the 
continental United States, as I mentioned before, because the 
shale gas actually has shale oil in it as well. We see an 
increase in recovery of that, and that is going to be a 
significant asset going forward.
    Mr. Gardner. Are you encouraging domestic production to 
help lower the price of gasoline in the country?
    Mr. Chu. I think domestic production should be part of a 
coherent plan going forward in what we need to do with our 
transportation fuel.
    Mr. Gardner. But what is the President's plan right now to 
lower gas prices by the summer?
    Mr. Chu. Well, first, domestic production itself doesn't 
turn on instantly, even if you have a known reserve. Producing 
more production from that known reserve will actually take 
months to years. Developing new reserves would take longer.
    Mr. Garner. But the fact that that is coming online should 
be reflected in price?
    Mr. Chu. That is true. So the immediate thing is that if 
you know that there are reserves coming online, just as oil-
producing exporting countries around the world, you know that 
they are increasing their production. So that should have a 
calming influence on price. But in the long run I think we 
should also say that if we look at the demand --by the long run 
I mean 10-plus years----
    Mr. Gardner. So the administration's plan to lower gas 
prices by this summer is 10 to 12 years?
    Mr. Chu. No, we are working toward doing what we can in the 
short term, but I am also saying that this problem can emerge 
easily again because of the laws of supply and demand.
    Mr. Gardner. So what is the administration's plan, though, 
by the summer to lower the price of gas?
    Mr. Chu. Well, we are going to be seeing if production can 
be increased. We are in conversations with other countries 
around the world on how we can increase production. And again, 
the petroleum reserve option is on the table.
    Mr. Gardner. But you are talking to the Secretary of 
Interior and Agriculture, Department of Agriculture, to 
increase production here?
    Mr. Chu. Well, I talked to the Secretary of Agriculture and 
Interior several times a week. But I think the licensing and 
things of that nature are in the purview of Secretary Salazar, 
and it is in good hands.
    Mr. Gardner. Again, I have additional questions on Yucca 
Mountain that I would like to submit if you wouldn't mind 
giving them back for the record. Thank you.
    Mr. Whitfield. At this time the chair recognizes the 
gentleman from Michigan for 5 minutes.
    Mr. Dingell. Curtis, I thank you for holding the hearing 
and for your courtesy in recognizing me. Mr. Secretary, welcome 
to the committee.
    The President, in his State of the Union, said if the 
United States is to compete, we intend to out-innovate, out-
educate, and out-build the rest of the world. A big part of 
that from my perspective is the Section 136 Program or the 
Advanced Technology Vehicles Manufacturing Loan Program. I have 
heard from numerous entities that have applied for funding 
under Section 136 and I find that in the development of that, 
none of them have been able to tell me that it has been an 
entirely positive experience, although I believe you and the 
Department have tried to be as helpful as you can. It is, of 
course, a complicated and a new law, which is somewhat made 
difficult by the fact that you had to function under very, very 
limited time frames.
    In fact, I hear a complaint that the goalposts are 
constantly moving. This is perhaps the most serious and it is 
perhaps the one that I hear most. Companies feel that everybody 
enters into the negotiations with the best of intentions but 
they have no assurance that they will ever get to the end of 
the road. For the record, please, would you provide a detailed 
summary of how Section 136 process works?
    Mr. Secretary, I note that your budget request for this 
year is 40 percent less than was requested in 2011 and that the 
2011 request is 50 percent less than the 2010 enacted levels. I 
understand our budget situation is serious but this seems to be 
inconsistent with the President's out-innovate, out-educate, 
and out-build message. Has the need for funding to reequip, 
expand, and build more facilities to create the vehicles of the 
future gone down since 2010? Yes or no?
    Mr. Chu. No, we certainly need to expand and build 
facilities. Were you comparing the recovery budget or our base 
budget?
    Mr. Dingell. Well, my concern here is the Section 136 
process and how it is working. And what I am trying to find out 
is has the need for that section to be used for funding to 
reequip, expand, and build more facilities to create the 
vehicles of the future gone down since 2010 so as to justify 
the reduction in the level of funding requested by the 
administration? Yes or no?
    Mr. Chu. I think it has gone down if you are including 
Recovery Act funding.
    Mr. Dingell. Say again?
    Mr. Chu. I said if you are referring to the ATVM loans and 
including the Recovery Act funding for 2010, if you include 
that, our funding request has gone down.
    Mr. Dingell. Well, I think it would be helpful to both of 
us if you were to submit the answers to the record, but where I 
am concerned is that we up there find that there is still a 
substantial need and yet we are finding that the requests for 
funding are going down. And what I am soliciting, Mr. 
Secretary, is your comments on this matter.
    Last question, Mr. Secretary. Could you for the record 
submit a comprehensive list of applicants for assistance under 
Section 136 and give us each--with regard to each--an 
indication of where they are in the process?
    Mr. Chu. Really we would be violating some confidentiality 
in the applicants of who has applied, and so that would be 
difficult.
    Mr. Dingell. Well, Mr. Secretary, I am not trying to lay 
any traps for you. And I recognize this is difficult, which is 
why I ask that you submit this for the record. And my staff 
will be happy to work with your staff to see to it that we are 
able to work together to get the proper answers.
    Mr. Chu. We can supply information in the aggregate, 
anonymity, things of that nature, and we can do that.
    Mr. Dingell. And I hope you understand, Mr. Secretary, 
these are friendly questions, not hostile. Mr. Chairman, I 
thank you for your courtesy.
    Mr. Whitfield. Thank you. At this time I recognize for 5 
minutes the gentleman from Pennsylvania, Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman. Thank you, Secretary 
Chu, for your testimony today. In light of your opening 
statement, I believe if I can paraphrase it, you said nuclear 
power should continue to be a key part of our national energy 
policy, is that correct?
    Mr. Chu. That is correct. We would like it to be part of 
our energy in this century, yes.
    Mr. Pitts. In light of this, the administration has 
eliminated the Office of Civilian Radioactive Waste Management, 
an office within DOE expressly created by statute. The 
administration has also shut down the Yucca Mountain repository 
program. There are currently concerns about the status of spent 
nuclear fuel rods that have been in wet storage at the Japanese 
nuclear plants affected by the recent earthquake.
    In light of the events in Japan, does the decision to 
eliminate the Office of Civilian Radioactive Waste and the 
shutdown of Yucca Mountain program deserve reconsideration from 
the President?
    Mr. Chu. Well, we shouldn't conflate what is happening with 
the events in Japan and the need to have a long-term 
repository. And again, as I said, there are stages. Once the 
fuel rods have been used, they are stored in a pool, but that 
is a very short-term thing. And then you convert after several 
years to dry cask storage and then finally you look for 
disposition. But technology is changing and there is, again, I 
don't want to preempt what the Blue Ribbon Commission will say, 
but there could be potentially going forward in the coming 
years other opportunities to perhaps capture more of the energy 
content of that used yield.
    Mr. Pitts. So at present, how does the administration 
fulfill its obligations under Nuclear Waste Policy Act to 
manage and permanently dispose of the Nation's spent fuel 
inventories?
    Mr. Chu. Pardon?
    Mr. Pitts. How do you manage and permanently dispose of the 
Nation's spent fuel inventories today?
    Mr. Chu. Well, the Department of Energy is responsible for 
dealing with the spent fuel, and again, we are asking the Blue 
Ribbon Commission to give us advice on--which they will do in 
June in a draft report on how to proceed forward so that we can 
actually take this spent fuel. As I said, I don't want to 
preempt what they are saying, so I don't really know what they 
are going to be recommending in terms of what you use with the 
fuel once it is cycled once.
    Mr. Pitts. In light of the events in Japan, can you make 
any conclusions at this point about the safety of nuclear power 
in the United States as a result of what you know about the 
incident?
    Mr. Chu. No, as I said before, what we want to do is look 
at what happened in Japan and say if there are these multiple 
events, as what has happened in Japan, a terrible earthquake 
and a tsunami, and look to whether we would vulnerable to a 
cascade of multiple events and how they might compromise 
safety. And so we first intend to look fully at whether we have 
considered all possibilities and get whatever lessons we can 
learn from----
    Mr. Pitts. What is DOE doing in terms of monitoring any 
potential radiation emitted from the Japanese facility? Will 
you collect exposure and health effect data?
    Mr. Chu. Well, what we have done is we have airlifted 
airborne equipment that can help monitor. We have made that 
available to the Japanese. We also have ground equipment that 
can pick up exposure levels and the type of radiation of people 
on the ground that we have also in the process--so it is in 
Japan now. And we are looking to deploy this in various areas 
so that we can have a firsthand understanding of what the 
exposure levels are and how they might change.
    Mr. Pitts. And in your testimony you say we are cutting 
back in multiple areas, including eliminating unnecessary 
fossil fuel subsidies, reducing funding for the Fossil Energy 
Program and reducing funding for the Hydrogen Technology 
Program. Will this decision increase or decrease gas prices in 
your opinion?
    Mr. Chu. Because of the Recovery Act, there was a 
tremendous amount of investments in clean coal technologies, 
carbon capture, sequestration technologies. And so because of 
that we thought that given that essentially $4 billion of 
investments that we can, given the issues about the fiscal 
responsibility, we thought that that very large investment can 
carry us forward for a number of years. So that is where most 
of the investments in our Fossil Energy Program were going 
into. It was going into clean coal technology. So we will still 
continue to make those investments because we believe that is a 
proper government role, to develop clean coal technologies. But 
that is different than transportation fuel.
    Mr. Pitts. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Mr. Whitfield. At this time the chair recognizes the 
gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. Dr. Chu, you wear many 
hats as the Secretary of Energy. One of them is banker-in-chief 
to the nuclear industry, a socialist system that allows for the 
U.S. Government to provide taxpayer-backed loan guarantees for 
nuclear power plant construction in our country. I want to know 
from a purely financial-risk perspective, do you think that the 
events in Japan will probably make it less likely for Wall 
Street investors or utility executives to want to assume the 
financial risks associated with ordering new nuclear power 
plants?
    Mr. Chu. I can't really predict what Wall Street will do, 
but certainly the events in Japan are going to cause everybody 
to look back and look back at their existing plants and their 
future plans and I think that is a good thing in the sense that 
you take this opportunity to look back and see what you are 
doing and are you doing everything possible to maximize the 
safety.
    Mr. Markey. So along those lines, are you going to reassess 
as the banker-in-chief the risk premium that you charge nuclear 
utilities for the loan guarantees you are giving them in light 
of the events in Japan?
    Mr. Chu. The risk premium is ultimately a credit subsidy 
issue.
    Mr. Markey. Are you going to reexamine it in light of what 
happened in Japan?
    Mr. Chu. Well, I think all factors get folded into a 
nuclear loan.
    Mr. Markey. So you are going to reexamine it?
    Mr. Chu. But ultimately, as you know, the OMB is the part 
of the government responsible for the determination of that 
credit----
    Mr. Markey. Should OMB reexamine the risk premium?
    Mr. Chu. I think they will include anything like what has 
happened in Japan in their determination.
    Mr. Markey. So they should go back again. I thank you.
    The Department has awarded an $8.3 billion loan guarantee 
to the Southern Company conditional upon the certification of 
the brand New Design, the AP1000 reactor by the Nuclear 
Regulatory Commission. Three days before the Japanese 
earthquake I sent a letter to the NRC because I learned that 
one of its most senior scientists, Dr. John Ma, has said that 
the design of that plant may be too brittle to withstand a 
strong earthquake and that it will ``shatter like a glass cup'' 
under strong impact. He even said that Westinghouse modeled the 
resiliency of the reactor using a totally unrealistic 
earthquake simulation.
    Don't you think it is too risky to issue conditional loan 
guarantees backed by the federal taxpayer for reactors like the 
AP1000 that have not been fully approved by the NRC in final 
form after public notice and comment, particularly when one of 
the NRC's own top technical people has raised serious concerns 
about its safety?
    Mr. Chu. One of the conditions of a loan is that the NRC 
has to grant approval of the license, and that is still pending 
before the NRC. And so the Southern Company and its 
collaborators do not get federal money until the NRC approves 
their construction.
    Mr. Markey. Don't you think that we should hold off on 
licensing new reactors on new reactor designs or approving new 
loan guarantees until we assure that these new reactors are 
safe and we have learned the lessons of Fukushima?
    Mr. Chu. I think we will, no matter what happens going 
forward, try to take the lessons of Fukushima and apply them to 
our existing fleet and any future reactors that we will be 
building.
    Mr. Markey. Now, in the case of the conditional loan 
guarantee you gave the Southern Company for the two new AP1000 
nuclear reactors at Vogtle, that $8.3 billion taxpayer loan 
guarantee will then allow the Southern Company to get an $8.3 
billion loan directly from the Federal Financing Bank at the 
Department of Treasury, again, a U.S. taxpayers entity. So the 
taxpayers are fully on the hook for 8.3 billion out of the $14 
billion project. If there is a default on this Vogtle plan--and 
the first 2 units that they have already built in past years 
there were 11 times over budget--So if there is a default on 
the Vogtle loan, what would happen?
    Mr. Chu. In our loan guarantee program the people who work 
in that program work very, very hard so that they make sure 
that if there is a default, that the government taxpayers are 
protected, that there are assets in Southern Company and 
others----
    Mr. Markey. But if you can't get paid off, what happens 
then?
    Mr. Chu. Well, it is a very complex agreement and there are 
specific----
    Mr. Markey. Would we own the Southern Company like we 
involuntarily wound up owning General Motors if they can't pay?
    Mr. Chu. That I would have to get back to you on the 
details of what the exact----
    Mr. Markey. Yes.
    Mr. Chu [continuing]. Recovery is.
    Mr. Markey. I think the American taxpayer really has to be 
protected here going forward.
    Mr. Whitfield. The gentleman's time has expired.
    Mr. Markey. Should not be licensing AP1000s----
    Mr. Whitfield. The gentleman from Mississippi, Mr. Harper, 
is recognized for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. Thank you, Secretary 
Chu, for being here today. I know that you can see the end in 
sight here of the questioning. I know you will appreciate your 
time, though, today being here.
    And I wanted to talk to you about something that President 
Obama said in a press conference recently, that we should 
increase energy production in this country and he mentioned oil 
specifically, but it appears in his 2-plus years in office I 
would argue the President has really not done much in that way, 
not much towards increasing our production of oil. When the 
President came into office, gas at the pump was actually under 
$2 a gallon. We are approaching $4 a gallon in many regions. 
And, of course, we have had the Deepwater Horizon explosion 
back on, I believe it was April 20, approaching that 1-year 
anniversary. And then a moratorium was placed on the deepwater 
offshore drilling in the Gulf of Mexico following that and 
there have been limiting of leases on the East Coast. And of 
course, we continue to ignore our resources in ANWR.
    And I would ask if you have had any conversations with the 
President recently about expanding exploration and production 
of domestic oil, and if you have had those conversations, what 
input or direction have you received from the President?
    Mr. Chu. The President has already spoken on this matter. 
He mentioned in a press conference that in 2010 the production 
of oil in the United States was as high as it has ever been 
since 2003. Prior to the Macondo accident, what had happened is 
more land was made open to have access to drilling, and that 
was certainly an Administration policy. The oil companies are 
seeing a lot of leases are not fully utilized, and the 
President has said that they would ask if those companies are 
just sitting on those leases, they are not actually using them, 
that we can explore mechanisms to find other lessees who would, 
then, explore those. So the President is, as part of a 
comprehensive transportation strategy, going forward. That is 
one of the things, in order to deal with what we are now 
facing.
    Mr. Harper. When we say, or when the President says, or the 
White House says that production is as high as it has been 
since 2003, is that high enough in light of what is going on 
around the world, first with the concerns in Egypt, and then 
Libya, and now what has happened in Japan? Are you convinced 
that we are pursuing the recovery of our own natural resources 
as it comes to oil in this country and the regions that we can 
go into offshore? Do you believe we are doing a sufficient 
amount at this level?
    Mr. Chu. I think we are going to have to do many things. 
Increased oil production is only part of the solution. As the 
President said, we now have 2 percent of the known oil reserves 
in the world, and yet we consume 25 percent of the oil. And so 
we can increase production in the United States, but it clearly 
can't be the full solution. That is why we are focused on 
improving still further energy efficiency in automobiles, 
biofuels, advanced biofuels especially, and finally 
electrification.
    Mr. Harper. Secretary Chu, have you had any conversations 
with the Department of Interior about the slowness in the 
permits being approved for the Gulf of Mexico drilling?
    Mr. Chu. No, I haven't.
    Mr. Harper. OK. Do you intend to have any about the 
slowness of the permit process?
    Mr. Chu. Well, I believe that this has gotten started 
again, and the shallow-water permits were continuing and now we 
have 2 deepwater permits. And I anticipate that that will be 
accelerating.
    Mr. Harper. And what is your position on drilling and ANWR?
    Mr. Chu. Right now there are many other sites open for 
drilling, and so we need not tap there. And the President is 
also exploring other sites in Alaska both on- and offshore. And 
so at the present time, there are many sites open for drilling 
that are not being used. And so I think we first look to those 
sites and try to get the oil companies interested.
    Mr. Harper. Would you look to those sites being used first 
before you tap into the Strategic Petroleum Reserves?
    Mr. Chu. Well, the Strategic Petroleum Reserve, again, is 
something which was meant to have a continuous oil supply in 
case of significant disruption, and that is a strategic 
reserve. I mean, oil is very essential for our country and so 
that is the original intent.
    What you are speaking of are things that has--even in a 
known reserve, it takes a year or two to bring up production 
and then for unknown reserves and exploration----
    Mr. Harper. Sure.
    Mr. Chu [continuing]. Five-plus years.
    Mr. Harper. And exactly, wouldn't it be necessary? I will 
yield back my time with that. Thank you.
    Mr. Whitfield. Thank you, Mr. Harper. At this I recognize 
the gentlelady from Colorado, Ms. DeGette.
    Ms. DeGette. Thank you so much, Mr. Chairman. Thank you for 
coming today, Mr. Secretary. Mr. Upton said that we are going 
to have more hearings about what happened with the nuclear 
power plants in Japan, but I just wanted to ask you a couple of 
questions that have been on my mind since the terrible events 
of last week.
    The Fukushima Daiichi plant, at that plant, three of the 
six reactors were operating at the time of the earthquake to my 
understanding. Is that correct?
    Mr. Chu. That is my understanding also.
    Ms. DeGette. OK. And so when the earthquake struck, the 
control rods essentially shut down those reactors as it was 
designed to do if there was an earthquake. Is that also right?
    Mr. Chu. That is my understanding.
    Ms. DeGette. And then after the reactors were shut down, 
then power was lost in the plant and then the cooling pumps 
were shut off. Is that correct?
    Mr. Chu. That is correct. The power was lost.
    Ms. DeGette. So then the backup diesel generators came on 
as that was also designed to do and then those generators quit 
functioning because they went under the floodwaters from the 
tsunami. Is that right to your knowledge?
    Mr. Chu. The generators came on and then later I have been 
informed that some of them then shut off. This is where I 
couldn't give assurances because you hear conflicting reports, 
but the story I heard was that the cooling for the generators 
was at risk and they tripped off for that reason.
    Ms. DeGette. Right. OK. So then now what they are trying to 
do is pump the seawater in to keep these rods from melting 
down, right?
    Mr. Chu. That is correct. They are using, now, fire trucks.
    Ms. DeGette. So----
    Mr. Chu. And other pumps.
    Ms. DeGette [continuing]. This is the concern I have got--
and I imagine you share this concern--is that there were 
numerous failsafe systems here with this plant. I mean, it is 
40 years old but it is a pretty technologically advanced plant 
and there were numerous failsafe methods, correct?
    Mr. Chu. Yes.
    Ms. DeGette. The plant was built to withstand earthquakes, 
but because of the tsunami, now we have got this crisis about 
what to do. And the thing I am concerned about is that you 
can't always plan for every exigency in these situations. We 
saw this on this committee. You saw it last year with the 
Deepwater Horizon disaster because there were numerous failsafe 
mechanisms on that rig and then each one of them failed, and 
then we saw huge amounts of oil spewing out into the Gulf.
    So my question for you is I know DOE is putting resources 
towards advanced reactor technology and there are a lot of 
concerns from this committee and from my colleagues who live in 
California and some of the other earthquake zones. But here is 
my question is how can you, with something so potentially 
destructive as these nuclear rods, how can we ever anticipate 
the worst so that we can be prepared for it? That is a tough 
question, I know, but maybe you have some initial thoughts on 
it.
    Mr. Chu. Well, what the Department of Energy is very 
interested in doing is developing tools to get a better handle 
on these multiple cascading events, interacting events, an 
earthquake plus a tsunami, a tornado plus this or that, things 
like that. One of the things that we are very keen on doing 
because we have developed high-performance computers and 
simulation techniques, that this is one of the tools we think 
that can actually be used to make any system we have, including 
nuclear reactors, safer. You know, if you consider all the 
things we do now, we fly on airplanes, we do all sorts of 
things, and there is ever-increasing ability to make each of 
these systems safer as we go forward.
    Ms. DeGette. Sure. Well, you know, 1 thing that strikes 
me--and I was just in Japan a couple of weeks ago with the 
Congressional Delegation--and the 1 thing that strikes you 
about Japan, this is not, you know, Chernobyl. This is not some 
Third World country with rinky-dink technology. This is state-
of-the-art technology and yet it failed.
    So I really think one of the questions, Mr. Chairman, we 
are going to want to explore as we move forward is do we really 
have the kinds of modeling that we need to develop nuclear 
energy safely in this country. And I am sure you are looking at 
that, too.
    Mr. Chu. Yes.
    Ms. DeGette. Thank you. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
California, Mr. Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman. And I think the secretary 
will agree with the statement that Japan is state-of-the-art is 
inappropriate. It is a state that was designed maybe 40 years 
ago. We have now got designs even in the fuel composition that 
really address these issues. So as somebody who lives downwind 
of San Onofre, I just want to assure everybody our surge wall 
is three times what they had in Japan. The surge wall, the 
construction at Diablo is eight times higher and the fault line 
is inland, not offshore. So I think when we talk about this, 
there are differences scientifically.
    Let me just say, Mr. Secretary, I am 1 guy sitting on this 
side of the aisle that is very excited to see you as the 
secretary. And we talked about this last year over in the 
Science Committee. I just realized the connection. Back when I 
was a young 26-year-old city councilman, the Department of 
Energy was created. Back in the '70s when it was created our 
dependency on imported energy was what again?
    Mr. Chu. Well, I heard 35. I was guessing 25. But I will 
provide a more precise number for the record.
    Mr. Bilbray. I think you are right. I think it was more 
like 25. And when you took over in '08 the imported energy was 
what percentage?
    Mr. Chu. In 2008 it was 57 percent.
    Mr. Bilbray. And that is how much success our Department of 
Energy has had in the past, but that is why I am optimistic 
that you are the right guy at the right time with the right 
President to finally get this country to, rather than have an 
anti-energy policy, actually have an energy policy. And that is 
one of the things I am really encouraged about. My biggest 
concern--and I will say this with tongue-in-cheek--to the fact 
of how much obstructionists always seem to be there every time 
you come up with an innovative approach.
    I want to point out that as one of the three California 
surfers in Congress, you mess with our ways to try to generate 
electricity, you are going to have a real problem with us, OK? 
Just the fact is every time somebody says there is something 
nobody will complain about, believe me. You start talking about 
wave actions in Southern California and Hawaii, we are going to 
have some concerns.
    But that aside is that one of the things I want to talk 
about is you are being asked to do things in isolation. And my 
attitude about our oil reserves or the areas being drilled is 
that right now we are buying oil overseas, sending our 
resources overseas. What happens to the federal profits that we 
get from opening up lands like ANWR or Alaska? We do make some 
profits off those oil exploration and development, don't we?
    Mr. Chu. We do.
    Mr. Bilbray. And where does that resource go now?
    Mr. Chu. As far as I know it goes to the Treasury.
    Mr. Bilbray. OK. Don't you think that we may want to at 
least discuss the possibility of opening up lands and 
committing those profits to next-generation green fuel so that 
we have a built-in resource like the transportation components, 
the freeway interstate system, have a built-in source for you 
to use to be able to pay for that bridge to a greener future?
    Mr. Chu. I would love the Department of Energy to have a 
built-in source that we can do the research that will lead to 
technology the private sector will pick up.
    Mr. Bilbray. OK. Let us talk about obstructionists. We talk 
about going to electrical generation. We talk about energy 
development. Isn't it true that the technology we use for 
efficient electric motors and the efficient generation of wind 
power depends on permanent magnet technology because it is so 
much more efficient than the AC technology that it replaced?
    Mr. Chu. The permanent magnet technology is more efficient, 
and we are also looking at other because these permanent 
magnets and the rare-earth magnets----
    Mr. Bilbray. This is where we come down, the rare-earth. At 
the same time we are talking about electrification, nobody in 
this town is talking to the Department of Interior about 
opening up public lands to allow the mining of rare earth, 70 
pounds in every Prius where in 30 years that we have gone with 
this Energy Department, the Department of Interior has created 
an environment where instead of 98 percent of the rare earth 
being produced in the United States, it is now in China. Don't 
you agree that we need in this committee if we want to create 
efficient electrical generation and use, we have got to be 
brave enough to ask our colleagues over at the Department of 
Interior and the Resource Committee to start looking at opening 
up public lands within our country so these essential rare 
earth can be developed if we are going to go to 
electrification?
    Mr. Chu. I agree with you that having China control 98, 99 
percent of the rare earths of the world is not a good 
situation. And we are looking--I believe Molycorp Corporation 
in California will be--I think it is in California--will be--I 
am not sure actually.
    Mr. Bilbray. My point, Doctor, is that you understand the 
barriers. My frustration is the barriers is more government 
obstructionism. We write checks quick but we are not willing to 
change regs. We talk about we need a Manhattan Project for 
energy independent. The fact is today the Manhattan Project 
would be legal to perform under federal and state regulations. 
And we have got to be willing to not just tell other people how 
they have to change their operation and their way to do 
business, those of us in government have to change the way we 
do business, too. Wouldn't you agree?
    Mr. Chu. I think we are going to be looking at many, many 
things, but certainly there need to be requirements is 
something we also have to take seriously and I would be glad to 
talk to you about that in private.
    Mr. Whitfield. At this time I recognize the gentleman from 
Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman. Mr. Secretary, welcome. 
It is a pleasure to have you here before our committee today.
    Secretary Chu, you know in Pittsburgh we are fortunate to 
have the National Energy Technology Lab that does a lot of 
innovative research. And I was hoping I could ask you a few 
questions concerning some of the cuts in the administration's 
upcoming budget proposal. I see that you have terminated all of 
the natural gas and oil programs run out of the NETL. Don't you 
view these research programs as being particularly relevant 
today, since it funds environmental protection projects that 
are related to drilling, hydraulic fracturing, oil and gas 
production, as well as the development of advanced technologies 
that will allow increased recovery from our domestic 
unconventional oil and gas resources?
    Mr. Chu. Well, the Department of Energy played a very 
important role in the developing of natural gas recovery in the 
late '70s, early '80s to 1992. It was actually the Agency that 
funded the research that led to the fracking of natural gas. 
But the private sector has picked it up and is doing quite 
well.
    There has been a transfer of funds from FE, Fossil Energy, 
to the Office of Science for doing research in methane hydrate 
recovery because, commercially, energies are that interested so 
far, but the bulk of our funding in FE, as you know, is for 
carbon capture and sequestration.
    Mr. Doyle. Yes. And I understand the larger companies have 
the ability to pick up some of that slack but, you know, this 
program, at least in my view, is really not subsidizing the 
bigger companies. In the United States we have 5,000 small 
independent producers. They do 90 percent of the wells and 60 
percent of the domestic oil and 80 percent of the natural gas 
comes from these small companies that employ an average of 12 
people or less and they don't have the resources to invest in 
the R&D. And this is where DOD has really fulfilled a critical 
need for technology advancements through partnerships with 
companies like these and university researches and technology.
    I do want to ask also to follow up because you just 
mentioned this. The administration has proposed that the Gas 
Hydrate Research Program and fossil energies being terminated 
and transferred responsibility for future research over to the 
Department's Office of Science. Now, the program has been well 
managed. It has made significant progress, and it concerns me 
that you are going to kill a program that is on the verge of 
making production from gas hydrate a practical reality after 
decades of research and millions of dollars spent by DOE and 
other agencies to bring this to this point, that you are going 
to start up a new program in the Office of Science that I think 
would have little bearing on anything.
    And when you look at the language just in the most recent 
Energy and Water Senate report, we contain language about this 
that the committee recommended, includes 22 million. Of this 
amount 15 million is provided for methane hydrate activities. 
The committee actually restored this hydrates technology 
program of the account, and they don't support funding this 
within the Office of Science. Their intention was that this was 
to be funded out of Fossil Energy. So I am curious why you are 
deciding to defund this program and transfer it over to the 
Office of Science?
    Mr. Chu. Well, I know the program very well and I do think 
highly of it. We hope the Office of Science will be the people 
doing that research, but we will abide by Congress' wishes.
    Mr. Doyle. Thank you. One more question, too. As the co-
chair of the Hydrogen and Fuel Cell Caucus, I am also concerned 
about the Department is basically zeroing out funding for the 
Fuel Cell Energy Program within the Office of Fossil Energy. I 
understand that one of the projects managed by DOE won and R&D 
100 award in 2010 for improving the service life of solid oxide 
fuel cell stack materials. I am curious, why would you 
eliminate this very successful Fossil Energy program that is 
developing fuel cell technology required for large-scale power 
generation applications to produce affordable, efficient, and 
environmentally friendly electricity from coal?
    Mr. Chu. Well, we actually have several fuel cell programs 
within the Department of Energy. We are continuing to fund fuel 
cell development as stationary fuel cells, but not in Fossil 
Energy.
    Mr. Doyle. See, my understanding is that you are continuing 
to fund transportation fuel cells but that you have zeroed out 
the stationary fuel cells. Are you saying that is not accurate?
    Mr. Chu. It is my understanding that we are mostly 
concentrating on stationary fuel cells. We do have some on 
transportation but it is concentrated on that.
    Mr. Doyle. Thank you. I see my time has expired. Thank you, 
Mr. Secretary.
    Mr. Whitfield. At this time the chair recognizes the 
gentleman from Virginia, Mr. Griffith.
    Mr. Griffith. Thank you, Mr. Chairman. Continuing talking 
about coal a little bit, I am concerned that new regulations 
will slow growth and send jobs to China. Both you and the 
President are supporters of China's energy policy. We hear time 
and time again from the administration that China has a strong 
commitment to wind and solar energy and that we need to catch 
up or we will lose the future.
    But you would agree and are aware that China gets 70 
percent of its total energy and 80 percent of its electricity 
from coal. Wouldn't you agree with that?
    Mr. Chu. I have heard numbers like that, yes.
    Mr. Griffith. Yes, sir. And isn't it true that China uses 
3.5 times as much coal as the United States uses and that that 
number is actually growing?
    Mr. Chu. I think so. Again, I am not sure of the exact 
numbers.
    Mr. Griffith. OK. And you are aware that under the Kyoto 
Protocol, China has no obligation to reduce emissions and it is 
not imposing anything anywhere close to the EPA's greenhouse 
gas regulations on its coal use, isn't that correct?
    Mr. Chu. That is correct.
    Mr. Griffith. And you are also aware that the Chinese 
Government has repeatedly stated that they would never put a 
price on carbon, isn't that also true?
    Mr. Chu. I don't know. China is committed very emphatically 
to transition to 15 percent renewable energy by 2020 and they 
may get to 20 percent.
    Mr. Griffith. OK. And while you are aware that wind and 
solar in China are growing in percentage terms, they will 
never--or at least not anytime in the near future--be equal to 
their relationship or their reliance on coal, isn't that true?
    Mr. Chu. Well, it is their intention to greatly diversify 
their energy supplies. In the short term they are heavily 
dependent on coal, but they have made it very clear that they 
want to develop wind, solar, hydro, nuclear.
    Mr. Griffith. Yes. And the factories that make the wind 
turbines and solar panels for export to Europe and the U.S., 
isn't it true that they are actually powered by coal energy 
sources?
    Mr. Chu. I would presume given that coal is still the 
dominant form of energy.
    Mr. Griffith. And don't you think that is a part of their 
competitive advantage is that they are using a cheap source of 
fuel that we seem to not want to use in this country?
    Mr. Chu. Well, it is more complicated than that. If you 
don't mind, I will tell you a little story. I toured a Chinese 
solar company and they would get their silicons from companies 
in the United States and then add the high value part of it to 
make the modules in China----
    Mr. Griffith. And I appreciate that. My concern is I only 
get a certain number of minutes to ask you questions, and I 
guess my concern is is that, you know, it appears to many that 
the future of coal in the United States is merely to mine it 
and send it to China for them to use and that our jobs are 
going to go over there. They are going to send their pollution 
back to us over the Pacific Ocean because they are not going to 
have even some of the more reasonable regulations that we have, 
but that we are not using our own coal for our manufacturing 
purposes. And so as a part of that I am wondering if you have 
talked to any of the folks at the EPA about their slowness to 
permit new coalmining or is this part of an administration plan 
to slow down the production of coal and thus force us to, I 
think, lose jobs? But the plan would be force us to not use 
coal because there isn't a supply available domestically?
    Mr. Chu. I have not talked to the EPA regarding this, but 
just to finish that story, China takes its silicon from the 
United States because it says that energy is so cheap in the 
United States and that is why we do it.
    Mr. Griffith. OK. And in regard to coal you would agree 
that it is a fairly affordable and reliable source of energy in 
the United States and that it is a good source, at least over 
the next 20 or 30 years it is a good source that we shouldn't 
cripple, would you not agree?
    Mr. Chu. Well, I think that is why the Department of Energy 
is committed to developing those technologies to use coal as 
cleanly as possible.
    Mr. Griffith. And I would encourage you to work with the 
Environmental Protection Agency to make sure that they don't 
shut down your supply for those purposes and other purposes. 
Thank you.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from Texas, Dr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman. Dr. Chu, I appreciate 
you being here. I certainly appreciate how generous you have 
been with your time over the past 2 years to visit with Members 
of the committee outside of the committee room.
    In response to a question from the gentleman from 
Mississippi about ANWR and whether or not the President would 
consider that, you said that there were other sites in Alaska 
that the President was looking at. Now, in all honesty, I mean, 
his background is as a community organizer; you are the energy 
expert. Are you helping him with that?
    Mr. Chu. Well, actually, this is the domain of the 
Secretary of Interior, and so it is the Secretary of Interior 
who would be helping him with that.
    Mr. Burgess. All right. But he has got some petroleum 
people who are actually helping him make that decision?
    Mr. Chu. I would think so, yes.
    Mr. Burgess. OK. Maybe we ought to find that out who can 
help him. Now, also mentioned in a previous answer to a 
previous question, you said that oil can't be our only 
solution. We have 2 percent of the reserves and 25 percent of 
the consumption.
    Now, a resource where we do have significant reserves is 
natural gas. And in my part of Texas we have new technology 
that allows recovery of natural gas from strata that previously 
were thought to be inert and that is ongoing at the present 
time. As you are aware, there is some controversy about the 
methods of extraction and to be certain all of us do need to be 
concerned about safety. We have seen it in Japan this week. We 
saw it in the Gulf Coast last year, so we do need to be 
concerned about safety. But we also need to be concerned about 
the overregulation of these processes that inhibit our ability 
to take advantage of a resource that we do have in abundance.
    Now, on the utilization end, I am sure you are familiar 
with people like Boone Pickens who talk about our heavy 
transportation fleet should be run much more on natural gas 
rather than liquid petroleum products. What are you doing at 
the Department of Energy right now in regards to that?
    Mr. Chu. We are supporting pilot programs. We think 
especially in delivery vehicle situations where there are 
central fueling stations because we don't have a natural gas 
infrastructure, that that would be a good place to prove 
natural gas and establish the technology. I think we had a loan 
guarantee for natural gas vans for helping handicapped people. 
We have supported programs using Recovery Act money for 
centralized fueling stations.
    Mr. Burgess. Sure. So things like city buses and school 
buses make sense because they are not long-haul vehicles and 
they----
    Mr. Chu. And they always go back to the same place.
    Mr. Burgess. Correct. They could be centralized. Now, are 
you working with your counterparts at the Environmental 
Protection Agency to help ensure the correct utilization of 
this resource, the ability to continue to recover it and that 
it is to be done in a safe manner? Because you know the EPA has 
a couple studies going on right now as regards to hydrologic 
fracturing. Are you communicating with them about that?
    Mr. Chu. Well, first, the Department of Energy is using 
some resources in this fiscal year to look at fracking safety. 
I think it is something that can be done safely but we have 
to----
    Mr. Burgess. Can you say that again?
    Mr. Chu. The Department of Energy currently----
    Mr. Burgess. I think that--finish that thought.
    Mr. Chu. I think that----
    Mr. Burgess. I think that it can be done safely. Did I hear 
you say that?
    Mr. Chu. I believe it is like everything else. We learn 
from what is happening and it can be done much more safely just 
as deepwater oil drilling can be done more safely than it has 
been done in the past. We learned from the----
    Mr. Burgess. Don't parse your own language. I heard you say 
it. It can be done safely as a simple statement of fact?
    Mr. Chu. It can be done safely.
    Mr. Burgess. I agree with you, Mr. Secretary.
    Mr. Chu. But you also have to be on guard. One can't be 
absolutely certain of these things and you have to take that 
responsibility very seriously.
    Mr. Burgess. Absolutely. And I will tell you in my home 
area right now the public doesn't get the sense that its safety 
is being protected. That is why I urge you to work with your 
counterparts at the Environmental Protection Agency. This is an 
important resource for the country and we cannot afford it to 
become locked in where we can't develop it because it was 
either done incorrectly or unsafe practices were pursued and 
the public's then reaction against it is such that it just 
can't be developed.
    Just briefly on Japan for a moment. Is your Department 
sending a contingent to Japan or has Japan asked for any help 
from the United States Department of Energy?
    Mr. Chu. As I said in my opening remarks, we have sent some 
33 or 34 people to Japan to help them monitor with equipment.
    Mr. Burgess. Just for what it is worth, I think at some 
point in the future when you deem it safe, your presence in 
Japan, I think, would go a long way towards reassuring the 
people there. Thank you, Mr. Secretary.
    Mr. Whitfield. The gentleman from Ohio, Mr. Latta, is 
recognized for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman. And Secretary, thanks 
very much for your indulgence with us today. We really 
appreciate you being here and I am going to follow up a little 
bit on Dr. Burgess' comments a little bit ago.
    But just to kind of give you a little background about my 
district and how important energy is out there, Ohio overall 
gets about 80 percent of its energy is coal-based. And also, 
interestingly enough, about 80 percent of everything that comes 
in and out of Ohio comes in by truck. So we are talking about 
oil.
    The 5th Congressional District, according to the National 
Manufacturers, is the 20th largest manufacturing district in 
Congress. It is also, interestingly enough, the largest ag 
district in the State of Ohio. We also have two solar 
manufacturing plants in the district. I have two ethanol plants 
in my district. The first four really working turbines in the 
State of Ohio I can see from my backyard. There are four of 
them not too far from my home. And I am one that really truly 
believes that we have an all-of-the-above energy policy. And 
again, that is your oil and natural gas, coal, nuclear, and all 
of the alternatives because we have to really utilize all of 
those.
    But at the same time when I am out talking to my companies, 
my businesses, the factories across my district, one of the 
things that always comes up in the conversation is we have to 
have base-load capacity to turn these machines on in the 
morning. And I know that a question was asked, I think it might 
have been Mr. Green had asked a little earlier in regards to, 
you know, where are we at that, you know, through the 
alternatives? I think the question he posed was in 10 years 
that we could really start supplanting, you know, some of the 
oil, natural gas, coal, and nuclear.
    But, you know, to make sure that we can compete, and I know 
the questions have come up because it all comes down to really 
jobs and making sure people can get out there and work and we 
have these jobs in the future. Is there anything out there 
right now that can supplement those 4 basic methods that we 
have right now from nuclear, the clean coal, the oil, and 
natural gas?
    Mr. Chu. I think it is going to be a transition period. If 
you look at other countries around the world and if you look at 
what we are doing here in the United States that these things 
don't happen overnight. It will take decades to make these 
transitions. And one recognizes that.
    Mr. Latta. Well, let me ask this. I represent quite a few 
co-ops in my district and one of the things that they are 
worried is is that, you know, the cost of having to buy a lot 
of the alternatives right now are driving up their cost, which 
is driving out the businesses from the area. And do you foresee 
that happening?
    Mr. Chu. There is background noise.
    Mr. Latta. Sorry. I have a lot of co-ops in my district. 
And one of the questions that they always bring up to me is 
that they are fearful that if they have to buy too much on the 
alternative side--and I know that we all want to see 
alternative--but they see it that they are not going to be able 
to supply power cheaply enough to be able to maintain the 
businesses that they service right now. And do you see that as 
a problem?
    Mr. Chu. Well, we have to be very sensitive to that and 
that is why the Department of Energy is so focused on looking 
at exactly where we think the trajectory will be and what are 
the time scales that would be needed in order to bring down the 
price of renewables so that they are absolutely competitive 
without subsidy with fossil generation of energy.
    Mr. Latta. You know, in your testimony you also, on page 8 
where the cuts are occurring under the Office of Fossil Energy, 
how do you define unconventional fossil energy?
    Mr. Chu. Unconventional fossil energy I would think methane 
hydrates would be an example of that. This is natural gas 
trapped in crystalline structures of ice.
    Mr. Latta. And just kind of following along in the lines 
that Dr. Burgess talked, especially in the fracturing question. 
You know, we now have in Ohio and Pennsylvania, New York, the 
Utica reserves are being found. They are saying that probably 
Ohio they will be able to get to that maybe first. And again, 
just making sure because I know there has been talk around the 
Hill by some individuals that, you know, fracturing shouldn't 
be done. And I am one who has looked at the EPA reports that 
they have put out from several years back that said that 
fracturing can be done. And I know that, you know, Dr. Burgess 
has asked that question of you that, you know, I believe it can 
be done safely. And, you know, will the Department of Energy 
also make sure that that can be done and that these people out 
there aren't going to be impeded to get this energy that we 
need in this country?
    Mr. Chu. I think yes. When I said it can be done safely, 
let me reiterate ``can be done'' is different than ``is being 
done'' safely. I think industry can take the steps needed to 
extract these resources safely. And I think it is important 
that we continue taking those steps to improve the methods.
    Mr. Latta. Well, I guess finally is that as we look at 
everything that is out there, hopefully the Department of 
Energy always is looking at all of these alternatives that 
people are coming up with. And I know my array of individuals 
working on clean coal technology and trying to make sure that, 
you know, we can utilize high sulfur coal that comes from like 
our region of the country and put it to use since the United 
States does have such large reserves when it comes to coal.
    And with that I appreciate you being here today. And Mr. 
Chairman, I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Iowa, Mr. Terry.
    Mr. Terry. Or Nebraska. Yes, corn states. Confuses tobacco 
state people.
    Mr. Whitfield. At least I got your name right.
    Mr. Terry. Yes, coal states.
    Mr. Whitfield. I got your name right.
    Mr. Terry. It is progress, Mr. Chairman. Sorry, Doctor. I 
really appreciate you being here and I think we all have great 
respect for you and your talents that you are lending to the 
Nation right now.
    Harping on the fracturing, let me ask you a simple 
question. You mentioned earlier that you are in discussions 
with Interior and EPA all the time. Have there been any 
discussions about limiting fracturing now?
    Mr. Chu. I have not been part of those discussions. I have 
not been.
    Mr. Terry. OK. Because there is a lot of discussion or 
rumors that Interior is going to shut down all fracturing 
within Interior lands and there is rumors that EPA is going to 
come down on current fracking techniques. Now, have you heard 
any of that within the administration discussions?
    Mr. Chu. No, the only thing I heard about, the EPA has 
requested that monitoring be done and certainly there have been 
reports of possible contamination and things of that nature. So 
the ones I have heard said we should monitor what is being 
discharged. For example, the water being used and the fluids 
being used in fracking as they go into, let us say, sewer 
treatment plants that the EPA has, I believe, asked for the 
monitoring in the discharge of those sewage plants.
    Mr. Terry. Very good. And I appreciate that you said to Dr. 
Burgess that fracking can be done safely.
    Mr. Chu. Yes.
    Mr. Terry. Without that technique we aren't going to have 
the level of natural gas that we are going to count on. The 
Bakken shale up in North Dakota, their production would go down 
greatly. We want to do it safely and cleanly but we don't want 
an overreaction and just start shutting it down either. So we 
need to do it safely. Are you engaged in any activities right 
now to set out what techniques or changes to make it safe or 
safer?
    Mr. Chu. Right now we do have a small program--it is 
located in universities--to look at what are the issues in 
terms of the safety in fracking fluids. The Department of 
Energy does have expertise in how fluids move around in rock 
because of both carbon capture sequestration, also because of 
the underground repository work that we need to do. And so 
those same technologies can be brought to bear on fracking.
    Mr. Terry. I have got one more question in my minute-forty-
five. So let me interrupt with this one. I want to know if 
there are any reports due or their findings--and I will send 
you a written question as fairly common at the conclusion of 
hearings that we will send written questions to you. Expect 
that one from me. It would be nice to know when you will get 
that information in so we could look at it, too, and maybe have 
you back.
    But in regard to natural gas you have a lot of proponents 
of natural gas not only in electrical generation but moving it 
more towards a transportation fuel. I see in your budget that 
there is $200 million in the competitive program to encourage 
communities to invest in electrical vehicle infrastructure. Can 
you tell me what measures the DOE is undertaking to promote 
natural gas vehicles?
    Mr. Chu. Yes. As I said, we have invested in some pilot 
projects for centralized delivery van type of things where you 
can go to a centralized fueling station. I can get back to you 
on the full details of what we are doing on natural gas.
    Mr. Terry. I would appreciate it. And I think the focus, if 
I could be so bold, is probably in large fleets with on-
premises fueling stations.
    Mr. Chu. That is correct.
    Mr. Terry. And so in regard to providing us information if 
you could do that on any of the programs that would help 
implement or build on-site stations for large fleets I think 
that would be helpful. Thank you.
    Mr. Whitfield. Thank you, Mr. Terry. At this time I 
recognize the gentleman from Louisiana, Mr. Scalise.
    Mr. Scalise. Thank you, Mr. Chairman. Mr. Chu, I appreciate 
you being with us today.
    I want to talk about the broader picture of energy policy. 
And I know a few of my colleagues touched on some of the 
various objectives. And over the years our dependence seems to 
have increased on foreign oil especially over the history of 
the Department of Energy. In your mission statement you talk 
about ensuring America's energy security.
    And I think one of the concerns I have is when you look at 
what the current policies are from this administration. It 
seems like despite the current levels of production which are 
the result of years of exploration in the past, it seems like 
this administration has shifted policies away from energy 
exploration in America. And, of course, we are seeing this in a 
very devastating way in the Gulf of Mexico and the parts of the 
outer continental shelf that have been closed down where only 
two permits have been issued in 10 months. And that seems to 
run counter to even the President's own scientists, a panel he 
had put together after the explosion of the Deepwater Horizon 
where his own scientists and engineers recommended against any 
kind of moratorium or now permitorium where you literally are 
strangling the ability for our country to seek its own energy, 
which then increases our dependence on countries like those 
Middle Eastern countries that are so volatile.
    So how do you, I guess, reconcile what the mission 
statement of your Department is that really says you are going 
to strive to increase our American energy security when, in 
fact, you have got the President initiating policies that close 
off more areas of our known resources?
    Mr. Chu. Well, the President actually increased the 
resources in the sense that more areas were open to exploration 
with not such great timing, a couple weeks before the Macondo 
disaster. And----
    Mr. Scalise. But has since closed those areas off and they 
are not issuing permits at any level close to what they were 
before. And while the President may hang his hat on two permits 
issued in 10 months, that is an embarrassing low number, you 
know, when you look at the safety records of those companies 
that didn't make the mistakes of BP that are being punished for 
BP's actions.
    Mr. Chu. Well, the permitting of deepwater has resumed 
and----
    Mr. Scalise. Would you consider than an adequate 
resumption, 2 permits in 10 months?
    Mr. Chu. Well, you could say it is two permits over the 
last couple weeks as well, so I think it has been resumed and 
will continue to resume. I think the committee that 
investigated the Deepwater spill said that, you know, it is not 
only just BP that has been implicated in this, that the whole 
industry can up its game and make improvements in safety.
    Mr. Scalise. Well, and there were some serious flaws in the 
report where they basically try to say it was the entire 
industry that was at fault when, in fact, that is not the case, 
considering the fact that in all of the wells, thousands of 
deepwater wells that have been drilled, you had one disaster 
because of a series of mistakes by that partnership that 
weren't replicated at all of the other wells. So I think it is 
inaccurate for them to say it is systemic. I would hope you 
wouldn't think that it is the entire industry that is at fault 
when you clearly had an example of one company in a partnership 
that did cut corners where others didn't.
    And I think that is the key point is there is this kind of 
broad brush it seems like from this administration that they 
are almost shying away from American energy exploration. I 
wanted to ask you about a comment you had referring to use it 
or lose it provisions in leases. And you seem to imply that 
there are companies that are not utilizing their leases 
adequately and you inferred that maybe other people should be 
given that ability when, in fact, right now in the Gulf of 
Mexico, all of those companies that want to go and reestablish 
what they were doing before and exploring for American energy 
are not being allowed to. And yet the clock is still ticking on 
their leases. Now, would you support a change in policy where 
if a company does want to expand and go and explore that lease 
but right now they are being prevented by the administration 
that that clock shouldn't keep running while the administration 
is holding them back?
    Mr. Chu. I think the leases, the permits for exploration 
has started again and you were talking about a hold on 
deepwater leases for something like 6, 8 months. I think the 
lease time is considerably longer than that.
    Mr. Scalise. And let me ask one last question as my time is 
about to run out. When you were talking about known reserves, 
you used the term 2 percent of the world's reserves are in 
America. There is a CRS report and I am not sure you have read 
it. I am sure you have read something like this that looks at 
this. Nineteen billion barrels of oil reserves are what I think 
are alluded to in this 2 percent number, but in fact there are 
about 145 billion barrels of reserves that are estimated to be 
recoverable using new technology. So there are some outdated 
numbers when people use this 2 percent number. First, are you 
aware when people say 2 percent they are referring to 19 
billion barrels of known reserves when, in fact, it is 
estimated that there are over 145 billion barrels of reserves 
in America using the newest technologies?
    Mr. Chu. Reserves are a very specific thing. It is a known 
asset, bankable asset. You are talking about potential future 
reserves and there is a difference there. There are potential 
future reserves in the U.S. territories.
    Mr. Scalise. Would you give an estimate on how much?
    Mr. Chu. Well, I am not sure the exact numbers but I can 
get them to you. But there are significant potential reserves 
in----
    Mr. Scalise. I would appreciate it if you would share that 
with the committee. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. I recognize the gentleman from New 
Hampshire, Mr. Bass, for 5 minutes.
    Mr. Bass. Thank you, Mr. Chairman. Mr. Secretary, I don't 
come from coal or oil or nuclear. I am interested in biomass. 
What is the status of the DOE's support for advanced biofuels 
development?
    Mr. Chu. It is in a very good position. We have, as you may 
know, three biofuel centers and we do sponsor a lot of research 
in universities, also in national labs. Those biofuel centers 
and other research with DOE support have generated a 
significant amount of intellectual property. That intellectual 
property is being picked up by industry. Already some of the 
intellectual property in the first 3 years of our biofuels 
centers advanced biofuels, so this is to make a drop in diesel 
fuel, gasoline jet fuel from simple sugars using bacteria. 
Those things have been licensed and already there are now plans 
in the private sector for building pilot plants based on that. 
So it is a very good track record.
    Mr. Bass. As I recall when I was here before, Secretary 
Bodman was announcing or getting a loan guarantee program to 
build a commercial-scale advanced biofuels facilities around 
the country. How many of those have you--I don't know the 
answers to these questions. What is the status of that program?
    Mr. Chu. That we are looking at. I know we did one loan 
guarantee but that is not for the fuels research. I think the 
loan guarantee program is constrained in that if the research 
is too advanced and if it is too much of a pilot because in our 
loan guarantee program, we have to make sure that the taxpayer 
is protected. And when it becomes too much of a research 
enterprise, then there are some constraints. And so I can get 
back to you on the details of those.
    Mr. Bass. That is fine. And I would like to have a further 
discussion about that. You mentioned run-of-the-river hydro 
dams. That is hydrokinetics. Is there any action there?
    Mr. Chu. No. There are two forms, hydrokinetics in the 
ocean of waves and things that extract wave energy or things 
that bob up and down or flex like this or currents. Run-of-the-
river is you take a little part of the river and you make a 
detour and put in a spinning turbine----
    Mr. Bass. OK. Let me change the subject, then. What about 
hydrokinetics? Is there anything going on----
    Mr. Chu. Well, we are supporting some of it. It is a very 
research-oriented thing. It is certainly not ready for 
primetime but there are a number of companies that are very 
excited about the process.
    Mr. Bass. I am taking the subject slightly once more to see 
does the Energy Department support any research in 
hydrofracking compounds or materials that would be perhaps more 
environmentally acceptable?
    Mr. Chu. Well, right now we aren't supporting research in 
hydrofracking because when very big oil and gas exploration 
companies like Schlumberger got into it in 1992----
    Mr. Bass. Yes.
    Mr. Chu [continuing]. Or '91 we got out. I do know that 
there is some exploratory work going on. Fracking has become 
mainstream, and so it is now supplying 30 percent of U.S. gas. 
There are companies looking at fracking with carbon dioxide as, 
perhaps, a better fluid.
    Mr. Bass. Lastly, I am trying not to express any opinions 
here. I love ARPA-E, though. You described there is significant 
difference between the ARPA-E program and the grants that are 
given out under EERE?
    Mr. Chu. Yes, there are. ARPA-E's projects have a very 
short time scale, a leash of 2 years, perhaps renewable for yet 
another year and that is it. And so it is a very short program 
that tries to identify what we call radical breakthrough 
technology. So in doing that it also knows full well that some 
of these grants may turn out not to yield anything. But on the 
other hand, it is looking for really dramatic advances that 
completely change the landscape of our choices. And so it is a 
more venture-capital approach if you will to----
    Mr. Bass. Are there any notable successes there, (a)? And 
(b), what is the EERE grant program? How does it differ?
    Mr. Chu. OK. First, there are some notable successes in the 
sense that in about half a dozen of our grants, we have given 
companies money to do some research. They have done that 
research, and in less than a year they were able to go out and 
raise five times, four times that amount in the private sector 
because the private sector says OK, this is great. We now have 
enough confidence to invest in you. That is precisely what we 
want to do to allow companies to do research and get further 
funds from the private sector.
    We are looking in EERE. There are now a whole new cast of 
program directors who are full of energy and we are looking 
towards rejuvenating those areas to do the best it possibly can 
in giving out whatever precious dollars we have.
    Mr. Bass. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Mr. Whitfield. Thank you, Mr. Bass. I am going to recognize 
Mr. Inslee for 30 seconds.
    Mr. Inslee. Thank you. If we can put this picture up. Mr. 
Secretary, I just wanted to congratulate you, sir, on the work 
you are doing on advanced biofuels. I want to show you a 
picture. This is a picture of the U.S. Green Hornet. It is a 
picture of an F-18. It is the first jet ever to fly on biofuels 
breaking the sound barrier. And you have been doing some great 
work in conjunction with the DOD. I just want to compliment you 
and hope you continue that and is there anything we could do in 
10 seconds that we could really do to help you in that regard?
    Mr. Chu. Well, I think you can do much more in 
appropriations.
    Mr. Inslee. We will work on that and I am sure our 
Republican friends are listening to you with great interest. 
Thanks very much.
    Mr. Whitfield. We are always interested in appropriating 
money so--but Secretary Chu, we thank you for joining us today. 
We enjoyed the dialogue. We look forward to working with you as 
we strive to meet the energy needs and safety of our country.
    And we are going to actually recess until 1:30 because Mr. 
Jaczko has been called down to the White House. So we will 
reconvene at 1:30.
    And once again, Mr. Secretary, we look forward to working 
with you and appreciate your time today.
    Mr. Chu. All right. Thank you.
    Mr. Whitfield. Thank you.
    [Recess.]
    Mr. Whitfield. OK. I will call the hearing back into order. 
We took a recess because, Commissioner, you were called away to 
the White House, I believe, for a meeting. And we completed 
with Secretary Chu. So everyone has already given their opening 
statements. So at this time we would recognize you for 5 
minutes for your opening statement.

   STATEMENT OF GREGORY JACZKO, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Jaczko. Well, thank you, Mr. Chairman, to you and the 
other chairman of the two subcommittees and the Ranking Members 
Rush and Green and other Members of the subcommittee. I am 
honored to appear before you today on behalf of the U.S. 
Nuclear Regulatory Commission.
    Given the events that are unfolding overseas, my opening 
remarks will focus on the crisis in Japan. And I have 
additional information on the fiscal year 2012 budget that I 
have submitted for the record. Of course, I would be happy to 
answer questions on those matters, but I will focus my 
testimony on the situation in Japan.
    I would first like to offer my condolences to all those 
affected by the earthquake and tsunami in Japan over the last 
few days. My heart goes out to those who have been dealing with 
the aftermath of these natural disasters. And I want to 
publicly acknowledge the tireless efforts, professionalism, and 
dedication of the NRC staff and other members of the federal 
family in reacting to the events in Japan. This is just another 
example from my 6-1/2 years on the commission of the dedication 
of the NRC staff to the mission of protecting public health and 
safety.
    The American people can be proud of the commitment and 
dedication within the federal workforce exemplified by our 
staff every day. While the NRC regulates the safe and secure 
commercial use of radioactive materials in the United States, 
we also interact with nuclear regulators from around the world. 
Since Friday, the NRC's headquarters operations center has been 
operating on a 24-hour basis to monitor events unfolding at 
nuclear power plants in Japan.
    Since the earthquake hit Northeastern Japan last Friday, 
some reactors at the Fukushima #1 plant have lost their cooling 
functions leading to hydrogen explosion and rises in radiation 
levels. Eleven NRC experts on boiling water reactors have 
already been deployed to Japan as part of a U.S. international 
Agency for International Development team. And they are 
currently in Tokyo.
    Within the U.S. the NRC has been coordinating its efforts 
with other federal agencies as part of the government response 
to the situation. This includes monitoring radioactive releases 
and predicting their path. Given the thousands of miles between 
Japan and the United States, Hawaii, Alaska, the U.S. 
territories, and the West Coast, we are not expected to 
experience any harmful levels of radioactivity.
    Examining all available information is part of the effort 
to analyze the event and understand its implications both for 
Japan and the United States. The NRC has been working with 
several agencies to assess recent seismic research for the 
central and eastern part of the country. That work continues to 
indicate that the U.S. nuclear facilities remain safe, and we 
will continue to work to maintain that level of protection.
    U.S. nuclear power plants are built to withstand 
environmental hazards, including earthquakes and tsunamis. Even 
those plants located outside of areas with extensive seismic 
activity are designed for safety in the event of such a natural 
disaster. And the NRC requires that safety significant 
structures, systems, and components be designed to take into 
account the most severe natural phenomenon historically 
reported for the site and surrounding area. The NRC then adds a 
margin for error to account for the historical data's accuracy. 
This basically means that U.S. nuclear power plants are 
designed to be safe based on historical data from the area's 
maximum credible earthquake.
    And the NRC remains attentive to any information that can 
be applied to U.S. reactors. Our focus is always on keeping 
plants in this country safe and secure. As this immediate 
crisis in Japan comes to an end, we will look at whatever 
information we can gain from the event and see if there are 
changes we need to make to our own system.
    Within the next few days, I intend to meet with my 
colleagues on the commission on the current status and to begin 
a discussion of how we will systematically and methodically 
review information from the events in Japan. In the meantime, 
we continue to oversee and monitor plants to ensure that the 
U.S. reactors remain safe.
    The NRC will continue to monitor the situation and provide 
updates by our press releases and our public blog. The NRC also 
stands ready to offer further technical assistance as needed. 
We hope that this situation will be resolved soon so that Japan 
can begin to recover from this terrible tragedy.
    And I would like, if possible, to give you a brief update 
of what we believe the current status of the reactors in Japan 
is. There are essentially four reactors that we are currently 
monitoring as best we can. They are all at the Fukushima #1 
site. Three of those reactors were operating at the time of the 
earthquake and were shut down following their normal 
procedures. We believe that in general for these three reactors 
they have suffered some degree of core damage from insufficient 
cooling caused ultimately by the loss of offsite power and the 
inability of the onsite diesel generators to operate 
successfully following the tsunami. We also believe that for 
these three reactors that seawater is being injected with 
reported stable cooling. The primary containment is described 
as functional.
    Now, I would note that for Unit #2 at this site we believe 
that core cooling is not stable. But also for that site believe 
at this time that primary containment is continuing to 
function. I would also note that for Unit #2 we believe that 
the spent fuel pool level is decreasing.
    For Unit #3 we believe that the spent fuel pool integrity 
has been compromised and that there has perhaps been a Zerck 
water interaction.
    Now, in addition to the three reactors that were operating 
at the time of the incident, a fourth reactor is also right now 
under concern. This reactor was shut down at the time of the 
earthquake. What we believe at this time is that there has been 
a hydrogen explosion in this unit due to an uncovering of the 
fuel in the fuel pool. We believe that secondary containment 
has been destroyed and there is no water in the spent fuel 
pool. And we believe that radiation levels are extremely high, 
which could possibly impact the ability to take corrective 
measures.
    For the two remaining units at this site we have an IAEA 
report that the water level was down a little bit in this spent 
fuel pool as well. And for the final reactor we don't have any 
significant information at this time.
    Recently, the NRC made a recommendation that based on the 
available information that we have, that for a comparable 
situation in the United States, we would recommend an 
evacuation to a much larger radius than has currently been 
provided in Japan. As a result of this recommendation, the 
ambassador in Japan has issued a statement to American citizens 
that we believe it is appropriate to evacuate to a larger 
distance, up to approximately 50 miles.
    The NRC is part of a larger effort, continues to provide 
assistance to Japan as requested, and we will continue our 
efforts to monitor the situation with the limited data that we 
have available.
    So that provides a general summary of where the incident 
stands. And with that and my testimony, I would be happy to 
answer questions you may have. Thank you.
    [The prepared statement of Mr. Jaczko follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Whitfield. Well, Commissioner, thank you. We appreciate 
your being with us this afternoon.
    In the earlier question-and-answer period with Secretary 
Chu, the gentleman from Massachusetts, Mr. Markey, had referred 
to a finding by Mr. John Ma for--I believe his last name M-a--
relating to the AP1000 design. And he had indicated that Mr. Ma 
had some serious reservations about the design. And I was just 
curious, have you all had the opportunity to review his 
concerns and have you come to any conclusions about that?
    Mr. Jaczko. We have done a very thorough review of the 
AP1000 design relative to a large number of safety issues. As 
part of that review process, we have had a vibrant discussion 
among the members of the NRC staff. We have thoroughly reviewed 
as part of that discussion the concerns by one of our staff 
members that you indicated. And we believe based on a thorough 
analysis that that design going forward can be acceptable. It 
is right now in the process of additional review. It is right 
now out for public comment essentially. We do our designs 
almost like a regulation, so we allow them to be commented on 
by the public. And so we are at that stage in the process of 
that review. But the concerns while we believe would certainly 
enhance the safety of the design, we don't believe at this time 
that they are necessary to meet our strict regulations.
    Mr. Whitfield. Right. Well, thank you for that comment. I 
just wanted to follow up on that.
    Of course, as a result of what has happened in Japan, the 
focus is on safety as it relates to nuclear, and I believe this 
is a safe industry. Historically, it has been a safe industry. 
And I know that in France and Japan and many other countries, a 
large percentage of their electricity comes from generation by 
nuclear. In the U.S. it takes--and you can correct me if I am 
wrong because I may be--but it takes roughly 10 years or so to 
obtain permitting for a nuclear plant. Am I in the ballpark 
when I say 10 years or not?
    Mr. Jaczko. Well, I think right now the process is taking, 
I would say, closer to about 5 years right now to go through 
the permitting. Now, of course, we are not finished, but we are 
getting nearer to the end of our reviews. And I like to think 
about this in a way like when I went to college. People go to 
college with the intent to graduate in 4 years, but as you go 
through that process, you take your classes, if you do well you 
have a chance to get done in four, sometimes a little bit 
sooner. Some people take a little bit longer time depending on 
how things go. So as we continue to work with the licensees or 
the applicants, we have, I think, improved our understanding of 
how to make the process work effectively and efficiently. So 
right now this has been the first-of-a-kind effort and 
something we haven't done in a long time and it involves a new 
process. So I would say at this time I think we are moving at a 
relatively effective pace, but again, keeping our focus first 
and foremost on safety.
    Mr. Whitfield. And in your testimony you did say that you 
evaluated these permit applications for seismic as well as 
tsunami-type activities, correct?
    Mr. Jaczko. That is correct. We review all designs against 
a wide range of natural disasters: tsunamis, earthquakes, 
tornadoes, hurricanes. It just depends on the geographic 
location.
    Mr. Whitfield. Right. But with all the publicity 
surrounding Japan right now, everyone, as I said, is certainly 
focused on safety and we are certainly thinking about the 
Japanese people, but with more focus on safety, I am not a 
nuclear engineer but I know that there is some technology based 
around sodium-cooled reactors. And I have been told that 
sodium-cooled reactors, that there is not a possibility of a 
meltdown and that these are smaller-type plants, maybe 50- to 
100-megawatt plants. And I was wondering if you would mind 
commenting on that technology of sodium-cooled technology?
    Mr. Jaczko. Well, we don't currently have any specific 
applications in front of us for a sodium-cooled design. I would 
say it is a different type of technology than what we currently 
have operating in this country, and as a result, it presents 
its own challenges when it comes to operation. But I wouldn't 
want to speculate too much on what those kinds of challenges 
are because we really haven't gone through the specific review 
of one of these. But in general, with a smaller reactor, a 
smaller energy output, usually the risks are lower because you 
just have a smaller amount of radioactive material----
    Mr. Whitfield. Right.
    Mr. Jaczko [continuing]. But as I said, sodium reactors do 
present slightly different technical challenges because of the 
way that they operate. The sodium has to be maintained in a 
liquid form and there are different types of risks and hazards 
that you would have on that type of design.
    Mr. Whitfield. But that type of technology, I guess, was 
developed in the United States at one point and there are some 
countries that evidently have at least some of these plants in 
operation. Is that your understanding?
    Mr. Jaczko. Yes, it is my understanding, but we don't 
currently have any license in operating in the U.S.
    Mr. Whitfield. OK. Well, thank you very much. My time has 
expired. I would like to recognize the gentleman from Illinois, 
Mr. Rush, the ranking member.
    Mr. Rush. I want to thank you, Mr. Chairman. And to 
Chairman Jaczko, it is good to see you and welcome to the 
committee. I am going to get my Japan question in first.
    The question in Japan that is first and foremost on the 
mind of many of my constituents in Illinois for the specific 
reason we have more reactors in Illinois than any other State. 
And my constituents are asking a simple question. And that 
question was summed up in a Fox Chicago News headline published 
on Sunday, ``Should Illinois be Worried About its Nuclear 
Plants?'' And before you answer the question, I want to also 
note that Illinois lies within the new Madrid earthquake zone, 
although we do not have to worry about tsunamis. But what 
assurances can we give to the people in my State with as high a 
concentration of nuclear reactors that also sits on an 
earthquake zone? And in your answer, would you please speak to 
the possibilities and to the effect--we are in a tornado zone--
that tornados could have on nuclear reactors?
    Mr. Jaczko. Well, Congressman, at the NRC we focus every 
day. And the dedicated women and men at the NRC work every day 
to make sure that nuclear power plants in this country continue 
to operate safely. All the nuclear power plants that are in the 
United States are reviewed against a very significant standard 
for seismic activity. We take what we can find out from the 
historical record from looking at the rocks and the geology and 
the seismology, we try and determine what we think is the 
largest earthquake that can happen in an area. And from that we 
do an analysis of what kind of effect we think that will have 
on the power reactor. Namely, how much will the building shake 
or what kind of forces will it feel? And we require that the 
nuclear power plants can withstand that kind of event. And we 
actually go a little bit larger than that just to make sure if 
there are any uncertainties in our analysis. So that is a part 
of what we do for every reactor in the country, whether it is 
in the Midwest--of course, the seismic activity may be 
different in that part of the country versus another part of 
the country.
    Mr. Rush. It seems to me, though, in Japan it wasn't just 
the earthquake that caused the problem; it was the tsunami that 
really caused the problem. And my question is in terms of a 
tornado?
    Mr. Jaczko. We look at tornadoes as well.
    Mr. Rush. All right.
    Mr. Jaczko. We actually look at all natural phenomena: 
hurricanes, tornadoes, earthquakes, tsunamis, although as you 
indicated, some sites in the country don't experience all of 
those phenomena. But we look historically to make sure we have 
captured all the natural phenomena that occur. So in Illinois 
we certainly would examine the impacts of tornadoes and other 
extreme weather events in Illinois.
    Mr. Rush. OK. And it seems to me--I asked this question of 
the secretary this morning--that the number-one threat to 
nuclear facilities in this Nation is terrorists' actions and 
activities and acts. So can you speak to how the NRC is 
handling the threat of terrorists?
    Mr. Jaczko. Well, we have a very robust program that 
requires nuclear utilities to ensure that they can protect 
their plants against terrorist-type attacks. That includes a 
very strong program to do exercises once every 3 years to 
actually participate in a mock terrorist attack on the 
facility. And we observe that and oversee that and ultimately 
use that as a way to ensure----
    Mr. Rush. Once every 3 years?
    Mr. Jaczko. Once every 3 years. In addition to that, we do 
conduct our normal inspections at the facilities to make sure 
that all the security systems are in place and operating 
effectively. And I would add that in addition, following 
September 11, we required all of the nuclear power plants in 
this country to look at some of the more severe kinds of 
impacts and effects you could get at a nuclear power plant from 
a terrorist attack or other types of severe natural phenomena, 
and as a result, we require----
    Mr. Rush. My time is almost over and on Friday I am headed 
to Dresden to sort of generate a station there in rural county 
Grundy, Illinois in northern Illinois and I am going to be 
there with some of your resident inspectors on location there. 
So I will give them your regards.
    Mr. Jaczko. Well, good. Well, I appreciate that and we are 
very fortunate to have some very fine people at our power 
reactors overseeing them.
    Mr. Whitfield. At this time I recognize the gentleman from 
Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and welcome, Mr. 
Jaczko.
    When did the Licensing Board return its decision denying 
the Department of Energy motion to withdraw its Yucca Mountain 
application?
    Mr. Jaczko. I believe that was earlier in the----
    Mr. Shimkus. End of June.
    Mr. Jaczko. End of June. Thank you.
    Mr. Shimkus. Isn't it true that all commissioners 
participating in the decision-making relating to the License 
Board decision have already filed votes on that matter, 
including you?
    Mr. Jaczko. We have filed what I would consider to be 
preliminary views that we exchange among our colleagues on the 
commission. Those are views that we use, then, to inform our 
final decision-making.
    Mr. Shimkus. So you are saying you have not filed votes?
    Mr. Jaczko. We have not come to a final decision at this 
point.
    Mr. Shimkus. So it is your position you have not filed 
final votes?
    Mr. Jaczko. That is correct. We have not reached a final 
decision on our act, unlike perhaps here, your familiarity with 
voting. I would consider votes to be more akin almost to 
prepared statements and remarks of members of the commission. 
The practice of the commission is to circulate those prepared 
remarks on any of the things that we do, and then, based on 
those circulated views, we work to see if there is a majority 
position.
    Mr. Shimkus. So you are saying, then, on October 29, 2010, 
there wasn't filed votes cast by all commissioners?
    Mr. Jaczko. On October 29 I believe we had all prepared our 
written statements that we circulated among----
    Mr. Shimkus. So those written statements are considered 
votes?
    Mr. Jaczko. They are considered votes but they are not the 
final decision of the commission.
    Mr. Shimkus. OK. So since you have written statements that 
are considered votes, when do you plan to schedule a commission 
meeting?
    Mr. Jaczko. We will have a meeting and issue an order when 
we have, per statute, a majority position.
    Mr. Shimkus. And so you have these statements. They are 
considered votes but you don't have a majority position?
    Mr. Jaczko. Correct. As I indicated, the terminology here I 
think is unfortunate. These votes are not, as I said, the final 
statement of the commission. In an adjudicatory matter, which 
is what this is, a formal hearing that we issue, the final 
statement----
    Mr. Shimkus. Is there a minority decision already 
rendered----
    Mr. Jaczko. There is no----
    Mr. Shimkus [continuing]. By commissioners?
    Mr. Jaczko [continuing]. Decision by the commission at this 
point.
    Mr. Shimkus. By the chairman?
    Mr. Jaczko. There is no decision by the commission.
    Mr. Shimkus. Was the NRC decision to close out Yucca review 
and hearing activities yours alone or one made by the full 
commission?
    Mr. Jaczko. That was a decision that I made as chairman of 
the Agency consistent with the budget that was prepared by the 
commission----
    Mr. Shimkus. OK. But let me ask you this question. What was 
your legal authority to do so?
    Mr. Jaczko. My legal authority was as chairman of the 
commission and the decision was fully consistent with 
appropriate law.
    Mr. Shimkus. No, I think your position is the budget zeroed 
it out, but I would beg to differ that you had the legal 
authority to do that.
    Mr. Jaczko. Well, I would respectfully disagree with that.
    Mr. Shimkus. Well, I think we will review that and follow 
up.
    Mr. Jaczko. And I would add if I could that following that 
decision----
    Mr. Shimkus. I mean, you wouldn't do anything that would be 
illegal, would you?
    Mr. Jaczko. Of course I wouldn't. Following the decision to 
begin the closedown activities of the Yucca Mountain project--
--
    Mr. Shimkus. Begging to differ, I think it is a stated 
federal position by law that Yucca Mountain should be opened. 
That is the legal authority. There is no legal authority to 
close Yucca Mountain. The only authority that has been rendered 
is the administration in compliance with Majority Leader Reid 
to pull funding. But there is no legal authority to close Yucca 
Mountain by law.
    Mr. Jaczko. As I indicated, our action is consistent with 
all appropriate appropriations law and any other statutes that 
we have.
    Mr. Shimkus. You better be double-checking your facts 
because we are not through with this debate on legal authority. 
And I hope you are well prepared. We have been told that the 
courts may not rule on whether or not the commission's position 
is legally defensible until the full commission takes a 
position. But you seem to be preventing that vote from 
occurring. If the court runs out of patience and does rule, 
will you abide by the court's decision and act promptly to 
carry it out?
    Mr. Jaczko. The Agency will act according to any legal 
decision by the courts or any act of Congress.
    Mr. Shimkus. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
California, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Welcome, Mr. Jaczko. 
And I know you are busy and I appreciate you coming back to our 
committee. And I know last week you and I talked about the 
President's budget and the proposals to go back to fiscal year 
2008 for your funding and we both expressed concerns about the 
layoff of hundreds of workers and particularly what happened in 
Japan. Obviously, this is not the time to go after our Nuclear 
Regulatory Commission. So share that and hopefully that message 
will get to other folks.
    Let me talk about a local issue because I think all 
politics is local, as is what has happened in Japan. Texas has 
1 proposed nuclear plant that is pending at the OMB. And they 
are receiving their funding from CPS Energy, NRG, and Tokyo 
Electric Power Company, which presents part of the problem. One 
of the sites experienced problems. They own one of the sites 
that is experiencing the problems in Japan. And so knowing what 
may happen with their potential investment, CPS Energy and NRG 
have announced they have trouble finding new investors. Again, 
part of it is the market. We have low natural gas prices and 
for someone to buy into a long-term investment of nuclear 
power, which our country needs but we may not be able to get 
the investors. Can you talk about the review process for new 
plants like Texas and how long NRC and OMB processes are 
taking? It seems like I have worked on the congressional side 
now for a number of years to get the expansion at the South 
Texas plant that is just southwest of Houston and just to see 
just some information on how long it took, for example, for 
that expansion that goes through both your process and the OMB?
    Mr. Jaczko. Well, right now the South Texas project was one 
of the first applications that we received for new licensing. 
The review that we do for that project will be focused, for 
sure, on safety and security. That is always our primary focus.
    We are continuing to do that review. We are nearing some 
significant milestones as we work to complete the actual design 
reviews for that type of reactor. That design review right now 
is out for public comment as part of our process and we 
anticipate having that back in and working to resolve the 
comments over the summer. If we resolve those comments and it 
is successful, then we would move forward with completing the 
final reviews that are necessary, possibly perhaps within 12 
months or so.
    But as I said, I want to reiterate our focus fundamentally, 
first and foremost, is on the safety and security of these 
designs.
    Mr. Green. When you said it was one of the first 
applications, can you tell me the time frame when that was 
filed?
    Mr. Jaczko. It was approximately, I believe, 2007. However, 
we immediately within several months had to suspend our review 
because the applicant in that case made a change in the vendor 
that they were using to support the design. So that took about 
a year, year and a half to work through that particular issue 
on the part of the applicant.
    Mr. Green. OK. I know the concern, literally, for the whole 
world and particularly for our own country, if what we are 
doing, making sure we are learning from what has happened to 
Japan--and I understand the Texas plant southwest of Houston 
has actually three safety backup systems instead of two. and it 
is my understanding that Texas emergency power sources are 
separate and watertight. We don't have a problem on the Gulf 
Coast with, you know, tsunamis or earthquakes. We do have a 
hurricane every once in a while and tornadoes. But I understand 
that they have watertight concrete buildings that could 
withstand a hurricane or storm surges and even earthquakes. But 
like I said, I don't think in geological time we have had an 
earthquake along the Gulf Coast. Our soil is too soft. But the 
Agency actually looked at that plant and all the applications, 
like you said, for safety.
    Mr. Jaczko. That is correct. We look at all the plants for 
a variety of natural phenomena. And on the Gulf Coast than can 
include seismic activity, hurricanes, and other types of 
events. And we do have some analyses to look at tsunamis along 
the Gulf Coast and portions of the Atlantic coast. Those 
wouldn't be expected to be tsunamis that are the same magnitude 
as ones we could----
    Mr. Green. That particular plant is about 11 miles inland. 
It is not right on the coast. I know there have been 
technological advances. I am almost out of time. But sometime I 
would like if your staff could provide to the committee 
separately some of the technological advances in the current 
and proposed plants in the United States as compared to, for 
example, what has happened in Japan with the tsunami and also 
the earthquake.
    Mr. Jaczko. We can certainly provide that.
    Mr. Green. Thank you. Thank you, Mr. Chair.
    Mr. Whitfield. The gentleman from Michigan, Mr. Upton, is 
recognized for 5 minutes.
    Mr. Upton. Thank you, Mr. Chairman. And again, Chairman, we 
welcome you here today. And I just want to say a couple things 
at the beginning.
    First of all, I certainly did appreciate our meeting that 
we had several weeks ago. I know we both discussed Yucca. We 
may have a different view but we are going to have ample time 
in Mr. Shimkus' subcommittee with all the commissioners 
sometime this spring to fully talk about that and ask a good 
number of questions.
    As you know, I--as you do--we both support safe nuclear 
power. We both support appropriate and rigorous oversight of 
all of our 104 sites around the country. And I, too, 
appreciated the visit that I paid to the NRC several years ago 
and viewed firsthand the NRC operations center and looked in in 
terms of your day-to-day activities to make sure that things 
are safe.
    Could you tell us what specifically the functions are of 
the 11 folks that you have sent to Japan and what they are 
doing and they are reporting back to you and some of the 
information you might have received?
    Mr. Jaczko. The 11 individuals that we have in Japan are 
providing a variety of services. They are helping to organize 
the look at the reactors, the nuclear look at the reactors and 
helping to provide a good coordinated team to provide 
assistance to the embassy in Japan.
    Mr. Upton. So does Japan have a similar operation like we 
have in terms of the operations center that I visited in 
Maryland out there?
    Mr. Jaczko. It is my understanding they do but I am not 
terribly familiar with----
    Mr. Upton. But they are in Tokyo, right? They are not at 
the Fukushima site?
    Mr. Jaczko. Our staff is in Tokyo working to interface with 
their counterparts in the Japanese nuclear regulatory 
authority.
    Mr. Upton. And you announced that our ambassador now has 
urged all Americans to move at least 50 miles away. What 
reaction did you receive from your counterparts in Japan and 
the government there?
    Mr. Jaczko. I am not familiar of any reaction.
    Mr. Upton. But that announcement was made very shortly, 
right?
    Mr. Jaczko. It was made about 45 minutes ago.
    Mr. Upton. You talked about the four different reactor 
vessels and the status of the four. Do you know where the 
hydrogen explosion was in the fourth reactor?
    Mr. Jaczko. At this point we don't know that kind of 
specific information. But we believe that there was a hydrogen 
explosion at some point, likely because the spent fuel in that 
reactor has lost its cooling and at some point, then, was 
producing some degree of hydrogen. And that ultimately 
accumulated and led to an explosion.
    Mr. Upton. And was that explosion today, U.S. time today?
    Mr. Jaczko. No, it occurred several days earlier. We can 
get you the exact date and time as we know it.
    Mr. Upton. OK. As it relates to your budget--remember that 
was the original ask for you to be here today--what is your 
budget for safety oversight as part of the NRC?
    Mr. Jaczko. The bulk of our budget, probably about \3/4\ of 
our budget goes to the reactor safety work, about 77 percent. 
It is slightly over approximately $800 million.
    Mr. Upton. So does that include the personnel? Because I 
visited my two sites in my district and I would welcome you and 
I know you that you indicated a willingness to come out. But on 
all of my visits I have always stopped to say and welcome the 
oversight of your staff that has been there.
    Mr. Jaczko. Yes, most of our budget goes to our staff. We 
have mostly salaries and benefits. We have a small portion of 
our budget that is contracting dollars, but the bulk of it, 
about 60 percent, is the salaries and benefits of the staff.
    Mr. Upton. And do you have any reason to believe that your 
proposed budget is not adequate to assess and monitor the 
nuclear power plant safety systems? I mean, do you feel that it 
fits the bill?
    Mr. Jaczko. At this time we believe it is a sufficient 
request that will allow us to do the work we need to make sure 
that plants stay safe. The only caveat I would add is that as 
we continue to review the situation in Japan, if it becomes 
apparent that we would need additional resources to address 
issues related to the situation in Japan, then we would perhaps 
have to come back and ask for additional resources for that.
    Mr. Upton. Well, I was going to ask you if you thought you 
were going to need--will you be able to determine that within 
the next couple of weeks?
    Mr. Jaczko. I intend to meet with the commission within the 
next several days and begin looking at the kinds of questions 
we have to answer. And I think that will be one of the first. 
But first we want to kind of systematically figure out what it 
is that we need to look at and what are the important sources 
of information.
    Mr. Upton. But you don't really have a reserve cushion 
today to do that, is that correct?
    Mr. Jaczko. At this time----
    Mr. Upton. For fiscal year 2011?
    Mr. Jaczko. At this time I would say we don't necessarily 
have that. But again, I would like to take a look at that first 
before I make any conclusions.
    Mr. Upton. OK. Well, again, I appreciate your willingness 
to be up here on a day as tough as it is today. And we 
appreciate your answers and look forward to working with you on 
a host of issues. Thank you. I yield back.
    Mr. Whitfield. I recognize the gentleman from California 
for 5 minutes, Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. Mr. Jaczko, you 
describe a pretty dire situation in Japan. I want to ask you 
about this. An official from the European Union today used the 
word apocalypse to describe the potential damage that could 
occur in Japan. What is your reaction to this comment? Could 
Japan be facing widespread devastation from a nuclear meltdown 
or radiation release?
    Mr. Jaczko. Well, I don't really want to speculate too much 
at this point on what could happen. I think people are working 
really very diligently to try and address the situation. It is 
a very serious situation without a doubt. And that is part of 
the reason why I thought it was important for the Agency to 
make the statement it did that we thought in a comparable 
situation in the United States we would have issued evacuation 
instructions to a larger distance away from the plant.
    Mr. Waxman. Yes.
    Mr. Jaczko. So it is a very serious situation. And efforts 
are ongoing to try and resolve it. but it will be some time, I 
think, before it is finally resolved.
    Mr. Waxman. Well, you said that you are recommending an 
evacuation of U.S. citizens within 50 miles. What are the risks 
that are causing you to make this recommendation?
    Mr. Jaczko. Well, it is based on an assessment of the 
current conditions of the site. Because of the damage to the 
spent fuel pool, we believe that there is very significant 
radiation levels likely around the site. And given that the 
reactors, the 3 reactors that were operating, given that they 
are operating with more of a backup to a backup, if you will, 
to a safety cooling system, if anything goes wrong with that, 
it would be very difficult for emergency workers to get into 
the site and perform emergency actions to help maintain that 
cooling. So there is the likelihood that the cooling functions 
could be lost, and if they are lost, it may be difficult to 
replace them, and that could lead to a more significant damage 
to the fuel and potentially some type of release. So as a 
prudent measure with a comparable situation here in the United 
States, we would likely be looking at an evacuation to a larger 
distance.
    Mr. Waxman. So is it the spent fuel problem in this Unit 4 
where there is no water covering the fuel rods? Is that the 
greatest concern you have at the moment?
    Mr. Jaczko. Well, I think it is all of the factors together 
really. It is the combination. And so, yes, there is the 
possibility of this progressing further. And so, as I said, in 
this country we would probably take the prudent step of issuing 
an evacuation to a larger distance.
    Mr. Waxman. High levels of radiation are being released 
from the pool, is that right?
    Mr. Jaczko. We believe that around the reactor site that 
there are high levels of radiation. Again, we have very limited 
data so I don't want to speculate too much.
    Mr. Waxman. And what would be the significance of that?
    Mr. Jaczko. Well, first and foremost, it would mean that it 
would be very difficult for emergency workers to get near to 
the reactors. The doses that they could experience would 
potentially be lethal doses in a very short period of time. So 
that is a very significant development and largely is what 
prompted the Agency to make the statement that it did.
    Mr. Waxman. And if the emergency workers cannot get in 
there because of the danger to themselves, what would be the 
possibility then to deal with this problem of the spent fuels?
    Mr. Jaczko. Well, again, I don't want to speculate too much 
because, again, we don't have direct information about the 
conditions on the ground. But it is certainly a difficult 
situation and one that needs to be addressed.
    Mr. Waxman. Well, you describe serious risk at these 
facilities. Can you describe what you think are the highest 
risks and why?
    Mr. Jaczko. At the sites in Japan?
    Mr. Waxman. Yes.
    Mr. Jaczko. I think right now, as I think it has been the 
situation from the beginning, the efforts are to continue to 
keep the reactors cool, the three reactors that were operating 
at the time of the earthquake. And that is right now being done 
with a variety of different systems, and again, in more of a 
nontraditional way because they have lost a lot of their 
electrical power in their offsite power capabilities.
    In addition, the other risk is really to the spent fuel 
that may be in the spent fuel pools for possibly up to six of 
the reactors at the site. So keeping those pools filled with 
water and keeping that fuel cooled is also then the primary 
concerns.
    Mr. Waxman. And what is the significance of the report of a 
crack in the unit itself, in the containment unit?
    Mr. Jaczko. I want to be clear. Certainly, the indication 
that I was referring to was a crack possibly in the spent fuel 
pool on one of the other units. And the significance of that 
would be if there is a crack then there is the possibility of 
water draining from that pool and perhaps an inability to 
maintain the appropriate level of water in the pool, which 
could lead to damage of the fuel in that pool.
    Mr. Waxman. What would you say is the best case now for 
Japan and what do you think might be the worst case?
    Mr. Jaczko. Well, I think certainly the efforts are to 
continue to provide cooling of the reactors and to do 
everything possible to provide cooling to the spent fuel pools. 
Again, I don't want to speculate on what could happen because, 
you know, it is a very dynamic situation and there are, you 
know, certainly a lot of efforts that are being undertaken with 
efforts of the U.S. Government in particular. I want to 
emphasize that this is really a U.S. Government response. The 
NRC is playing one small part but other assets have been 
located from other parts of the U.S. Government and are being 
provided to help provide this cooling and do what we can.
    Mr. Waxman. Thank you very much.
    Mr. Whitfield. The gentleman from Texas, Mr. Barton, is 
recognized 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman, and thank you, 
Chairman, for being here on what is obviously a very difficult 
day for you.
    You may have answered some of these questions before or you 
may have even commented on them in your opening statement so I 
apologize if I ask something that has already been addressed.
    My understanding is that the safety systems at the power 
plants or the reactors in Japan are an older technology that 
requires an active backup and that the licenses that you are 
reviewing now have a different system that is a passive backup, 
i.e. if something happens catastrophic, the system 
automatically shuts itself down and the cooling system can 
perpetuate itself without outside power. Is that correct?
    Mr. Jaczko. Well, I wouldn't necessarily want to comment 
too much on the Japanese sites because they are designed a 
little bit different from the designs we have that are similar 
in this country. But we are reviewing new reactors that do 
operate on what they call a ``passive cooling system.'' It is 
not all of the designs that we are reviewing, however. It is 
only two of the designs that we are looking at but----
    Mr. Barton. Well, my understanding is that there is--and 
correct me if I am wrong--that there is one new nuclear power 
plant under construction and that is the Southern Company 
facility in Georgia and that their safety system is a passive 
safety system. Of course you won't have a tsunami in central 
Georgia but you could have an earthquake. And if there were to 
be an earthquake that it would automatically shut itself down 
without outside intervention and the coolant is a gravity-flow 
cooling system that self-perpetuates itself, again, without any 
outside power. Is that correct?
    Mr. Jaczko. That is correct. The system that is used for 
that particular design, which is the AP1000, does essentially 
rely on gravity to initiate circulation of water through the 
reactor and then naturally circulate based on the heat flow. It 
will circulate without the use of offsite power. However, there 
are other safety systems that do rely on the offsite power 
and----
    Mr. Barton. But we could say in the instance of the 1 new 
plant that is currently under construction, what happened in 
Japan, assuming the construction of the plant is robust enough 
that the containment is not destroyed by the earthquake in 
terms of cooling the reactors and shutting down the reactors, 
they would be shut down and they would stay cool.
    Mr. Jaczko. Well, again, I wouldn't necessarily want to 
speculate on everything. We don't really know what happened in 
Japan. We obviously know there was an earthquake. We know that 
there was a tsunami. We know a lot of safety systems haven't 
functioned as would be needed. So, you know, at this point I 
don't really want to speculate on how that applies to any U.S. 
facilities until we have a chance to really do a methodical and 
systematic----
    Mr. Barton. I am not asking you to speculate on what 
happened in Japan. I am asking specifically if an earthquake 
hit the power plant in Georgia, based on your Agency's review 
of their safety design, would it withstand that earthquake?
    Mr. Jaczko. All of the plants that we have licensed and all 
of the plants that we are currently reviewing will meet strict 
safety standards for earthquakes and other natural phenomena. 
So certainly, for the existing plants we believe absolutely 
that they can withstand an earthquake and they can meet the 
high standards that we have put in place. In the new plants we 
are still continuing our review. We haven't completed our 
review so I don't want to prejudge the outcome of that by 
making any final determinations.
    Mr. Barton. OK. But you are allowing this plant in Georgia 
to be constructed, so you have approved something.
    Mr. Jaczko. It is a preliminary approval for a limited 
amount of construction activity that is not related to the most 
safety significant systems at this time.
    Mr. Barton. Now, in general, for each plant in the United 
States, regardless of where it is located, does it have a 
minimum safety requirement to withstand an earthquake?
    Mr. Jaczko. That is true. All the plants have a requirement 
to be designed to deal with the kinds of earthquakes we would 
expect in about a 200-mile radius from that nuclear power 
plant.
    Mr. Barton. Now, obviously, if a plant is in an area that 
is more prone to earthquakes, it might have a higher 
requirement than a plant that is in a location that has never 
had an earthquake in 500 years, but they all have to withstand 
some base-case earthquake design criteria?
    Mr. Jaczko. That is correct. They all have to withstand 
what we think is the maximum expected earthquake from the 
historical record within about 200 miles of that site.
    Mr. Barton. Now, I am told that the earthquake that hit 
Japan is order of magnitude the fifth most powerful ever 
recorded anywhere in the world. So that is obviously a very 
powerful earthquake. In the United States is the design 
criteria currently for that level of an earthquake or is it for 
an earthquake that would be, say, the standard of the 
earthquake that hit San Francisco in 1906?
    Mr. Jaczko. Would you like me to answer?
    Mr. Barton. I would like you to answer.
    Mr. Jaczko. I think it is important--I want to try and give 
a demonstration. I think we talk a lot about the magnitude of 
the earthquake, and that is not really what the NRC looks at. 
If you look at the cup of water that I have over here and you 
think of that as the nuclear reactor, the earthquake would be--
I probably should fill up the water glass.
    Mr. Barton. This is going to make TV so do it right.
    Mr. Jaczko. I practiced it before I started. So if you 
think of this as the nuclear power plant, when you talk about 
the magnitude of the earthquake, it would be like me hitting 
the table with my fist. So something like that. And you will 
see that it makes the glass over here vibrate. That is what we 
actually measure and we design our nuclear power plants around 
is that shaking of the power plant. So the actual impact 
depends upon where I hit in relation to the glass. So if you 
have a large earthquake like this that is very far away may not 
have the same impact on a site as an earthquake that is maybe a 
little bit less but much closer. So something like that. So we 
actually worry more about--we look at all of the different 
earthquakes that could happen in this region and we look at 
what that shaking is and we make sure that that shaking can 
handle what we think are the maximum historical earthquakes in 
that region. Now----
    Mr. Barton. No, go ahead.
    Mr. Jaczko. Sorry.
    Mr. Barton. Summarize.
    Mr. Jaczko. In addition to that, we know that we don't 
always know everything. So we have done a lot of studies over 
the years to look at earthquakes and phenomena beyond that kind 
of design earthquake, and we have had the plants go back and 
look and see if there are things that they could do to ensure 
that they would be able to better withstand some possible 
earthquake that nobody has thought of or seen at this point. 
And so we have what we call severe accident programs that all 
of the utilities have where they have procedures and they have 
ability to mitigate that kind of more severe event that may not 
ever have occurred in a particular region. So it is a multi-
layered system of defense.
    And if I could just briefly summarize one other point, in 
addition to that, following September 11, we required all of 
the nuclear reactors in this country to pre-stage equipment 
that can perform this emergency last--kind of--ditch effort 
cooling to the reactor and the spent fuel. And that is a 
variety of procedures and different types of equipment that are 
required to be at the reactor sites. And we have inspected the 
reactors to make sure that they have that. So, you know, that 
gives you another level of defense beyond, really, just what 
the design of the reactor is.
    Mr. Barton. Thank you. And thank you for the chair's 
courtesy in letting him answer that question.
    Mr. Whitfield. The gentlelady from California is recognized 
for 5 minutes.
    Mrs. Capps. And Mr. Chairman, if you wouldn't mind granting 
me a little consideration. I represent Diablo Canyon Nuclear 
Facility and I have three questions. But something was stated 
earlier that I believe needs to be clarified just for the 
record if I could ask the chairman in addition to thanking him 
for his testimony, did you say that Unit 4 in Japan in the 
incident there that there was no water in Unit 4 surrounding 
the spent fuel and that Unit 3 was in danger of losing the 
water source?
    Mr. Jaczko. We believe at this point that Unit 4 may have 
lost a significant inventory if not lost all of its water.
    Mrs. Capps. And that Unit 3 is in danger?
    Mr. Jaczko. Well, what we know at Unit 3 is that there is 
possibly--again, and our information is limited so we do--well, 
we believe that there is a crack in the spent fuel pool for 
Unit 3 as well, which could lead to a loss of water in that 
pool.
    Mrs. Capps. Thank you. Diablo Canyon Nuclear Facility in my 
congressional district sits on the Hosgri Fault Zone, then in 
2008 the U.S. Geological Survey informed the utility that a new 
fault had been found near Diablo Canyon. It is called the 
Shoreline Fault. You are well aware about the California law 
requiring the Energy Commission to perform reviews of the 
seismic issues associated with our State's nuclear plants, sir. 
The Energy Commission recommended and our State PUC directed 
that independent peer-reviewed advanced seismic studies be 
performed prior to applying for re-licensure. Do you think the 
NRC should take advantage of the talent, expertise, and 
resources available in California so that all information on 
seismic issues could be analyzed with the goal of avoiding a 
costly duplication?
    Mr. Jaczko. Well, ultimately, we have to make decision as 
an Agency based on the technical review that we as an Agency 
do. And again, I can't get too far into some of these issues 
because we do have an ongoing hearing related to some of the 
very points that you have raised. So in our hearing process we 
are prohibited from discussing those things outside the context 
of the commission.
    Mrs. Capps. Right. I will tell you what it seems to me----
    Mr. Jaczko. Yes.
    Mrs. Capps [continuing]. And to my constituents that having 
the best eyes and minds in our country working together looking 
at the seismic issues makes the most sense. First and foremost, 
for my constituents this is about safety. But seismic concerns 
also impact affordable and reliable generation as well. So I 
hope that this issue can be revisited not to take away from the 
responsibility and authority of the federal agency but to work 
with other agencies. And I look forward to working with you as 
we go along in this area.
    Mr. Jaczko. Well, Congresswoman, if I could just briefly 
say----
    Mrs. Capps. Sure.
    Mr. Jaczko [continuing]. We actually did host a workshop 
within the last year, actually, that brought together a lot of 
these technical experts to have a discussion for the point that 
you said. We certainly are always open to hearing information 
from any technical expert that can provide information to us. 
So I just want to make the point that in the end the decision-
making has to come from our----
    Mrs. Capps. Right.
    Mr. Jaczko [continuing]. Expert staff.
    Mrs. Capps. Right. Here is another question. My 
constituents have become increasingly concerned about the 
preparation for a station blackout event. If power is lost, 
they want to be assured that backup power will be available 
throughout the duration of an accident in order to prevent fuel 
melting. In the last half-decade both California reactors have 
been cited by you, by the NRC, for instances in which both 
backup diesel generators were down or there were problems 
involving battery power availability. In such instances, merely 
citations were given to the utilities. Should the NRC 
reevaluate its regulations and perhaps increase the penalties 
for such infractions in light of the accident in Japan as an 
incentive to force better compliance from the nuclear 
operators?
    Mr. Jaczko. Well, as I said, we intend to do a very 
systematic and methodical look at any lessons we can learn from 
this Japanese incident. And I certainly will keep your 
suggestion in mind as something for us to take a look at.
    Mrs. Capps. Finally, I would like you to address some 
safety issues in the event of an earthquake and a simultaneous 
accident in a nuclear plant. Diablo Canyon has a workable 
evacuation plan. They would not be able to operate without one. 
But as you may know, there is basically only one way in and out 
of San Luis Obispo, narrow Highway 1 along the coast. The NRC 
has ruled that it was non-credible that there could ever be 
multiple catastrophes such as an earthquake and a meltdown at 
the plant. This is the quote from the NRC. ``The commission has 
determined that the chance of such a bizarre concentration of 
events occurring is extremely small. Not only is this 
conclusion well supported by the record evidence, it accords 
most imminently with common-sense notions of statistic 
probability.'' That is the end of their quote.
    Now, we have just witnessed an earthquake, a tsunami, and a 
nuclear meltdown all occurring sequence. I want to ask the 
commission, if you would on my behalf, do they still believe 
the chance of this bizarre concentration of events is merely 
hypothetical? Do you think this decision should be revisited in 
light of the events in Japan?
    Mr. Jaczko. Well, I certainly will take your suggestion 
back to the commission. I would want to review that entire 
document in its entirety because certainly we do examine the 
possibility of earthquakes as an initiating event for a 
possible reactor problem. Of course, we believe we have systems 
in place that would, (1), really prevent any kind of core 
damage from that but (2), if there is subsequent problems, we 
have mitigating strategies in other ways to cope with those. So 
I would be happy to take a look at that document in its 
entirety.
    Mrs. Capps. Thank you. And just in conclusion, Mr. 
Chairman, that is what they said 2 weeks ago, no doubt, in 
Japan as well. I have enormous anxiety and sadness over the 
events that happened there. And here we have seen in the past 
year our three major sources of energy that this country uses, 
coal, oil, and nuclear, all experiencing tragic accidents. And 
I do look forward to working with your commission on the 
number-one goal of keeping our energy sources safe. Thank you.
    Mr. Jaczko. Thank you. And Congresswoman, if I could just 
add, of course, you understand we have not had any nuclear 
incidents in the last year in this country. The incidents were 
another country.
    Mr. Whitfield. The gentleman from West Virginia, Mr. 
McKinley, is recognized for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. In light of what has 
happened in Japan, I assume the NRC still has the authority to 
grant the permits for continuing the design implementation of 
nuclear facility?
    Mr. Jaczko. Certainly. The Agency is an independent 
regulatory agency.
    Mr. McKinley. Is there any delay or are you hearing 
anything that would set up--I would expect some extension might 
be necessary but what would you suggest is a reasonable time 
frame for someone making an application?
    Mr. Jaczko. Well, as I said, I think the process of 
reviewing an application for a nuclear power plant is a very 
complicated process. And this is the first time we are doing 
this, the first time we have done it in a long time. So I think 
there is going to be some lessons that we learned, both the 
applicant and the Agency. I am sorry. I don't want to get into 
kind of speculating how long or surmising how long I think it 
should happen. I would just say that we will do the thorough 
job we need to----
    Mr. McKinley. OK.
    Mr. Jaczko [continuing]. Do to ensure safety of----
    Mr. McKinley. Given that this also is for budgeting, do you 
have some R&D money allocated for researching alternate uses 
for spent fuel rods?
    Mr. Jaczko. We currently in our budget right now have 
significant resources that we are using to look at spent fuel, 
the safety and security of spent fuel and transportation. We 
have a small piece of our budget that is looking at 
reprocessing and developing a framework for reprocessing, which 
would be perhaps what you are referring to----
    Mr. McKinley. If you could send more to me, I would like to 
know a little bit more about it.
    And let us go to the Yucca Mountain just for a moment. I 
don't know whether it is anecdotal or I know, of course, the 
application has been withdrawn but it was my understanding that 
consumers are still paying on their utility bills funds for 
that project. Is that accurate?
    Mr. Jaczko. I believe it is, although I would add that that 
is not an area that the NRC has authority over.
    Mr. McKinley. But is that accurate?
    Mr. Jaczko. I believe it is, but again, I don't follow that 
very closely other than generally what I read in the press.
    Mr. McKinley. OK. I am just curious because from what I 
understand that we are collecting money for something that is 
never going to happen. You don't understand that?
    What about Shippingport? I think that was the first 
facility we had in this country, isn't it? Was that '65? '63? 
When was Shippingport opened?
    Mr. Jaczko. I don't have the exact date of the initial 
license but it was very early on in the U.S. Nuclear Program.
    Mr. McKinley. In light of the circumstances--and maybe I 
don't want to do a knee-jerk reaction at all to this --but will 
you be looking at some of the older facilities what new 
technology or has Shippingport been upgraded all along?
    Mr. Jaczko. Shippingport is no longer an operating reactor.
    Mr. McKinley. It is no longer in operation at all? So what 
happens when Shippingport goes out?
    Mr. Jaczko. Any of the reactors when they go out of service 
are eventually decommissioned. And we have decommissioned a 
large number of reactors in this country.
    Mr. McKinley. OK. There was also a story in the media that 
one of our naval vessels sailed through a cloud out off 
Japan's--were you aware of that?
    Mr. Jaczko. Yes. We did have indications that the early 
days of this incident the reactor was going through a process 
that involves venting steam that accumulates in the reactor 
containment structure. And that steam needs to be released in 
order to reduce the pressures in that containment vessel, which 
is one of the important barriers to----
    Mr. McKinley. Could that have been avoided, the ship going 
through that? Could that have been avoided?
    Mr. Jaczko. Well, my understanding was they were performing 
activities to support search-and-rescue efforts in Japan and 
that the doses that they were experiencing were from that 
particular plume were not doses that would have a significant 
impact to health and safety.
    Mr. McKinley. That is all. I yield back my time. Thank you 
very much.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from Massachusetts, Mr. Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman. Welcome.
    What interim safety measures are you going to require while 
you study the issue? In Germany they are taking interim steps 
right now, as well as Switzerland, China, Venezuela. Are there 
any steps you would like to announce that you are going to take 
in order to ensure that the plants in our country are safe?
    Mr. Jaczko. Well, Congressman, we continue every day to 
make sure that the plants are safe. And at this time we don't 
have any specific actions that we think are necessary to add to 
the safety of the facilities beyond what we do.
    Mr. Markey. Are there any interim advisories that you are 
going to send out? After 9/11 the NRC sent out some interim 
advisories. After Fukushima are you planning on doing that?
    Mr. Jaczko. We do intend to send out what we refer to as a 
Regulatory Information Summary. That will generally 
characterize the event in Japan. Again, at this point we don't 
have detailed information. But that will remind licensees of, 
of course, their obligations under their existing license, but 
as well as these additional measures that I talked about to 
these severe accident types of strategies, as well as the 
efforts that we implemented after 9/11 to put in place these 
systems and procedures to ensure that they could provide 
emergency cooling to the reactor if necessary.
    Mr. Markey. Going back to the question which Chairman 
Whitfield asked you about, Dr. Ma and his concern about the 
AP1000 design, you said with your vote that ``while it is clear 
that the use of ductile material in all areas of the shield 
building would provide an additional enhancement to safety, 
that I am not convinced that such a design requirement 
exists.'' After what is going on in Japan right now, would you 
reconsider that in order to perhaps consider adding that 
ductile material as part of the process of the construction of 
AP1000 plants?
    Mr. Jaczko. As I said, I think we will do a very thorough 
review of the information from Japan. And we don't anticipate 
getting to a final decision on that design at least until the 
end of the summer. So I think there will be plenty of 
information from our review at that time to inform that 
decision.
    Mr. Markey. Yes. As you know, I authored legislation in 
2002 that required the distribution of a potassium iodide to 
residents living within a 20-mile radius of nuclear power 
plants based upon a Sandia study, because we learned after 
Chernobyl that this cheap medication can prevent cancers caused 
by radioactive iodine. The Bush White House ignored my language 
and blocked an effort by HHS to implement it. In fact, they 
even took away HHS' power to complete its KI distribution 
guidelines. The Obama administration has not implemented it 
even though the surgeon general has just said yesterday that 
she thought it was a worthwhile precaution for West Coast 
residents. Don't you think that distribution of potassium 
iodide to residents within 20 miles of nuclear power plants is 
a common-sense measure that should be implemented?
    Mr. Jaczko. Well, the particular protective actions that 
would be issued for any nuclear power plant incident are 
ultimately the responsibilities of the state and local 
governments. They have that primary on-the-ground 
responsibility to decide how to deal with an accident. So----
    Mr. Markey. But the plants are licensed by the Nuclear 
Regulatory Commission, not by the states. You are the Agency of 
expertise in terms of the spread of nuclear materials, not 
state officials. Do you believe that it is advisable to look at 
a 20-mile radius for distribution of potassium iodide?
    Mr. Jaczko. The current policy of the commission is that 
potassium iodide would be one of the protective action that 
could be considered within what we call our emergency----
    Mr. Markey. The Bush guideline was that for 10 to 20 miles, 
people should just start running or ducking under their bed. 
There is no other medicine. So is there a recommendation from 
you that they should look at potassium iodide for the 10- to 
20-mile radius?
    Mr. Jaczko. Again, I would really in many ways defer to 
state and local governments as they believe that that is 
appropriate. I think there certainly are many protective 
actions that could be taken.
    Mr. Markey. I just don't think that they have the expertise 
looking at the probabilistic risk assessment of the likelihood 
of an accident in terms of having KI there. Now, the San Onofre 
reactor is also rated to withstand a 7.0 earthquake. Should we 
be retrofitting those reactors to ensure that they can 
withstand much stronger earthquakes? The IAEA warned Japan 2 
years ago that their nuclear power plants were not designed 
well enough to withstand a strong earthquake and they were only 
able to withstand a 7.0 earthquake. That is what San Onofre is 
designed to withstand. Should we be looking at retrofitting of 
the San Onofre plant and plants like that?
    Mr. Jaczko. Well, as I said, the plants are actually 
designed to the ground motion and the shaking that you would 
get at any facility. And that is based on what we think is the 
maximum earthquake that has occurred in any particular area. So 
it doesn't directly necessarily mean a 7.0 earthquake. It is 
what we think is the maximum credible earthquake. And I 
continue to believe that that is the appropriate standard for 
the Agency. But again, we will take a look at all of the 
information we have from Japan as that comes in and if we have 
to make modifications to our requirements, we will.
    Mr. Markey. I would just hope that maximum credible 
earthquake would be reexamined after what has happened in 
Chile, New Zealand, and Japan, we being in the other part of 
that earthquake zone that is yet to have an earthquake so that 
we do have the proper protections.
    Mr. Whitfield. The gentleman from Louisiana, Mr. Cassidy, 
is recognized for 5 minutes.
    Mr. Cassidy. Thank you, sir. I am a physician so I am going 
to speak about it and sound like a physician. In effect, there 
is going to be a postmortem done on that accident and folks are 
going to go in there and see what went wrong and learn from it 
to ideally keep it from occurring again. Now, are there going 
to be people from industry invited to that party if you will or 
to that postmortem or will it only be academia and government? 
It seems all 3 need to be there. And so I don't think I have 
heard you mentioned having industry there to kind of, well, 
what do we do? Thoughts?
    Mr. Jaczko. Well, we haven't yet decided how we will go 
about our review but I want it to be systematic and methodical. 
Those are the two words that I think are most important right 
now. And in our normal practice as an Agency, we always reach 
out to--there is not just industry but public interest groups 
and other members of the public. So I would expect that 
whatever we do as part of this process will have a significant 
public involvement.
    Mr. Cassidy. Now, let me ask because when I toured the 
nuclear power plant near my home--I am from Louisiana so it is 
the River Bend Nuclear Power Plant--and as I recall they were 
coming up with a failsafe mechanisms to keep the generators 
running even if there was something dire that happened to the 
plant. I gather what has happened here is that the tsunami, 
because the diesel was on the ground, washed away the diesel so 
they were unable to run the generators. So just for the 
reassurance to folks here and frankly my city if you will, it 
seems that we have been proactive on that particular issue so 
that there is a backup to the backup to the backup to keep the 
generators running to pump the water in case--you see where I 
am going with that.
    Mr. Jaczko. Well, we do. And again, I don't want to 
speculate on exactly what happened in Japan because we really 
just don't know yet.
    Mr. Cassidy. I think I am channeling CNN right now.
    Mr. Jaczko. All the diesel generators at nuclear power 
plants in this country are considered vital equipment. The 
emergency diesel generators are vital pieces of equipment, so 
they are designed as with the other safety-significant 
structures and components to be able to withstand the natural 
phenomenon. So depending on the plant that could be hurricanes, 
tornadoes, tsunamis, earthquakes, whatever the natural 
phenomena are that are relevant to a particular site.
    Mr. Cassidy. Knowing that we are not speculating on what 
happened in Japan but just to go to the point, the backup 
generators, to keep those cooling units running, we have 
proactively addressed this in this country and there is a way 
if Hurricane Katrina comes through and hits my State and 1 
system goes out, there is another system to keep it running. Is 
that my understanding?
    Mr. Jaczko. That is correct. Each reactor has at least two 
diesel generators. In the event that one of them can't perform 
its function, there will be an additional. In addition to that, 
many sites have what we call a station blackout diesel or some 
other type of electrical power supply that can function in the 
event that those primary emergency diesel generators are not 
operating. And then, of course, in addition to that, as I have 
referred to, all of the plants in this country have been 
required to look at pre-staging other additional emergency 
equipment that could deal with this kind of situation.
    Mr. Cassidy. You mentioned that.
    Mr. Jaczko. In some cases that would be electrical power 
supplies or portable generators and things like that.
    Mr. Cassidy. Got you. You may have answered this next 
question. I am sorry I was out of the room for a bit. Clearly, 
we are talking not just natural disasters but manmade. Do I 
understand the new nuclear power plants or do I not understand 
correctly that they have to be built so that if there is a 
terrorist attack and a plane is driven into them that somehow 
it is still protected?
    Mr. Jaczko. For the existing fleet of reactors, we have 
required them to be able to deal with large fires and 
explosions that could occur at the plant. And some of that was 
related to the possibilities of terrorist attacks involving 
aircraft. For new plants the new designs are required to be 
able to withstand an aircraft-type impact at the site.
    Mr. Cassidy. Again, you may have said this. The containment 
structure, though, even if there is a meltdown, how effectively 
can a containment structure keep it contained?
    Mr. Jaczko. Well, that is the purpose of the containment 
structure is, again, in the very unlikely event that all of the 
safety systems fail and we are not able to keep cooling to the 
core and it were to eventually have significant fuel damage or 
some kind of melting that any radiological material would be 
contained within that structure.
    Mr. Cassidy. Given that there is some that will be vented 
off but nonetheless, if there is a disaster, it is a disaster 
within the containment?
    Mr. Jaczko. That is the design goal and the expectation. 
And of course, if that were to fail, we have very robust 
programs in place to do emergency evacuations----
    Mr. Cassidy. So this is the 1970s-circa plants, so I 
presume since it dates from the '70s since we have even more 
robust protections?
    Mr. Jaczko. We have looked at all of these plants over the 
years and in some cases--well, actually in the late '80s and 
early '90s we did systematic evaluations of the plants to see 
how they would deal with these kind of very severe accidents. 
In some cases, plants took the step of low-cost modifications 
that would deal with these more severe kinds of events. So we 
have a lot of things that have been done. The plants are 
certainly not the same plants that they were when they were 
originally built and designed.
    Mr. Cassidy. Thank you very much.
    Mr. Whitfield. The gentleman from Michigan, Mr. Dingell, is 
recognized for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    Mr. Chairman, I am sure you are making a careful review of 
the events that are going forward in Japan with regard to the 
nuclear facility over there and the attendant circumstances. 
Will you make such a review?
    Mr. Jaczko. We certainly do intend to. Once we have good, 
credible information we will do a thorough and systematic 
review.
    Mr. Dingell. Good. Well, first of all, (1), would you 
submit to this committee your plans with regard to that as to 
how you intend to go into that to ascertain what happened?
    Mr. Jaczko. We certainly will. We will make those 
available.
    Mr. Dingell. And would you see that we are informed as 
events go forward so we know what is taking place over there?
    Mr. Jaczko. We will certainly do that.
    Mr. Dingell. And would you also submit to us for the record 
how NRC is going to go about defining the lessons that you have 
learned about events in Japan and how you will incorporate them 
into your regulatory requirements? You would do that for us?
    Mr. Jaczko. We will certainly do that.
    Mr. Dingell. Now, does the NRC regularly use new 
information about the different types of risk as these 
different types of risks and information become available? Yes 
or no?
    Mr. Jaczko. Yes.
    Mr. Dingell. Would you provide for the record the process 
by which NRC does this risk assessment?
    Mr. Jaczko. Well, there is a variety of----
    Mr. Dingell. No, just for the record.
    Mr. Jaczko. Oh, well, of course. Yes.
    Mr. Dingell. Our time, Mr. Chairman, is very limited.
    Mr. Jaczko. Of course.
    Mr. Dingell. I have a lot of questions here. Mr. Chairman, 
do the NRC's licensing standards for nuclear plants take into 
account the risk of earthquake or tsunami?
    Mr. Jaczko. They incorporate all natural hazards, including 
earthquakes and tsunamis.
    Mr. Dingell. I would note with distress, I think you 
probably remember Diablo Canyon some years ago where they were 
going to build right on a fault. Are you more careful about 
that than your predecessors were in that particular----
    Mr. Jaczko. Right now we look at all the nuclear power 
plants in the country. We look at seismic activity from all of 
them because while not all plants are in high seismic areas, 
almost all plants could experience some seismic activity from 
lower-level earthquake activity. So we consider that for all 
plants.
    Mr. Dingell. Now, Mr. Chairman, would you provide a list of 
the kinds of disasters for which NRC takes account of in terms 
of its licensing standards? Just submit that for the record, 
please.
    Mr. Jaczko. We will provide that.
    Mr. Dingell. Now, Mr. Chairman, it is my understanding that 
one of the main problems in Japan has been inadequate access to 
emergency power to keep the reactors cool and that that poses 
some substantial ongoing risk. Do NRC's licensing standards 
include adequate access to emergency power and are you 
satisfied that they do so?
    Mr. Jaczko. We believe that our requirements are very 
strong in this area and we continue actively in our inspection 
program to ensure that licensees have the appropriate equipment 
such as diesel generator and that it operates successfully.
    Mr. Dingell. Now, Mr. Chairman, you have an unholy mess on 
your hands, you and the Department of Energy, with regard to 
Yucca Mountain. You have spent near as I can gather something 
like 17 billion on this that has been collected from ratepayers 
for long-term storage of nuclear waste. The administration 
opposes going forward. You have got this nuclear waste that is 
piling up all over the country. Some of it is going in to 
cooling ponds. You are talking about putting the rest in dry 
cask storage. Do you have any kind of long-term plan to address 
what you are going to do with this infernal mess and how you 
are going to deal with the problem?
    Mr. Jaczko. Well, right now we are looking at a longer time 
frame for storage of spent fuel than we have in the past. But 
right now we believe that that spent fuel certainly can be 
stored safely and securely with the existing systems----
    Mr. Dingell. But you don't have----
    Mr. Jaczko [continuing]. For storing several decades' 
worth----
    Mr. Dingell [continuing]. A plan for how you are going to 
deal with it. You are being sued by the electrical utilities 
because they are collecting monies from their ratepayers that 
are not being spent on the purposes for which they are being 
collected. The stuff keeps piling up and you have doubled the 
amount that you can store in a single pool but that is running 
out. You are running out of pools in which to store it. And as 
these plants close, you are going to perhaps lose the 
responsibility of the persons who are storing this thing and 
the stuff just keeps piling up. Is there a long-term plan 
anywhere in government, in your Agency, in the Department of 
Energy, in the Office of Management and Budget, or in any other 
Agency of Federal Government as to what we are going to do 
about this infernal mess?
    Mr. Jaczko. Well, although it is not an area that we are 
directly working, the Secretary of Energy has convened a Blue 
Ribbon Commission to look at some of those longer-term options 
and see what an optimal approach will be.
    Mr. Dingell. The answer, Mr. Chairman, is no, is it not?
    Mr. Jaczko. I believe there are plans through this Blue 
Ribbon Commission to look long-term. And we believe certainly 
from the Agency that the existing systems are----
    Mr. Dingell. The answer, my beloved friend, is no. And I 
say this with respect and affection. But the simple fact of the 
matter is you are sitting on a mighty fine mess that nobody 
knows what to do with and each and every one of those 
situations offers unique opportunity for terrifying mischief to 
the proud public interest and to the people in the area and the 
cost of this whole sorry-ass mess keeps going up and going up.
    Mr. Whitfield. And we agree with you, Mr. Dingell. At this 
point I would like to recognize the gentleman from Texas, Mr. 
Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. And Mr. Chairman, 
thank you for being here and spending so long with us today. 
Thank you for speaking with me yesterday at the end of, 
obviously, what was a very long day for you. And I appreciate 
your willingness to make yourself to Members of both sides of 
the dais during this crisis in Japan.
    Recently, an email has been circulating and I think it came 
to the committee staff that suggested a much higher level of 
radioactivity at one of the plants that had previously been 
reported. Do you know anything about that?
    Mr. Jaczko. Well, we are continuing to monitor the 
situation as best we can. Again, I am not familiar with the 
email that you are talking about but we do believe that 
certainly with one of the spent fuel pools, that there have 
been certainly elevated radiation readings. And over the last 
several days there have been times based on certain incidents 
in the site where radiation levels have gone up and come back 
down.
    Mr. Burgess. Well, when you say elevated, ballpark, are you 
talking about chest x-ray, CAT scan, multiple CAT scans? What 
sort of numbers are you talking about?
    Mr. Jaczko. Right now we have indications at the site of 
radiation levels that would be levels that would be lethal 
within a fairly short period of time. So they are very 
significant radiation levels.
    Mr. Burgess. Very significant. OK. And that is different 
from kind of what we have been hearing before, is that correct?
    Mr. Jaczko. Again, I would say it is certainly a more 
recent development that we have seen these very, very high 
readings.
    Mr. Burgess. OK. Now, you were very good to provide us with 
written testimony. You were very good to provide us with some 
updates on the situation. It is obviously a very fluid 
situation in Japan. Would you be good enough to give us in 
written form what you have described to us as you were 
finishing up your prepared testimony this afternoon so that 
there is no confusion over what--when we quote you, the press 
is here and we will all be asked questions as you finish up. 
Could you provide us the written information that you would 
like us to have?
    Mr. Jaczko. We will provide that for you.
    Mr. Burgess. And I think Mrs. Capps on the other side 
talked about a little bit, I mean, you talked about spent fuel 
pool being dry and radiation being high, again, things that 
were different from what I had been gathering from just the 
press reports just prior to coming in here. And it would be 
good to see that, again, what is factual and what is not.
    Mr. Jaczko. We would be happy to provide that. And I would 
just say that our information is limited so we have been very 
careful to only provide information that we believe is very 
reliable.
    Mr. Burgess. Well, now, we are here to talk about the 
budget and the budget you prepared obviously was before all 
this happened. Do you anticipate submitting an addendum to the 
request in light of things that have happened this past week?
    Mr. Jaczko. That is something we will review. At this point 
I don't have an answer for you, but I will certainly come back 
to the committee if we do.
    Mr. Burgess. Can you give us just kind of a back-to-the-
envelope estimate, in a perfect world what would be the 
percentage of electricity in this country produced by nuclear 
power?
    Mr. Jaczko. It is approximately 20 percent.
    Mr. Burgess. What is being produced now?
    Mr. Jaczko. Currently, I would have to look but I would 
take an estimate of probably about that number. I am not aware 
of any significant planned outages right now.
    Mr. Burgess. So it would be your position as chairman of 
the Nuclear Regulatory Commission that the percentage of 
electricity produced in America would not increase over what it 
is today? Do I understand that correctly?
    Mr. Jaczko. I am sorry.
    Mr. Burgess. In an ideal world this country, maximizing all 
of the different energy-production possibilities that we have, 
what percentage would be nuclear?
    Mr. Jaczko. Well, it is really not up to us to decide that. 
I think the Agency's responsibility is to make sure that if 
there are nuclear power plants in this country that they 
continue to operate safely and securely.
    Mr. Burgess. Do you have a concept of what would be the 
ideal number of nuclear power plants in this country in the 
next 10, 20, 30 years.
    Mr. Jaczko. Certainly, as an Agency we don't have a concept 
of an ideal number. Our job is to make sure it is safe and 
secure.
    Mr. Burgess. How many would be too many for you to keep up 
with to ensure that they were safe?
    Mr. Jaczko. Right now we think certainly we are planning 
for the possibility of new plants to be under construction in 
the next several years, so we believe with the budgets that we 
have developed, we would have the resources we need to handle 
those additional units if they are licensed.
    Mr. Burgess. All right. Chairman Dingell described in very 
colorful terms an infernal mess at Yucca Mountain. If you were 
the king of the nuclear regulatory world, the sole decision-
maker on nuclear waste, what would be the ideal solution? The 
cynic went on. What would you do?
    Mr. Jaczko. Well, as I said, I can't get too much into that 
because we do have an ongoing proceeding with regard to Yucca 
Mountain. And the job of keeping plants and the materials and 
all the things that we regulate safe is pretty much a job that, 
in particular these days, keeps me awake almost 24 hours a day. 
So I will let somebody else worry about some of those other 
broader policy questions.
    Mr. Burgess. We thank you for your activities during this 
crisis. Thank you.
    Mr. Whitfield. At this time I recognize the gentleman from 
Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. Chairman, thanks for 
your patience and endurance today.
    Given what has happened in Japan, I am sure this has been a 
reminder to all of us that everyone agrees that certifying new 
nuclear designs is a crucial and important task to make sure 
these reactors are durable and can be safely operated. And I 
understand that the new reactor design certification process 
involves not only professional and accredited NRC staff but 
there is also an outside expert advisory committee that 
oversees the review and recommendations of the NRC staff, is 
that correct?
    Mr. Jaczko. It is an Agency Independent Advisory Committee.
    Mr. Doyle. That is right, the ACRS.
    Mr. Jaczko. Right.
    Mr. Doyle. And then, ultimately, you and your colleagues 
also evaluate and make your own independent judgments, correct?
    Mr. Jaczko. Correct.
    Mr. Doyle. So I want to address this situation to get more 
clarification and more on the record about concerns raised by 
my good friend, Ed Markey, regarding Westinghouse's AP1000. I 
want you to hopefully provide some more clarification to the 
process that was involved certifying this reactor.
    Now, is it true that Dr. Ma's non-concurrence issues during 
the deliberation for the Westinghouse AP1000 Advanced Final 
Safety Report Evaluation were in fact given due consideration 
by his NRC staff colleagues?
    Mr. Jaczko. I believe that they were.
    Mr. Doyle. And also the members of the Independent Advisory 
Committee for Reactor Safeguards?
    Mr. Jaczko. As part of their review, they did specifically 
receive a presentation from Mr. Ma about the situation.
    Mr. Doyle. And you and your commission colleagues?
    Mr. Jaczko. I don't want to speak for the actions of all of 
my colleagues, but I personally met with him and talked to him 
about his concerns.
    Mr. Doyle. And can you tell us, what happened after Dr. Ma 
made his presentation and raised his concerns? So he raised 
these concerns and tell us what happened after that.
    Mr. Jaczko. Well, I think they were looked at by certainly 
all of the staff at the Agency that were reviewing the design. 
This advisory committee also did look at his perspective and 
they came to their own conclusions that I think, ultimately, no 
one disputes that the recommendations that he had would make 
the design safer, but we think the design as it is right now 
would appear to meet our standards. But I would add that it was 
also Mr. Ma who originally raised concerns with a previous 
iteration of the design. And as a result of those concerns, the 
Agency did indicate to Westinghouse that significant changes 
would need to be made. They, in fact, did make significant 
changes and again, I don't want to speak for him directly, but 
my understanding of Dr. Ma's position is that he thinks that 
those changes are not necessarily enough to satisfy his initial 
concerns.
    Mr. Doyle. But it is true that his concerns were put 
forward and that the NRC team of reviewers that, throughout the 
drafting of the AFSCR, they evaluated it and they basically 
overruled his concerns, basically, as did the subcommittee. I 
mean, this went through a process. I just want to make clear 
for the record that we don't have a person at the Department 
who has raised concerns and they were swept under the rug or 
ignored. I mean, these concerns were addressed. Is that not 
correct?
    Mr. Jaczko. Yes, I feel very strongly that we create an 
environment at the Agency where people can raise concerns and 
those concerns can be thoroughly reviewed and vetted. And I 
believe in this that that is what happened.
    Mr. Doyle. Thank you very much. That is all I have, Mr. 
Chairman.
    Mr. Whitfield. The gentleman from Nebraska, Mr. Terry, is 
recognized for 5 minutes.
    Mr. Terry. Thank you for being here. I am just curious, 
there are two power plants. Mr. Barton talked about one in 
Georgia but there is one in Georgia, one in South Carolina that 
sometime this year, early next year should be issued their 
combined construction and operating licensure. My question, 
first, is there are any discussions occurring to delay that CO 
well now because of the Japanese disaster?
    Mr. Jaczko. Well, right now, those two potential plants 
that you referenced are all based around the AP1000 design. 
That design is currently undergoing a public review process. I 
expect we will get comments as a result of that public process 
related to the situation in Japan. So we will evaluate those as 
we get them.
    Mr. Terry. So it is yes and maybe no?
    Mr. Jaczko. At this point we are following our normal path 
with the reviews at this point.
    Mr. Terry. All right. It sounds like there may be some 
uncertainty in that process of whether they will get their 
combined construction operating license in '11 or early '12.
    Mr. Jaczko. Well, we are proceeding down a path to continue 
the reviews. As I said earlier----
    Mr. Terry. There is no reason to repeat the answer. I am 
curious to how many other applications have been made for the 
early site permits? Do you know how many are sitting with you 
all?
    Mr. Jaczko. We currently have, I believe, 1 or 2 new early 
site permits in front of the Agency or expected to come.
    Mr. Terry. All right. Are there any that have been provided 
the early site permit and now on course to go to the next level 
of permitting? I am just trying to figure out how many are in 
the pipeline.
    Mr. Jaczko. Right now, we have 12 applications in front of 
us for approximately 20 reactors. Those are actual combined 
license applications, and then we have I believe it is two 
early site permits that are not yet tied specifically to an 
actual license for a plant.
    Mr. Terry. All right. I have studied a lot over the past 
couple years the small modular reactors. Just want to know what 
your personal opinion is, where the process is in reviewing the 
technology, how close we are to perhaps even rolling out a 
pilot project.
    Mr. Jaczko. Well, I like to think of the small modular 
reactors in three groupings. We have the small modular 
reactors, which are very much based on the existing type of 
reactors that we have now but smaller. For that type of design, 
which we call integral light water reactors, we would 
anticipate in the next year or so an application for the 
construction of a small modular reactor type. We also 
anticipate one or more applications for designs related to 
those smaller modular reactors.
    The second category we have are what are basically called 
high-temperature gas fractures, so it is a slightly different 
technology. That is mostly work that is tied to the Next 
Generation Nuclear Plant project and that is an activity that 
is a little bit farther away, probably more like 2013 where we 
might see an application.
    The area in which probably there is the least certainty is 
with more of the nontraditional reactor types----
    Mr. Terry. The one that----
    Mr. Jaczko [continuing]. Sodium-cooled reactors----
    Mr. Terry [continuing]. The chairman may have raised 
earlier with you?
    Mr. Jaczko. Exactly. Those are much more right now in what 
I would call the conceptual stage. So they haven't progressed 
to the point where we really have detailed discussions about 
possible reviews of applications.
    Mr. Terry. All right. I appreciate that. I will yield my 59 
seconds back to the Chairman.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from Louisiana, Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman, and Mr. Jaczko. I 
appreciate you being before our committee. I know we have some 
votes on the House floor so I will try to be brief and ask 
direct questions. I think the secretary had indicated that the 
United States was helping Japan doing some testing on 
contamination on the ground. Are you familiar with what types 
of testing that is currently being done that we are involved in 
and have you all found anything right now that is a concern?
    Mr. Jaczko. Well, right now my understanding is we are 
working to provide the ability to do air sampling of radiation. 
We have some readings, as I said, of very high levels of 
contamination around some of the reactor sites. And at this 
point I am not sure of the origin of that, whether that is 
coming from U.S. assistance in Japan or whether that is coming 
directly from the Japanese.
    Mr. Scalise. OK, thanks. I would imagine right now there 
are a number of applications that are pending before your 
Agency at various levels awaiting decisions. Do you anticipate 
that those decisions will still go forward at the current pace 
or do you see anything changing there?
    Mr. Jaczko. Right now we don't have any intention to change 
the approach we are taking. But as I said, we are going to do a 
very systematic and methodical review of the information coming 
from Japan. And if there is some information that would require 
us to revise our approach, then we will certainly do that.
    Mr. Scalise. And I would imagine, you know, as with any 
crisis and, you know, we have experienced more than our fair 
share in South Louisiana, but there will be an evaluation in 
general just to see what lessons can be learned. And I would 
imagine, you know, we will make sure that if we learn some 
things from how they did things right, maybe how they did 
things wrong if they did, that we can incorporate that but in 
the end still move forward and not retreat from energy 
production in this country.
    Mr. Jaczko. Well, we will certainly do that type of review. 
And again, I don't want to prejudge what comes out of it. If we 
get information that tells us we need to make a change, we 
will. If we get information that tells us things are good, then 
we will continue to proceed as we are.
    Mr. Scalise. Thank you for your time. I appreciate it. 
Thank you. Mr. Chairman, I yield back.
    Mr. Whitfield. Mr. Commissioner, I just want to ask in 
response to Mr. Terry's question you talked about on these 
small modulars there are three or four different categories, 
the exiting type, the third type is NGNP 2013 conceptual. What 
determines what category a design would be in? Is that based on 
actual applications or is that just on general knowledge?
    Mr. Jaczko. It is really I would say the state of readiness 
of the designers and the venders themselves.
    Mr. Whitfield. OK.
    Mr. Jaczko. So----
    Mr. Whitfield. The state of readiness of the vendors and 
the designers.
    Mr. Jaczko. Yes.
    Mr. Whitfield. OK. Thank you. Mr. Rush, do you have 
anything else?
    Mr. Rush. Mr. Chairman, Mr. Administrator, I would like to 
know if, in fact, over the last 5 years, can you furnish this 
committee with the infractions or violations or emergency where 
the NRC had to send an emergency crew to any of the facilities 
that operates within the continental United States?
    Mr. Jaczko. We can certainly send you that information.
    Mr. Rush. Yes, I would like to just know what level of 
responses and what level of issues that you have dealt with 
over the last 5 years.
    Mr. Jaczko. We will send you that information.
    Mr. Whitfield. Thank you very much. Mr. Rush, you and I 
have 3 minutes to go. Mr. Commissioner, thank you for your time 
today. We appreciate it very much. We look forward to working 
with you as we move forward in nuclear energy and safety. And 
we look forward to future opportunities.
    Mr. Jaczko. Thank you.
    Mr. Whitfield. With that, the hearing is ended.
    [Whereupon, at 3:35 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Mary Bono Mack

    Secretary Chu and Director Jaczko, I appreciate you being 
here today to talk about your respective Agency's budget.
    As we closely monitor the tragic events unfolding in Japan, 
I'd like to take a moment to express my sincere condolences for 
those impacted.
    Friday's massive earthquake in Japan is the latest in a 
series of major quakes in the recent past: the 6.3 magnitude 
quake in New Zealand this past February and the 8.8-magnitude 
quake in Chile last year. These incidences will undoubtedly 
raise questions about what it means for our nation's nuclear 
energy industry but particularly for those plants most 
vulnerable--those located near earthquake fault lines in 
California. These are important questions that must be 
addressed. I believe that in a state like California, with 
areas of high population coupled with the lingering risk of a 
major earthquake, it is particularly important for nuclear 
power operators to be held to the highest level of safety 
standards.
    While the fault geology may be different in California than 
Japan, we all know that the San Andreas Fault--which runs 
through my district--is due to rupture one day and we must do 
everything we can to be prepared. Earthquake experts predict 
that the next earthquake could register a magnitude of 7.5 or 
greater. It is my understanding that San Onofre Nuclear Power 
Plant was built to withstand a 7.0 quake, and the Diablo Canyon 
is engineered to withstand a 7.5 earthquake, and that many 
safety measures have been taken to address potential hazards. 
However, we must learn from the tragedy in Japan and apply the 
lessons learned to our nuclear facilities in order to ensure 
that the potential risks are fully evaluated. It is important 
to note that Japan thought their plants were prepared to deal 
with the worst possible scenarios, yet the magnitude of the 
disaster overwhelmed their precautions. I look forward to 
working with the Department of Energy and the Nuclear 
Regulatory Commission to ensure that the San Onofre and Diablo 
Canyon plants are built and operated based on the strictest 
safety standards.
    While we learn from the tragedy in Japan, we cannot lose 
site of the important role nuclear energy plays in our energy 
security and our future efforts to achieve energy independence. 
As we move forward, we still need to address the issues facing 
the disposal of spent nuclear waste. I look forward to hearing 
the Administration's plan.
    Mr. Secretary, on a separate note, I look forward to 
working with you regarding renewable energy projects--many of 
which are being developed in my congressional district and are 
awaiting DOE Loan Guarantees. It is my understanding that there 
are more than 70 projects worth more than $30 billion waiting 
loan guarantees. Given that the sunset date of the Section 1705 
Program is just months away [September 30, 2011], I'm 
interested in learning more about how you plan to have these 
loans closed. Many of the projects in my congressional district 
have gone through a lengthy and costly process. All the while, 
the unemployment rate in Riverside County is above 14 percent 
and people are waiting to be put to work.
    Secretary Chu and Director Jaczko, thank you for being here 
today to discuss your proposed budgets. It is critical that the 
federal government prioritizes our spending. Just as families 
in my congressional district are making tough budget 
sacrifices, we too must make fiscally responsible decisions 
here in Washington.
                              ----------                              


                Prepared statement of Hon. Gregg Harper

    Mr. Chairman:
    Nuclear power is vital to meeting America's future energy 
needs. I support the effective low-cost programs that Congress 
has established in recent years to facilitate development of 
the next generation of nuclear power facilities.
    Congress has discussed on many occasions the need for 
energy security. Two elements of energy security do not enter 
frequently enough into our discussions of energy security: the 
diversity of domestic fuel sources we use, and workforce 
experience in developing new facilities.
    It is not enough to say that nuclear is important because 
we have a ready domestic supply of nuclear fuel, or because it 
constitutes nearly 20 percent of U.S. electric generation, or 
because it is a clean energy source. We need to facilitate the 
commercial nuclear renaissance because having a diverse 
generation mix is in the interest of energy security, and it is 
in the interest of customers because diversity helps to 
maintain lower prices for consumers. And in a country that has 
now gone more than two decades without completing a new nuclear 
generation facility, we need to rebuild a skilled workforce if 
nuclear is to maintain its vital position as part of America's 
diverse electric generation mix.
    The Department of Energy (DOE) Loan Guarantee program is a 
very cost effective way for the federal government preserve 
nuclear energy's role in our diverse energy portfolio and bring 
into operation new, more efficient, and even safer plant 
designs than those that have safely served the nation for the 
past five decades. At minimal (virtually no) cost to the 
government, the DOE loan guarantee program very significantly 
reduces the cost of borrowing to construct nuclear facilities. 
The program will save consumers billions of dollars with the 
overwhelming likelihood that taxpayers will bear only the 
modest costs of administering the program, and much of those 
costs are offset through application fees.
    Given the serious economic trough of the past several years 
and the recent twin natural disasters in Japan affecting the 
Fukushima Daiichi nuclear facility, it is natural that concerns 
could arise about repayment of any loans that are guaranteed. 
Is there a new significant risk to the government? No.
    Take the example of Southern Company's Vogtle Units 3 and 4 
project, through which two new reactors are being constructed 
by Georgia Power Company, a Southern Company operating company. 
DOE has agreed to guarantee $8.3 billion in loans for the 
project, again, substantially reducing the interest paid on the 
money loaned by private sources. Characteristic of the entities 
that have applied for the guarantees, Southern Company's market 
value far exceeds the amount guaranteed, as do the assets of 
Georgia Power. In the unlikely event of a default on the loan, 
DOE has a first lien on the plant and full recourse to all of 
Georgia Power's $25 billion in assets along with its other debt 
holders. The loan is expected to be less than 15 percent of 
Georgia Power's projected book capitalization and less than 10 
percent of Southern Company's projected book capitalization at 
the time of commercial operation.
    Furthermore, the Georgia Public Service Commission, which 
regulates Georgia Power, certified the construction project, 
which certification includes cost recovery in customer rates as 
the facility is being constructed. The cost recovery process 
included in the certification requires semi-annual verification 
and approval of costs. This further reduces DOE's minimal risk.
    Neither the economic downturn nor Japan's emergency have 
changed materially the factors on which DOE's loan guarantee 
was premised: a large, well-capitalized, regulated company 
borrowing a small fraction of its net worth to construct 
facilities required to meet future needs.
    The situation in Japan demands that we consider whether 
existing and new nuclear reactors will be operated safely in 
the U.S. To what extent is it relevant to apply the 
circumstances of one of the most powerful earthquakes in 
recorded history and a resulting tsunami when we review the 
safety of our fleet? Many have discussed the existing fleet; 
again, let me concentrate on the future.
    Vogtle Units 3 and 4 will be constructed using the 
Westinghouse AP1000 design. This and other new designs 
incorporate a variety of safety advances beyond those in the 
existing domestic nuclear fleet, which as noted above has 
operated with a very strong safety record for a half-century. 
As an example, the AP1000 design will shut down in the event of 
a design-basis accident in the absence of power or pumps. It 
depends on natural circulation and gravity to maintain 
containment and prevent the reactor from overheating.
    In closing, I repeat for emphasis two statements made by 
Nuclear Regulatory Commission Chairman Greg Jaczko at the 
hearing on March 16:

    We review all designs against a wide range of natural 
disasters--tsunamis, earthquakes, tornados, hurricanes--it just 
depends on the geographic location.

    All the plants have a requirement to be designed to deal 
with the kinds of earthquakes we would expect in about a 200 
mile radius from that nuclear power plant. . . . They all have 
to withstand what we think is the maximum expected earthquake 
from the historical record within about 200 miles of that site.

    I thank the Chairman for the opportunity to submit these 
materials for the record.
                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
